<html>
<title> - FATHERHOOD AND WELFARE REFORM</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
                     FATHERHOOD AND WELFARE REFORM

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 30, 1998

                               __________

                             Serial 105-78

                               __________

         Printed for the use of the Committee on Ways and Means




                     U.S. GOVERNMENT PRINTING OFFICE
58-554 CC                    WASHINGTON : 1999




                      COMMITTEE ON WAYS AND MEANS

                      BILL ARCHER, Texas, Chairman

PHILIP M. CRANE, Illinois            CHARLES B. RANGEL, New York
BILL THOMAS, California              FORTNEY PETE STARK, California
E. CLAY SHAW, Jr., Florida           ROBERT T. MATSUI, California
NANCY L. JOHNSON, Connecticut        BARBARA B. KENNELLY, Connecticut
JIM BUNNING, Kentucky                WILLIAM J. COYNE, Pennsylvania
AMO HOUGHTON, New York               SANDER M. LEVIN, Michigan
WALLY HERGER, California             BENJAMIN L. CARDIN, Maryland
JIM McCRERY, Louisiana               JIM McDERMOTT, Washington
DAVE CAMP, Michigan                  GERALD D. KLECZKA, Wisconsin
JIM RAMSTAD, Minnesota               JOHN LEWIS, Georgia
JIM NUSSLE, Iowa                     RICHARD E. NEAL, Massachusetts
SAM JOHNSON, Texas                   MICHAEL R. McNULTY, New York
JENNIFER DUNN, Washington            WILLIAM J. JEFFERSON, Louisiana
MAC COLLINS, Georgia                 JOHN S. TANNER, Tennessee
ROB PORTMAN, Ohio                    XAVIER BECERRA, California
PHILIP S. ENGLISH, Pennsylvania      KAREN L. THURMAN, Florida
JOHN ENSIGN, Nevada
JON CHRISTENSEN, Nebraska
WES WATKINS, Oklahoma
J.D. HAYWORTH, Arizona
JERRY WELLER, Illinois
KENNY HULSHOF, Missouri

                     A.L. Singleton, Chief of Staff

                  Janice Mays, Minority Chief Counsel

                                 ______

                    Subcommittee on Human Resources

                  E. CLAY SHAW, Jr., Florida, Chairman

DAVE CAMP, Michigan                  SANDER M. LEVIN, Michigan
JIM McCRERY, Louisiana               FORTNEY PETE STARK, California
MAC COLLINS, Georgia                 ROBERT T. MATSUI, California
PHILIP S. ENGLISH, Pennsylvania      WILLIAM J. COYNE, Pennsylvania
JOHN ENSIGN, Nevada                  WILLIAM J. JEFFERSON, Louisiana
J.D. HAYWORTH, Arizona
WES WATKINS, Oklahoma


Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Ways and Means are also published 
in electronic form. The printed hearing record remains the official 
version. Because electronic submissions are used to prepare both 
printed and electronic versions of the hearing record, the process of 
converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                                                                   Page

Advisory of July 23, 1998, announcing the hearing................     2

                               WITNESSES

Baltimore City Healthy Start Program:
    Joseph T. Jones, Jr..........................................     8
    Paul Hope....................................................    14
    Anthony Edwards..............................................    16
    Victor Downing, Sr., and Victor Downing, Jr..................    17
Center on Budget and Policy Priorities, Wendell Primus...........    53
Ford Foundation, Ronald B. Mincy.................................    43
Institute for Responsible Fatherhood and Family Revitalization, 
  Charles A. Ballard.............................................    38
Manpower Demonstration Research Corporation, Gordon L. Berlin....    62
National Fatherhood Initiative, Wade F. Horn.....................    31

                       SUBMISSIONS FOR THE RECORD

Catholic Charities/North, Lynn, MA, statement....................    79
Center for Families, West Lafayette, IN, and Purdue University, 
  statement......................................................    81
Citizens for Parental Accountability, Chantilly, VA, Pam Cave, 
  statement......................................................    82
Connecticut, State of, Commission on Children, Hartford, CT, 
  letter.........................................................    82


                     FATHERHOOD AND WELFARE REFORM

                              ----------                              


                        THURSDAY, JULY 30, 1998

                  House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Human Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 11:04 a.m., in 
room B-318, Rayburn House Office Building, Hon. E. Clay Shaw, 
Jr. (Chairman of the Subcommittee), presiding.
    [The advisory announcing the hearing follows:]

ADVISORY

FROM THE 
COMMITTEE
 ON WAYS 
AND 
MEANS

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                                CONTACT: (202) 225-1025
FOR IMMEDIATE RELEASE

July 23, 1998

No. HR-17

                       Shaw Announces Hearing on

                     Fatherhood and Welfare Reform

    Congressman E. Clay Shaw, Jr., (R-FL), Chairman, Subcommittee on 
Human Resources of the Committee on Ways and Means, today announced 
that the Subcommittee will hold a hearing on fatherhood and welfare 
reform. The hearing will take place on Thursday, July 30, 1998, in room 
B-318 of the Rayburn House Office Building, beginning at 11:00 a.m.
      
    In view of the limited time available to hear witnesses, oral 
testimony at this hearing will be taken from invited witnesses only. 
Witnesses will include fathers whose children are on welfare, 
individuals who have designed and conducted programs for low-income 
fathers, advocates for fathers, and researchers. Any individual or 
organization not scheduled for an oral appearance may submit a written 
statement for consideration by the Committee and for inclusion in the 
printed record of the hearing.
      

BACKGROUND:

      
    The purpose of this hearing is to examine the social, economic, and 
legal difficulties faced by unmarried fathers of children on welfare. 
Numerous studies suggest that these fathers tend to have lower levels 
of education and income as well as elevated rates of unemployment and 
incarceration as compared with other fathers. These problems make it 
difficult for them to form two-parent families and to play a positive 
role in the rearing of their children. Studies also show that the 
consequence of father absence is that children, especially boys, are 
likely to develop the same problems that afflict their fathers, thus 
creating an intergenerational cycle of children being reared in female-
headed families.
      
    On March 3, 1998, Chairman Shaw, along with several other Members 
of the Subcommittee, introduced H.R. 3314, the ``Fathers Count Act of 
1998.'' The purpose of H.R. 3314 is to prevent this unfortunate cycle 
of children being reared in fatherless families by supporting projects 
that help fathers meet their responsibilities as marital husbands, 
parents, and providers. The bill is aimed at promoting marriage among 
parents, helping poor and low-income fathers establish positive 
relationships with their children and the children's mothers, promoting 
responsible parenting, and increasing family income. The legislation 
aims to accomplish these goals by providing a block grant to States to 
select and fund community-based projects conducted primarily by non-
profit and faith-based organizations.
      
    In announcing the hearing, Chairman Shaw stated: ``These young men 
face very difficult problems, and I want the American people and 
Members of the Subcommittee to understand how these problems interfere 
with their ability to become good husbands and good fathers. If we hope 
to reverse the negative cycle of fatherless families, we must begin by 
understanding the barriers faced by these fathers and by supporting 
community-based and faith-based programs that can help them overcome 
these barriers. Promoting marriage and two-parent families, and 
aggressively helping these men become responsible parents, is the next 
step in welfare reform.''
      

FOCUS OF THE HEARING:

      
    The hearing will focus on two primary issues. First, based on 
testimony from young fathers whose children are on welfare, the 
Subcommittee hopes to learn first-hand what barriers these fathers face 
in attempting to become better parents, to form two-parent families, 
and to secure good jobs. Second, the Subcommittee will hear about 
programs designed to help fathers overcome these barriers.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Any person or organization wishing to submit a written statement 
for the printed record of the hearing should submit six (6) single-
spaced copies of their statement, along with an IBM compatible 3.5-inch 
diskette in WordPerfect 5.1 format, with their name, address, and 
hearing date noted on a label, by the close of business, Thursday, 
August 13, 1998, to A.L. Singleton, Chief of Staff, Committee on Ways 
and Means, U.S. House of Representatives, 1102 Longworth House Office 
Building, Washington, D.C. 20515. If those filing written statements 
wish to have their statements distributed to the press and interested 
public at the hearing, they may deliver 200 additional copies for this 
purpose to the Subcommittee on Human Resources office, room B-317, 
Rayburn House Office Building, at least one hour before the hearing 
begins.


FORMATTING REQUIREMENTS:

      
    Each statement presented for printing to the Committee by a 
witness, any written statement or exhibit submitted for the printed 
record or any written comments in response to a request for written 
comments must conform to the guidelines listed below. Any statement or 
exhibit not in compliance with these guidelines will not be printed, 
but will be maintained in the Committee files for review and use by the 
Committee.
      
    1. All statements and any accompanying exhibits for printing must 
be submitted on an IBM compatible 3.5-inch diskette WordPerfect 5.1 
format, typed in single space and may not exceed a total of 10 pages 
including attachments. Witnesses are advised that the Committee will 
rely on electronic submissions for printing the official hearing 
record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. A witness appearing at a public hearing, or submitting a 
statement for the record of a public hearing, or submitting written 
comments in response to a published request for comments by the 
Committee, must include on his statement or submission a list of all 
clients, persons, or organizations on whose behalf the witness appears.
      
    4. A supplemental sheet must accompany each statement listing the 
name, company, address, telephone and fax numbers where the witness or 
the designated representative may be reached. This supplemental sheet 
will not be included in the printed record.
      
    The above restrictions and limitations apply only to material being 
submitted for printing. Statements and exhibits or supplementary 
material submitted solely for distribution to the Members, the press, 
and the public during the course of a public hearing may be submitted 
in other forms.
      

    Note: All Committee advisories and news releases are available on 
the World Wide Web at ``http://www.house.gov/ways__means/''.

      
    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.
      

                                <F-dash>

    Chairman Shaw. Good morning. I am very pleased after a very 
late night last night, after 1 a.m., to see that we have got 
this many of our Members here this morning. We will be getting 
more as they come in. I am also very pleased to see the 
interest in this most important subject that is shown by the 
visitors and the Members or the people that are going to be 
testifying this morning before us. I have been looking forward 
to this hearing now for several months because I have come to 
believe that fathers are an essential, crucial, irreplaceable 
part of both low-income families and of welfare reforms, and 
indeed of all families.
    It would be impossible to exaggerate how much I respect the 
job that single mothers do today. I have even greater respect 
for them as a result of their very positive and constructive 
response to welfare reform. I have dedicated a great deal of 
work during my years in Congress to ensuring that low-income 
mothers who are employed get plenty of public support through 
the earned income tax credit, child care and medical 
assistance, Medicaid assistance, all of which have been 
expanded in recent years.
    But my vision of America's social policy is not only that 
we figure out ways to help single mothers support their 
children. Because of my concern for the economic viability of 
the family and even more important, for the adequate 
development of children, I think we must move beyond simply 
helping mothers work. We must take the next step by doing 
everything we can do to increase the number of our Nation's 
children being raised in two-parent families.
    For too long, American social policy has aided and abetted 
the creation of never-married female-headed families. As a 
result, our Nation is now afflicted by a large number of 
neighborhoods that have very few two-parent families--in some 
neighborhoods, fewer than 20 percent of the families with 
children have two parents living at home.
    We have embarked on an experiment in civilization that 
poses the following question. Can children--especially boys--be 
raised by single mothers in neighborhoods where there are few 
adult male role models? The answer is this: In 1995, death by 
homicide by black teenage males was four times the rate for 
white teenage males, and more than twice as high as it was for 
black teenage males as recently as 1980. Similarly, the 
homicide rate for white boys nearly doubled over the same 
period. We must do something to increase marriage and two-
parent families.
    Now I am aware that there are many, including some of the 
most respected Members of my own party, who think that getting 
government involved in promoting marriage or promoting 
fatherhood is foolish. Perhaps so. But many of these same 
critics also believe that the old AFDC, Aid to Families With 
Dependent Children, Program, as well as our tax policy, have 
contributed to the growth of single-parent families. If 
government policy can contribute to creating single-parent 
families, it seems reasonable to me to conclude a government 
policy could also contribute to the demise of the single-parent 
family.
    Furthermore, the approach I want to take is to give States 
money to support community-based and faith-based organizations 
to work with these fathers. We are not funding government 
programs. We are stimulating the growth of private sector and 
faith-based programs.
    I admit that there is little evidence to indicate that we 
know how to mount effective programs that promote marriage. But 
that is why we are having this hearing today. First, I want to 
hear from the fathers themselves about how we can promote 
marriage and two-parent families. I'll tell you this--I have no 
doubt that the fathers who have so generously agreed to come 
talk with us today are willing to have lots of changes in their 
lives to help their children. I'll bet low-income fathers all 
over the country feel the same way.
    So here is the key. Fathers want to help their children. We 
want to help fathers help their children. We can work this out. 
But let's begin with the understanding that the road we will 
take will be difficult. Now it's time to get moving.
    [The opening statement follows:]

Opening Statement of Hon. E. Clay Shaw, Jr., a Representative in 
Congress from the State of Florida

    I have been looking forward to this hearing for several 
months because I have come to believe that fathers are an 
essential, crucial, irreplaceable part of both low-income 
families and of welfare reform.
    It would be impossible to exaggerate how much I respect the 
job single mothers do. I have even greater respect for them as 
a result of their very positive and constructive response to 
welfare reform. And I have dedicated a great deal of work 
during my years in Congress to ensuring that low-income mothers 
who are employed get plenty of public support through the 
earned income credit, child care, and medical assistance--all 
of which have been expanded in recent years.
    But my vision of American social policy is not only that we 
figure out ways to help single mothers support their children. 
Because of my concern for the economic viability of the family, 
and even more important, for the adequate development of 
children, I think we must move beyond simply helping mothers 
work. We must take the next step by doing everything we can to 
increase the number of our nation's children being raised in 
two-parent families.
    For too long, American social policy has aided and abetted 
the creation of never-married, female-headed families. As a 
result, our nation is now afflicted by a large number of 
neighborhoods that have very few two-parent families--in some 
neighborhoods fewer than 20 percent of the families with 
children have two parents.
    So we have embarked on an experiment in civilization that 
poses the following question: Can children--especially boys--be 
raised by single mothers in neighborhoods where there are few 
adult male role models? The answer is this: In 1995, death by 
homicide for black teenage males was four times the rate for 
white teen males and more than twice as high as it was for 
black teen males as recently as 1980. Similarly, the homicide 
rate for white boys nearly doubled over the same period.
    So we must do something to increase marriage and two-parent 
families.
    Now I am aware that there are many, including some of the 
most respected members of my own party, who think that getting 
government involved in promoting marriage is foolish. Perhaps 
so. But many of these same critics also believe that the old 
AFDC program, as well as our tax policy, have contributed to 
the growth of single-parent families. So if government policy 
can contribute to creating single-parent families, it seems 
reasonable to conclude that government policy could also 
contribute to the demise of single-parent families.
    Furthermore, the approach I want to take is to give states 
money to support community-based and faith-based organizations 
to work with these fathers. We are not funding government 
programs. We are stimulating the growth of private sector and 
faith-based programs.
    I admit that there is little evidence to indicate that we 
know how to mount effective programs that promote marriage. But 
that's why we're having this hearing today. First, I want to 
hear from the fathers themselves about how we can promote 
marriage and two-parent families. I'll tell you this--I have no 
doubt that the fathers who have so graciously agreed to come 
talk with us today are willing to make lots of changes in their 
lives to help their children. And I'll bet low-income fathers 
all over the country feel the same way.
    So here's the key. Fathers want to help their children. And 
we want to help fathers help their children. We can work this 
out. But let's begin with the understanding that the road will 
be long and difficult. Let's get moving.
      

                                <F-dash>

    Chairman Shaw. Mr. Levin, would you have an opening 
statement?
    Mr. Levin. Thank you very much, Mr. Chairman. I commend you 
for holding this hearing on helping fathers meet their parental 
obligations to their children. Like you, I believe we can do 
more to increase the employment and related opportunities of 
low-income fathers whose children are on welfare.
    I also support efforts, very much so, to help promote 
stable two-parent families, recognizing at the same time that 
such a goal may not always be achievable. But that is only part 
of the equation. We should also help noncustodial fathers make 
a direct and immediate improvement in the lives of their 
welfare-dependent children. One of the best ways to achieve 
this would be to pass through at least a portion of the child 
support payments to families receiving public assistance.
    Although one could argue that this money should be used to 
recoup government welfare costs as it does now, I believe a 
better case can be made for sending at least a portion of it to 
low-income families. Such a policy would not only immediately 
improve the standard of living for many children in poverty, 
but it would also make noncustodial fathers feel their efforts 
to find and keep a job has made a real difference in their 
children's lives. This sense of responsibility is surely 
something we want to foster, especially when it could lead to 
deeper emotional attachments between fathers and children.
    Let me also say that as we discuss new ways, and I applaud 
you for exploring them, to help noncustodial fathers meet their 
obligations to their children, we should not forget that we 
already have several existing programs designed at least in 
part for that very purpose. Unfortunately, these same programs 
have been mentioned as targets for budget cuts. For example, 
the welfare-to-work grants, which the House Budget Committee 
targeted for elimination, are being utilized by many States to 
help noncustodial parents find and maintain employment.
    In fact, my home State of Michigan has instituted a new 
program to help noncustodial parents move to self-sufficiency. 
Using the welfare-to-work grant moneys, the county friend-of-
the-court offices and the Michigan Jobs Commission are teaming 
up to provide services such as unsubsidized employment, 
community services, work experience, subsidized private and 
public sector employment, on-the-job training, and 
postemployment programs to help noncustodial parents. This 
program provides an opportunity to ensure that all noncustodial 
parents have sufficient employment so that they can make their 
required child support payments and contribute to the 
upbringing of their kids.
    I also understand that some of today's witnesses have 
developed programs to help fathers with funding from these 
welfare-to-work grants and I look forward to hearing more about 
these during their testimony. What is clear is that innovative 
programs such as these would cease to exist if the welfare-to-
work program is zeroed out.
    Furthermore, the earned income tax credit, EITC, which 
could also be on the cuttingboard, increases the take-home pay 
of all low-income working parents. It is important to remember 
that noncustodial fathers who pay child support are considered 
tax filers without qualifying children for the purposes of 
EITC. This means that the Budget Committee Chairman's 
suggestion to eliminate EITC for so-called childless workers is 
clearly at odds with helping fathers support their children.
    Finally, I want to mention an issue that impacts millions 
of fathers and mothers alike, the availability and 
affordability of child care. We have to recognize the intense 
pressure on low-income families for both parents to work, 
especially since a single minimum wage job leaves families well 
below the poverty line. If we are going to help families face 
the dual challenges of earning a living and raising a family, 
then we have to ensure that they have access to quality 
daycare. Unfortunately, no Subcommittee has yet to hold even a 
single hearing on the President's proposal to make child care 
safer, better, and more affordable for America's working 
families.
    Mr. Chairman, I look forward to hearing the testimony of 
our witnesses today on helping parents support their children. 
Let me also say, Mr. Chairman, I think you would join me in 
this, that it seems appropriate during our discussion of 
fatherhood, to remember two devoted fathers who recently lost 
their lives defending the Nation's Capitol. By all accounts, 
Jacob Chestnut and John Gibson were dedicated parents. All of 
us could learn from their example. Perhaps we should join in a 
brief moment of silence to honor these two fallen Capitol 
policemen.
    [The opening statement follows:]

Opening Statement of Hon. Sander Levin, a Representative in Congress 
from the State of Michigan

    Mr. Chairman, I commend you for holding this hearing on 
helping fathers meet their parental obligations to their 
children. Like you, I believe we can do more to increase the 
employment opportunities of low-income fathers whose children 
are on welfare. I also support efforts to help promote stable 
two-parent families, while at the same time recognizing such a 
goal is not always possible.
    But that is only part of the equation. We should also help 
non-custodial fathers make a direct and immediate improvement 
in the lives of their welfare-dependent children. One of the 
best ways to achieve this would be to ``pass-through'' at least 
a portion of the child support payments to families receiving 
public assistance.
    Although one could argue this money should be used to 
recoup government welfare cost (as it does now), I believe a 
better case can be made for sending it to low-income families. 
Such a policy would not only immediately improve the standard 
of living for many children in poverty, but it would also make 
non-custodial fathers feel their efforts to find and keep a job 
has made a real difference in their children's lives. This 
sense of responsibility is surely something we want to foster, 
especially when it could lead to deeper emotional attachments 
between fathers and children.
    Let me also say that as we discuss new ways to help non-
custodial fathers meet their obligations to their children, we 
should not forget that we already have a few existing programs 
designed, at least in part, for that very purpose. 
Unfortunately, these same programs have been mentioned as 
targets for budget cuts.
    For example, the welfare-to-work grants, which the House 
Budget Committee targeted for elimination, are being utilized 
by many states to help non-custodial parents find and maintain 
employment. In fact, my home state of Michigan has instituted a 
new program to help non-custodial parents move to self-
sufficiency. Using the welfare-to-work grant monies, county 
Friend of the Court Offices and the Michigan Jobs Commission 
are teaming up to provide services such as: unsubsidized 
employment, community services, work experience, subsidized 
private and public sector employment, on-the-job training and 
post-employment programs to help non-custodial parents.
    This program provides an opportunity to ensure that all 
non-custodial parents have sufficient employment so that they 
can make their required child support payments and contribute 
to the upbringing of their children. I also understand that 
some of today's witnesses have developed programs to help 
fathers with funding from these welfare-to-work grants and I 
look forward to hearing more about them during their testimony.
    What is clear is that innovative programs such as these 
would cease to exist if the welfare-to-work program is zeroed 
out.
    Furthermore, the Earned Income Tax Credit (EITC), which 
could also be on the proverbial cutting board, increases the 
take home pay of all low-income working parents. It is 
important to remember that non-custodial fathers who pay child 
support are considered tax filers without qualifying children 
for the purposes of the EITC. This means Mr. Kaisich's 
suggestion to eliminate the EITC for so-called ``childless 
workers'' is clearly at odds with helping fathers support their 
children.
    Finally, I want to mention an issue that impacts millions 
of fathers and mothers alike-the availability and affordability 
of child care. We have to recognize the intense economic 
pressure in low-income families for both parents to work, 
especially since a single minimum wage leaves families well 
below the poverty line. If we are going to help families face 
the dual challenges of earning a living and raising a family, 
then we have to ensure they have access to quality day care. 
Unfortunately, this subcommittee has yet to hold even a single 
hearing on President Clinton's proposal to make child care 
safer, better and more affordable for America's working 
families.
    Mr. Chairman, I look forward to hearing the testimony of 
our witnesses today and helping parents support their children 
in the near future.
      

                                <F-dash>

    Chairman Shaw. Thank you, Mr. Levin. I think that would be 
both quite appropriate for us, just for one moment, to recall 
and appreciate what they stood for and what they did for all of 
us. So, we will have one moment.
    Thank you. We will now call our first panel. We have Joseph 
T. Jones, Jr., who is the director of the Men's Services and 
Employment Initiatives at Baltimore Healthy Start Program; Paul 
Hope, a participant in the Baltimore Healthy Start Program; 
Anthony Edwards, a men's services counselor and graduate of 
another responsible fatherhood program. We have a substitute 
witness for our fourth member of this panel. The witness that 
is on the program is ill, but we have Mr. Downing and we have 
his son, which I am very pleased to say, came with him. We want 
both Downing and son to join us at the witness table.
    I thank all of you. Those of you who have submitted a 
written statement, we have that statement for the record. Your 
full statement will be made a part of the record. We invite you 
to summarize as you see fit.
    We will start with you, Mr. Jones.

STATEMENT OF JOSEPH T. JONES, JR., DIRECTOR, MEN'S SERVICES AND 
  EMPLOYMENT INITIATIVES, BALTIMORE CITY HEALTHY START PROGRAM

    Mr. Jones. Good morning, Chairman Shaw and other Members of 
the Subcommittee. I want to take this opportunity to thank you 
for inviting me to testify and for holding these hearings today 
that have potential major implications for the field of 
fatherhood.
    I would also like to acknowledge some of my colleagues, 
mentors, and contributors to my development and to the field. 
First, I would like to thank a gentleman who is not here, Ed 
Pitt, who is with the Fatherhood Project at the Families and 
Work Institute, and also a colleague of mine who is here, 
Charles Ballard, who for a long time has laid the path for a 
lot of us to do work, and has been an inspiration to many. Also 
Dr. Jeffrey Johnson and Ralph Smith, from the Annie E. Casey 
Foundation. Mr. Johnson is with the NPCL. I cannot say the 
entire name the acronym stands for, but NPCL which is here in 
Washington, DC, and doing a lot of field development work.
    Second, I would like to thank two people who have really 
done a lot to get us to the point where we are today. First 
would be Vice President Al Gore, who in 1994 held a family 
reunion conference where the theme was the role of men in 
children's lives. Many of us here today were at that 
conference, and subsequent to that formed a network called the 
National Practitioner's Network for Fathers and Families that 
is designed to provide the kind of resources to fledgling 
programs around the country who want to do this work, both 
Republican, both Democrat, Independent, and maybe some others.
    The other significant movement, activity in this movement, 
happened a few months ago. Many of you here today were involved 
with that event. That was Wade Horn and the National Fatherhood 
Initiative's Fatherhood Summit. That probably is the single or 
high profile event that's gotten us to the point where 
fatherhood is a little bit more than just a little cute thing.
    Last, I would like to acknowledge a key mentor of mine, 
someone who I affectionately tease sometimes as having a Ph.D. 
from MIT. That is Dr. Ronald Mincy from the Ford Foundation, 
who has dedicated his life and a large part of his portfolio at 
the Ford Foundation to the development of this field, 
particularly as it relates to inner-city low-income 
noncustodial parents and fatherhood. Without his support, I 
can't tell you where the field would be today.
    I also would like to acknowledge the other members on the 
panel with me today, Victor Downing, Jr. I can tell you he is a 
little bit nervous, but he says he is prepared. His dad, Victor 
Downing, Sr., Paul Hope, and last, Anthony Edwards.
    In 1993 the Department of Health and Human Services--excuse 
me, 1992, the Department of Health and Human Services awarded 
15 cities across the country Healthy Start dollars to reduce 
infant mortality. In Baltimore, we chose to use a portion of 
those funds to create a fatherhood component that would work 
with the fathers of babies born to women enrolled in Healthy 
Start. In Baltimore, we have two target areas in our poorest 
communities where women go door to door recruiting pregnant 
women. The fathers in my program are the fathers of babies born 
to women who live in those poorest communities. Many of the 
moms, over 98 percent of them, are on welfare, formerly known 
as AFDC, now TANF, Temporary Assistance for Needy Families. The 
fathers in the program, and I would like to give you a brief 
profile of the fathers in our program.
    Currently, we have 200 fathers in the program. I have two 
programs, one in east Baltimore and one in west Baltimore, and 
100 fathers in each. Currently, the average age of fathers in 
the program is 24 years. The average father dropped out of 
school prior to getting a high school diploma, around the ninth 
grade. At enrollment, 80 percent of the 200 fathers in the 
program are unemployed. The majority of the fathers in the 
program have had little to no contact or any meaningful 
relationship with their own fathers. Second, there is a huge 
involvement with the criminal justice system. Most of the 
offenses are minor and most of them are drug related, usually 
possession.
    But I think the problem goes a little deeper than that, Mr. 
Chairman. Some people look at these guys and say well, why 
shouldn't they do the right thing. But because of some of the 
chaotic lifestyles they lead, one particular aspect I want to 
highlight, and that's the fact that most of the men in the 
program don't have a government-issued ID. Now why is that 
important? Because once a person decides he wants to be 
involved in mainstream activity, that is usually your license 
to participate. It is your access to a bank account, it is your 
access to credit, it is your access to a lot of things.
    What does that mean? That means that the men in the 
program, in order to get a driver's license have to have a 
birth certificate, a Social Security card, and two pieces of 
correspondence with their address on it before they can obtain 
the government-issued ID. Most of the men do not have 
possession of their birth certificate or their Social Security 
card, and must go to two different facilities to obtain those 
particular documents prior to getting an ID. That is one of the 
things that we require men to do at the onset at this point. 
Prior to now, we did not do that. We found ourselves spinning a 
tremendous amount of wheels when we tried to get a guy into 
employment.
    Although this profile is discouraging, through advocacy, 
education, support, and a no-nonsense approach to providing 
services to the men, we have seen significant changes in 
attitudes and behavior.
    I want to take a second to tell you about a little guy. 
This is a guy who was born to a mom and dad who were married, 
who were struggling to build their professional careers, and 
who lived in Baltimore's public housing projects. At about 11 
years of age, at the child's 11th year of age, the mom and dad 
were having significant marital problems and decided to 
separate. Two years after their separation, at age 13, this 
little boy began to inject heroin and subsequently cocaine for 
approximately 17 years. It took 17 years of H-E-L-L before that 
person was able to get the kind of support where they could 
turn their life around and then take on these mainstream 
behaviors and participate in the kind of activities all of us 
either participate in and would like to see other people 
participate in.
    Unfortunately, that little boy I am talking about was me. 
Fortunately, I was able to get the kind of support necessary to 
move forward and get additional education, and then commit my 
life's work to working with young men who happen to be fathers 
from America's poorest communities. I say that because I am not 
unlike these guys, or the other guys who are here from the 
program, I really want you to take an opportunity to ask these 
guys candid questions and me, because we will not turn our back 
on any question that you ask. We want to help move forward the 
Fathers Count Initiative and other legislation that would 
support the field.
    Almost every man who enters the program says, ``I need 
assistance with getting a job.'' I mentioned to you that 80 
percent of the men in enrollment, and currently we have 200 
again, are unemployed. We have integrated a grant we have 
received from the U.S. Department of Housing and Urban 
Development that is dedicated to do lead abatement in the 
community, where we give awards to contractors to do the work, 
and then the property owners must rerent or sell the property 
to families that have children 6 years of age and under. We 
have carved out a portion of that grant to develop a job 
training program where fathers who go through all the hurdles 
we ask them to go through, obtain the ID, change of mindset, 
commit themselves to volunteering in the community, and then 
are able to get involved in this HUD-funded project.
    Paul Hope, who you will hear from, is one of the graduates 
from that program, who is now gainfully employed with 
unsubsidized employment. Recently, we implemented the STRIVE 
jobs readiness program. This nationally recognized program was 
featured on the CBS news show ``60 Minutes.'' It uses a no-
nonsense tough love approach in preparing hard-to-employ 
residents from America's poorest communities for employment and 
placement into real jobs. One of the key elements in STRIVE is 
this commitment to follow graduates for 2 years following 
placement. Graduates maintain an 80-percent job retention rate 
during that period. Fathers from the program who are not 
referred to the HUD-funded project and display the kind of 
negative attitudes that would not allow them to get a job or 
keep a job are referred to STRIVE.
    Finally, I would like to comment on the Fathers Count 
Initiative. As I understand it, the project is designed to 
achieve two goals. First, the projects must encourage marriage 
and better parenting by fathers. Second, the project must 
feature activities to help fathers obtain employment or 
increase their skills so that they can qualify for higher 
paying jobs. I believe that the program's goals of encouraging 
better parenting by fathers and the emphasis on employment 
activities to increase skills for access to higher paying jobs 
are widely supported.
    The requirement that a potential grantee must encourage 
marriage is a very very sticky point for the fathers who fit 
the profile I described and who are represented here today. 
There is however, a possible solution, a common ground, if you 
will. That common ground I call the principles of marriage. 
Many of the communities where poor fathers reside, and I would 
like to go back to something you mentioned very early on, Mr. 
Chairman. If I can quote you correctly, you said single moms 
raising children where there are few adult male role models, is 
really a formula for disaster. I would submit to you that in 
many of the communities where poor fathers reside, there are 
very few households where the model of marriage exists, another 
formula for disaster.
    Fatherhood programs could, for example, add an addendum to 
existing curricula. This is something that we plan to do in 
Baltimore with our curriculum, the Fathers' Journal, is add 
sessions on the principles of marriage in developing discussion 
groups around what marriage actually is. When you look at these 
guys when they first come in the door, they are not marriage 
material. If your daughter came home, and if my daughter came 
home and told me she was going to marry a guy who was 24 years 
old, only had a ninth grade education, was unemployed, had a 
substance abuse problem, and had been involved in the criminal 
justice system, I would fall out. There are steps that we have 
to take, interim steps that we must take and that many of the 
fatherhood programs have employed to help a guy get from point 
A to point B to where he becomes a candidate for marriage.
    I am so proud to be married and the father of three 
children, a 20-year-old son, a 17-year-old girl, and a 6-year-
old little boy. Mr. Chairman, I am scared to death of the 
prospects of life for my 6 year old, not because of what I will 
be able to or not be able to provide, but because of the number 
of children around him who do not have fathers in the 
household. Every day when I go home and I pull up in my 
neighborhood, and I live in a poor community, children from 
households around my community run to my front. It has gotten 
to the point now where I have to go into the back, sneak in my 
own house because I have to get a few minutes break before I go 
out on the front with these little kids and my son.
    Mr. Chairman, these men, when given an opportunity to move 
from point A, which is nowhere, to point Z, which is to be a 
candidate for marriage and employed, give an opportunity for 
other children in the community, especially their own children, 
to stand up and make America very proud.
    In short, Healthy Start is a unique and wise investment, an 
excellent example of true partnership between public and 
private sector and urban America.
    Thank you, Mr. Chairman.
    [The prepared statement follows:]

Statement of Joseph T. Jones, Jr., Director, Men's Services and 
Employment Initiatives, Baltimore City Healthy Start Program

    Good morning, Representative Shaw, and other members of the 
Committee. Thank you for inviting me to testify today. With me 
is Mr. Anthony Edwards, employed as an advocate with Men's 
Services of Baltimore City, and a graduate of a responsible 
fatherhood program. Also, Mr. Paul Hope, a Men's Services 
participant and a graduate of our employment initiative 
program, who is now gainfully employed and the father of two 
young children. And finally, Mr. Jimmy LaPraid who recently 
enrolled in the program, is an expectant father, and is helping 
to raise his girlfriend's two other children. All of whom you 
will hear from shortly.
    In 1990, the Baltimore City Health Department implemented a 
locally funded infant mortality reduction program called The 
Baltimore Project. From 1990 to 1992, this initiative provided 
intensive outreach, home visiting, and case management services 
to pregnant women who resided in a poor West Baltimore 
community known as Sandtown-Winchester.
    During this time period, I was an Addictions Specialist 
working with our substance abusing pregnant women. In this role 
I visited women in their homes to provide counseling and 
support to help them be more compliant with pre-natal and 
pediatric appointments and to abstain from using drugs. While 
conducting these home visits, I would often come into contact 
with the father-to-be or the significant male. My strategy for 
working with this couple was to focus my attention on the male 
to reach his comfort level so that he would be clear that my 
purpose for being in the house was to help his partner have a 
healthy baby. Upon gaining his confidence, almost always I was 
asked by the men if we provided services for fathers. 
Unfortunately, at that time we were unable to provide formal 
services to men due to limited resources.
    As one of only two men on a staff of 22, I began to have 
philosophical conversations with my superiors and others about 
the importance of including fathers in our strategy to reduce 
infant mortality. Although people involved in these 
conversations agreed with this premise, there simply was no way 
to provide formal services to fathers.
    In 1992, the Baltimore City Health Department, Office of 
Maternal and Infant Care, was awarded one of 15 federal Healthy 
Start grants. These dollars allowed us to greatly expand on the 
Baltimore Project model and to include services to fathers. The 
first year of the grant was spent in research, planning and 
program design. I was selected as the person responsible for 
the development of the new Men's Services Program.
    On June 8, 1993, we began a pilot program targeted to 60 
men who were the fathers of babies born to Healthy Start female 
clients. We established four goals during the pilot phase. They 
were as follows:
    <bullet> Attendance at pre-natal appointments;
    <bullet> Attendance at pediatric appointments;
    <bullet> Attendance at fathers' curriculum groups;
    <bullet> Attendance at a therapeutic support group.
    The staff consisted of the Coordinator and two Men's 
Services Advocates. In July 1994, at the conclusion of the 
pilot phase, we expanded the program to include 100 men. We 
increased the staff to include two additional Men's Services 
Advocates.
    In December 1995, the program further expanded to provide 
services to 100 additional fathers in East Baltimore. Each site 
has a Coordinator and four Men's Services Advocates, with a 
total enrollment as of July 22, 1997, exceeding 200 fathers. 
The Men's Services staff takes the highest risk dads and 
transforms them into nurturing parents through an intensive 
support and case management process.
    Over the course of the last four years, a general profile 
has emerged of the fathers we have served:
    <bullet> The average age is 24.2 years.
    <bullet> The average father dropped out of school after the 
ninth grade.
    <bullet> At enrollment, approximately 80% of the fathers 
report being unemployed or underemployed.
    <bullet> The majority of the fathers have little or no 
relationship with their fathers.
    Although this profile is discouraging, through advocacy, 
education, support, and a no-nonsense approach in providing 
services to the men, we have seen significant changes in 
attitudes and behavior. Examples of the types of changes that 
can occur are Anthony Edwards and Paul Hope.
    Fathers like Anthony and Paul can be very difficult to 
engage. With our intensive outreach and home visiting efforts, 
we are able to meet these men in their own communities and 
convince them that we are a positive alternative to their often 
chaotic lifestyles on a voluntary basis. Men who enroll in the 
program are assigned an advocate, receive intensive case 
management services, parenting and life skills, peer support, 
and real jobs.
    All fathers enrolled in the program, who meet our standards 
and show a commitment to their families, to their communities, 
and to themselves are eligible for our two employment programs.
    We have integrated a lead abatement grant from the 
Department of Housing and Urban Development into the Men's 
Services program and are able to guarantee employment in the 
construction field for those men who are committed to turning 
their lives around.
    Recently, we implemented the STRIVE job readiness program. 
This nationally recognized program was featured on the CBS news 
show ``60 Minutes.'' It uses a no-nonsense, tough love approach 
in preparing hard to employ residents from America's poorest 
communities for employment and placement into real jobs. One of 
the key elements in STRIVE is its commitment to follow 
graduates for two years following placement. Graduates maintain 
an 80% job retention rate during that period. Fathers from the 
program who are not referred to our HUD funded project are 
referred to STRIVE.
    Finally, I would like to comment on the ``Father's Count 
Initiative.'' As I understand it, the project is designed to 
achieve two goals. First, projects must encourage marriage and 
better parenting by fathers. Second, projects must feature 
activities that help fathers obtain employment or increase 
their skills so they can qualify for higher-paying jobs. I 
believe that the program's goals of encouraging better 
parenting by fathers, and the emphasis on employment activities 
to increase skills for access to higher paying jobs, are widely 
supported.
    The requirement that a potential grantee must encourage 
marriage is a sticky point. Earlier, I gave a profile of 
fathers in my program that I have found to be similar to the 
profile of fathers enrolled in a number of responsible 
fatherhood programs around the country. As a practitioner, I 
can tell you that programs that work with low income non-
custodial fathers and promote or encourage marriage without 
first working on the aforementioned barriers will lose 
credibility, with not only participants, but with the community 
at large. There is however, a possible solution. A common 
ground called ``the principles of marriage.'' Many of the 
communities where poor fathers reside have very few households 
where the model of marriage exists. Fatherhood programs could, 
for example, add an addendum to existing curricula that 
outlines the principles of marriage and hold discussion groups 
that would allow fathers an opportunity to be introduced to 
this institution. This is what the Men's Services program is in 
the process of doing. There are other activities that can be 
designed that could also address this issue.
    For example, we have received funding from the Ford 
Foundation to develop a concept called ``Team Parenting.'' This 
concept involves working with low income parents, even if they 
are not a couple, and helping them mediate their relationship 
so that the children maintain access to both parents.
    We believe that this strategy will lay a foundation, not 
only for an effective parental relationship, but also for a 
relationship that has the potential for marriage.
    Finally, a preliminary cost-benefit analysis of the Men's 
Services program has shown that the program has already paid 
for itself in reduced incarceration costs alone. Moreover, it 
has dramatically benefitted the young fathers and their 
families in East and West Baltimore in terms of expected future 
wages, given the program's emphasis on linking the male 
participants to livable wage employment.
    We are currently involved in the Partnership for Fragile 
Families initiative, also funded by the Ford Foundation. This 
initiative encourages partnership between state and local child 
support agencies and community based fatherhood programs to 
encourage fathers to acknowledge paternity and to pay child 
support.
    At the same time, the Office of Child Support Enforcement 
provides a funding stream that allows fatherhood programs to 
offer support, education, and training. As welfare reform 
continues to evolve, we believe that we should encourage our 
fathers to acknowledge their paternity and financially support 
their children, while at the same time helping child support 
officials understand that a ``collections only'' mind set is 
not the way to engage America's poorest fathers.
    In short, Healthy Start is a unique and wise investment, an 
excellent example of a true partnership between the public and 
private sector and urban America.
      

                                <F-dash>

    Chairman Shaw. Thank you, Mr. Jones.
    Mr. Hope, would you pull the microphone over to you? Put it 
right close to you. We now recognize you for a statement.

  STATEMENT OF PAUL HOPE, PARTICIPANT, BALTIMORE CITY HEALTHY 
                         START PROGRAM

    Mr. Hope. My name is Paul Hope. I am 25 years old. I am the 
biological father of two children, but father of many. I don't 
really know where to begin. I am not really a big speaker, but 
I'll start from the beginning. A few years ago before I came 
into the group, I wouldn't be the type of person that you would 
want to meet. I can even say my first encounter with the group, 
I went to the group with a pistol because that's what I felt as 
though I needed to get by in the area where I lived in. So the 
group, Healthy Start, our fatherhood group is like a family. 
Where though you couldn't go to your friends or your family and 
talk about certain things, you can go there and talk about it.
    Like I said, I wasn't a very pleasant person. I mean I very 
seldom smiled, joked, played, or anything. I took things for 
what they were here and now. I wasn't thinking about tomorrow 
or the next day. They wasn't here so I wasn't worrying about 
them. It was here and now. That was what I was worrying about.
    Since I joined the program in 1993, I went through the LEAD 
Initiative Program. I graduated from it. My children and my 
kids' mom have never been on welfare, never. Even though we are 
not together, she still hasn't been on it. That is something 
that I feel as though that I got to do. It basically teaches 
you for where we live at, like in the city of Baltimore, we get 
this false sense of fatherhood. A father won't chump down from 
a fight or something like that. You know. But that is not true. 
There is nothing wrong with turning a cheek or humbling 
yourself. That is what the group basically showed me because of 
my problem. I had a quick temper. I would also overreact, then 
think about it. Now, I will think about it, think of my 
decisions, think about my consequences. If the consequence is 
not bad, then that is my decision.
    The group took me, I then made a complete 360-degree turn. 
Before I came to the group, I knew I would either be dead or in 
prison doing life for some of the dumb stuff I had done. I have 
been stabbed, shot at, in a number of fights. The way I think 
now is not the same. It's not about here and now. I have got to 
go. I have plans. I know what I want to do. I like 
construction, home improvement. I am going to continue in that 
field. I am going to get more training until I will be the best 
in it. Not second best. I am going to be number one in it.
    As far as my kids, my love for them never changed. I still 
love my kids, but also not just mine, this man's kids, this 
man's kids, and all the guys back there's kids. When we come 
into the group and we bring our kids, you really wouldn't know 
who the father is because the baby gets passed around or the 
young boy or young girl gets passed around so much. You would 
be like well, is that the father? No, is that the father? Until 
they make a statement of who the father is.
    It's like this group means a lot to me personally. As far 
as written testimony, I don't have one. I am a testimony of it. 
Like I said, I knew if I didn't walk through the doors back in 
1992 and 1993, I would be dead or incarcerated from growing up 
on the streets. Not too many people in business, corporate 
America are going to come to where I live at, Harlem and 
Fremont, and talk to me about getting my life together. First, 
back then I would look at you and think you are crazy, what are 
you doing down here. I am glad that Joe Jones and Kyle, Mannie, 
Eddie, and the other advocates of Healthy Start didn't give up 
on me. I hope that the Subcommittee will hear our testimonies 
and don't give up on them. You all may not see results tonight, 
tomorrow or whenever, but changes are happening. I can go 
through any area in Baltimore city and people know me through 
things that I did through Healthy Start, from the television. 
It's wild. I can use that and pivot off of it and talk to 
somebody else who might be going through a similar problem that 
I went through when I was younger and I handled it the wrong 
way. But look you pick up that gun, you are going to jail, or 
death, or that person will come back and get you.
    This group means a whole bunch to me. I mean even if they 
do lose funding, we are going to still keep it going. It is 
going to go on with or without the funding from here, Congress, 
wherever. Even if we have got to have our groups in our 
backyards, we are still going to go on with our group. This is 
my family. I love them dearly. I am sure they feel the same way 
about me.
    Thank you.
    Chairman Shaw. Thank you.
    Mr. Edwards.

    STATEMENT OF ANTHONY EDWARDS, MEN'S SERVICES COUNSELOR, 
              BALTIMORE CITY HEALTHY START PROGRAM

    Mr. Edwards. Good morning. First of all I would like to say 
my name is Anthony Edwards. I am a 22-year-old men's service 
advocate, advocate counselor. I work for Joe Jones. I have a 
son that's 4 years old. But what I would like to give off or my 
testimony would be this morning, is the process on how I was 
able to receive an opportunity to be employed with Mr. Jones.
    Back in 1994, due to my extravagant lifestyle, I made some 
negative choices and ended up in some negative places. My son 
is 4 years old. In months, that would be 48 months. I have been 
an active part of my son's life for 45 months and 2 weeks. The 
other 3 months and 2 weeks I was incarcerated, as I said 
earlier, due to some negative choices. However, upon my leaving 
my incarceration, I met up with a pastor in Baltimore City by 
the name of Eleanor M. Brian. I had just had my son. He was 3 
months. I was carrying him around with me. His mother and I, we 
were discussing some immediate goals, some short-term goals, 
some long-term goals on how I can get back into society and be 
productive as a man coming from where I come from, as a black 
man coming from the inner city.
    My pastor gave me a lead to the program entitled the Young 
Fathers Responsible Fathers Program, which is the brother to 
our Heathy Start's Men's Services Program in Baltimore City. I 
went through the program, and as Paul stated, because our 
process or our living conditions, a lot of times, we put on 
particular defense mechanisms, meaning that our attitude and 
our behavior kind of shies us away from things that we may need 
to do or steps that we may need to take to help us progress. 
However, because the program worked so intensely with me and 
gave me so much support, they were able to help me to adjust my 
attitude, to help me modify particular parts of my behavior to 
be a successful father.
    However, upon my graduation, the challenge was me 
implementing particular parts of whatever I needed to do with 
me to make myself the best Anthony Edwards that I can possibly 
be. I would see Mr. Jones around the city at particular events 
discussing fatherhood. I would say, Wow man, if only I could 
have a chance to work with brothers who came from particular 
places like I have, then maybe I'd feel like I can give them 
something significant and sincere and genuine, because I know 
the struggles of growing up in the inner city, being a man in 
our community and dealing with a lot of issues that we may deal 
with.
    I was given a call back in 1997 to work with Baltimore City 
Healthy Start Men's Services. Of course, I hopped upon the 
opportunity because it is not about whatever money I make, it 
is about helping save somebody's life or help somebody be 
productive who has come from where I have come from. Now what I 
want to say, as Paul stated, our program is very helpful. We 
stress for the guys to participate in events outside our 
groups. We give them 24 hours access to call us because we are 
there to support them. We are not there to look down our nose 
at them or to demean them. We stress for the guys to bring 
their kids to the group. As Paul said, we are all fathers. Our 
main goal in the program is to be the best men we can be, the 
best fathers we can be, and the best assets and to be as 
productive to our communities as we can possibly be.
    So with that, I would like to say that programs like these 
has helped to save my life and lives like Paul and some of the 
men who you see behind us. You can't ask for no more than that. 
In urban communities, programs like this are needed, because 
these programs give you hope, give you inspiration, give you 
the support that you need. We know we deal with the issues that 
pertain to us that we can identify and relate with.
    I have been hearing the word marriage being thrown around 
this morning. We have had many our clients in our program who 
have had interest in marriage. However, they are still in the 
process to reach the point of marriage in dealing with your 
individual self and allow your mate to deal with herself as 
well as dealing with each other. So with programs like this, 
you are able to deal with those processes such as attitude 
adjustment, such as Dr. Dad, such as compare and compromise in 
particular situations so that you can be productive and/or as 
productive as you can possibly be in marriage. You know, we 
stress that. That is one of our goals.
    However, but before we get to this particular goal, we have 
to deal with the self. We practice a saying in the Young 
Fathers Program and here at Healthy Start, the 10 most 
important two-letter words is, ``If it is to be, it is up to 
me.'' Right? Well, I say that. I also say, ``If it is to be, it 
is up to we.'' Because sometimes me needs support from we. That 
is what we are here to do at Healthy Start.
    Thank you.
    Mr. Jones. Mr. Chairman, one of the things that Anthony did 
not mention is he recently was promoted from an entry level 
position in the Men's Services Program to a men's services 
counselor. He also will be entering into his junior year of 
college at Coppin State as a psychology major this coming 
September.
    Chairman Shaw. I guess that makes him marriage material. 
[Laughter.]
    Mr. Jones. That's right.
    Chairman Shaw. Mr. Downing, we will hear from you and then 
from young Mr. Downing.

 STATEMENT OF VICTOR DOWNING, SR., PARTICIPANT, BALTIMORE CITY 
  HEALTHY START PROGRAM; ACCOMPANIED BY  VICTOR  DOWNING,  JR.

    Mr. Downing, Sr. OK. I am kind of nervous too.
    Chairman Shaw. We are, too. Just take your time.
    Mr. Downing, Sr. I am going to start out. I also came up 
with a single parent. My father wasn't there for me. My mom 
raised nine of us. As I got older, I saw that she needed help 
with the bills and stuff like that, so I did what I had to do 
to bring in the money to help her out. That was to sell drugs. 
So, I was a drug dealer.
    As time went on, I met his mom. Then he came in the 
picture. Then I was doing this to also take care of him because 
that is all I knew, was how to sell drugs. I never had a job 
before. I came up selling drugs. My brother taught me how to do 
that. We went on from there.
    As we went on, we got into some drug wars, I mean fighting 
other drug dealers over territory, something that wasn't even 
ours. His mom was pregnant with him. When I really should have 
been paying more attention to her, I was out there all the time 
trying to make money. As he came in the world, you know, he was 
here for a while and me and her weren't getting along any more, 
so we became separated. I stopped doing for my son and her 
because I was like if I can't have her, then I don't want to 
have nothing to do with him either. That is how I was. I was 
selfish like that.
    She also was using drugs. We were both using drugs. I 
became my best customer. I was giving it to her. We were using 
them together. Sometimes when she didn't do what I wanted, I 
would not give it to her and things like that. As time went on 
and she became ill from using drugs, she had to have open heart 
surgery and things just weren't going well. My son was getting 
ready to go into a foster home, so I had to decide if I was 
going to let him go into a foster home or take responsibility 
and become a father, which I really wasn't ready to do.
    As time went on, we went to court and things like that. I 
decided that I would go ahead and take care of him. I got him 
and I really wasn't ready yet to be a father, not just yet 
because I used to like to hang out and run the streets. I was 
scared that I was going to have to stop doing those things. So, 
I took him. He was 3 years old. My mom helped me raise him. She 
did. She helped me out a lot. She was always there for me, for 
me and him both. She made sure I did what I was supposed to 
have done, to look out for him. I was still selling drugs. I 
had also gotten my first job. I was working a job and also 
still using drugs. The job didn't last long on the fact of my 
using drugs. I could not work and use drugs too. One had to go, 
and I chose for the job to go.
    I continued taking care of him. Time went on. My drug habit 
got worse. His mom was ill, but she hadn't gotten real ill just 
yet. She was out there. She would come and see him and stuff 
like that. She was there for him, but not really there. Neither 
one of us was really there. We was like, you know, it was the 
drugs first and then the child.
    As time went on, I lived with my mom still. I had a friend 
that was in the Healthy Start Program. I seen what it was doing 
for him, so I asked him to help me get into the program. He 
introduced me to, I think he introduced me to--I forgot who he 
introduced me to. I got into the program. I asked them for some 
help. I told them I had a drug problem. I asked them for some 
help because they were trying to offer me a job. I told them I 
wasn't ready to work because I could not pass the drug test. 
They got me into the Turke House for 30 days. I stayed there 
for 30 days. I wanted to leave, but the only reason I wanted to 
leave is because I didn't want them to waste their money. I 
really wanted to go back out there and use.
    I stayed there for 30 days and cleaned up for 30 days, came 
back out. I went down to Healthy Start. As a matter of fact, 
they came and picked me up from the Turke House. My niece kept 
my son for me. I came back out. I went down, talked to them. 
They congratulated me for staying for 30 days and gave me a 
certificate and everything. I was so in a hurry to get a job 
from them then after I cleaned myself up, which I wasn't really 
ready to work yet because I went back out there and used again.
    I stayed out there for a while on the corners. They would 
come through and pick me up and take me to group meetings. I 
would duck them up when I saw a van coming and stuff like that. 
I would hide because I didn't want them to see me. But they 
never gave up on me. They would see me on the corner. They 
would come into drug areas and get out the van and pull me up 
off the corner and ask me when it was I was coming back, I 
don't have to hide from them, and ask me how my son was doing. 
I would tell them that he was doing all right. I would just 
tell them I would be down there and I would never go. They 
would keep coming.
    One day, I decided to go back down there. I went back down 
there. I started taking my son to the meetings and stuff like 
that. They got to know him. He got to know them real good. I 
just decided that I was tired, tired of doing what I was doing. 
I wanted to become a father because all the guys in there were 
doing so good. There were some guys in there that had also used 
before and they had jobs and they had houses. They were doing 
good. They had their own places. I decided that I wanted to 
straighten up. I went back to them again and told them that I 
wanted some help. But they didn't trust me. They thought I was 
going to go back out there and do the same thing again. They 
kept telling me to wait and see what I was going to do.
    As time went on, I went back out there again. I had got a 
job and I started stealing and cheating, doing whatever I can 
to get the drugs. I guess I hit my rock bottom because I got 
locked up. I was in central booking. When I went through 
central booking I couldn't go through that again. Central 
booking, I ain't wanting to go back over there again. I came 
out of central booking. Ever since I came out of central 
booking, I have been off of drugs. That's been for 7 months, 
going on 8. I got a job now. As a matter of fact, I have a job. 
I am working on another part-time job. I have my own apartment. 
It's well-furnished. I have a closer relationship with my son. 
That is my best friend there. I just have been doing great 
thanks to the program for not giving up on me.
    I still go to the meetings when I can, when I have time 
off. They are always there for me. I also was going through 
something as far as relationship too. I brought that to the 
table. They listened. They gave me some feedback on it. I also 
have four other children. I am not with either one of their 
mothers, but I now pay child support, which I wasn't doing. I 
send them money every other week. Everything has been going 
great for me so far, as far as me staying clean.
    Chairman Shaw. Let's hear from your son then.
    Mr. Downing. Pull that microphone up and pull it down just 
a little. That's right.
    How do you like having a real dad now?
    Mr. Jones. He said he would rather you all to ask him 
questions.
    Chairman Shaw. All right. I'll start out then. How have you 
seen your dad coming along as far as have you seen a real 
change in him?
    Mr. Downing, Jr. Yes.
    Chairman Shaw. Describe how he was when you first can 
remember him back when you were a real small child. Did you see 
much of him then?
    Mr. Downing, Jr. No.
    Chairman Shaw. Where was he, out on the streets all the 
time?
    Mr. Downing, Jr. Yes.
    Chairman Shaw. And where are you living now? Are you living 
with your dad?
    Mr. Downing, Jr. My grandmother.
    Chairman Shaw. You are living with your grandmother? But 
your dad gets over there and visits with you a lot?
    Mr. Downing, Sr. He is kind of nervous. We live together in 
our own apartment.
    Mr. Downing, Jr. When you were on the street, Dad.
    Chairman Shaw. I am talking about now.
    Mr. Downing, Jr. Yes. I live with my father.
    Chairman Shaw. Now you are together. Let's get that clear. 
You all want to get out in the hall and get your story 
straight? [Laughter.]
    Chairman Shaw. I'm sorry. I didn't make myself clear.
    But what is the difference? You don't remember back when 
they were thinking about foster care. You can't remember back 
that far, can you?
    Mr. Downing, Jr. No.
    Chairman Shaw. But just thinking about that is probably 
pretty scary to you right now. Isn't it?
    Mr. Downing, Jr. Yes.
    Chairman Shaw. That you could have been put in foster care 
and really not have known your dad?
    Mr. Downing, Jr. Yes.
    Chairman Shaw. Are you in school now? What grade are you 
in?
    Mr. Downing, Jr. Eighth now.
    Chairman Shaw. Eighth grade?
    Mr. Downing, Jr. Yes.
    Chairman Shaw. What do you want to become? What do you want 
to do?
    Mr. Downing, Jr. Be a police officer.
    Chairman Shaw. Be what?
    Mr. Downing, Jr. Police officer.
    Chairman Shaw. Very good. But you have got to finish school 
now and do that. You have got to go all the way through and use 
your dad as both a bad example and a good example, as to what 
you can do with yourself. Right?
    Mr. Downing, Jr. Yes.
    Chairman Shaw. You have seen, I guess you have seen him go 
through the problems he has had with drugs, haven't you?
    Mr. Downing, Jr. Yes.
    Chairman Shaw. And it's tough when you get into that stuff 
to get off of it, isn't it?
    Mr. Downing, Jr. Yes.
    Chairman Shaw. But you have seen a real difference in him, 
haven't you?
    Mr. Downing, Jr. Yes.
    Chairman Shaw. That's great to see.
    Before we go onto the rest of the panel, does anyone else 
have any questions for young Mr. Downing?
    Mr. Levin. Maybe we'll give him a few moments. Why don't we 
talk to that big fellow next to him.
    Why don't you describe the array of services. I don't think 
you really covered that. What is there, what kinds of services?
    Mr. Jones. First of all, we have a recruitment team 
primarily made up of women who go door to door through a 
specific target area, through census tracts, knocking on doors 
every 6 weeks looking for pregnant women. Once they identify a 
pregnant woman, they attempt to enroll her in the program. Once 
she enrolls, she is assigned to a case management team that 
work with pregnant moms around the pregnancy, whether it's 
access to prenatal care, housing, nutrition. Whatever the 
issues are, they work with her to support her, to stabilize 
what may be an at-risk pregnancy.
    Once they get her to reach her comfort level, they do an 
internal referral to my program that basically hopefully we get 
an address, hopefully a phone number, maybe just a hangout. 
With that referral, my staff goes out and looks for these guys. 
I kind of say we have a bailbondsman mentality, but we go out 
to support guys. In America, I don't care what color you are, 
what economic background you come from, nobody has ever really 
gone out to reach, outreach to men. This is a real phenomenon 
for America. But that is one of the approaches we employ.
    Once we can engage him, we try to get him to come to the 
group, see his peers around him, to get him to be comfortable. 
Then finally when he enrolls, we do an assessment. Johns 
Hopkins School of Hygiene and Public Health is the evaluator 
for Baltimore City Healthy Start. In conjunction with them, the 
policy staff and myself and Hopkins developed an assessment. 
It's about 25 pages, 26 pages that looks at family formation 
and in terms of the number of kids this guy has, by how many 
different women, his educational background, criminal justice 
involvement. We actually put on there whether or not he has a 
government-issued ID or not, some of his attitudes and 
behaviors around sexually transmitted diseases and family 
planning.
    From that, a plan is developed, what we call one man's 
plan. The guy sits down with his advocate and a case 
coordinator. They develop a plan with some preset goals and 
also some goals that he says he needs to achieve to be the best 
man, the best father he can be. Those goals and that plan are 
reviewed monthly by the case coordinator and the advocate. When 
the goals are reached, they are taken off. New goals are put 
on. If he doesn't reach a goal, we come up with new strategies 
to help him reach that goal. We have now redesigned the program 
so that that plan and his involvement in the program will have 
a 1-year cap on it.
    Mr. Levin. Let me ask you, and thanks from all of us for 
your being here. These are stirring accounts. What kinds of 
services, just quickly, and my colleagues may have further 
questions. For the gentlemen here, for the children perhaps, as 
well as for the mothers. What is the array of services?
    Mr. Jones. Case management is probably the heart and soul 
of the services provided. That would entail dealing with crisis 
situations.
    Mr. Levin. How many would each, if I might interject, how 
many people would each caseworker be working with?
    Mr. Jones. The way that the program is staffed, I have a 
program at east Baltimore, west Baltimore, each program has a 
case coordinator or a case manager, if you will. Under that 
case coordinator, there are four positions called men's 
services advocates. Two of them have just been changed to men's 
services counselor. You have a case coordinator, you have two 
men's services counselors, and two entry level positions we 
call men's services advocates. The entry level positions, and 
there are four because we have the two programs, are reserved 
for fathers who go through the program who display an ability 
to do some volunteer work in the community, can get a reference 
from somebody, and can command respect and give respect to 
their peers. When those positions are available and a guy is 
ready, we try to hire a client from the program to do that. 
That would be the staff.
    Mr. Levin. Is there job training, for example? Just go 
quickly through what is available through your agency, through 
your entity. Is there job services?
    Mr. Jones. Job services. I would like to put something 
before job services. We have GED onsite. Also adult basic 
education and pre-GED so if a guy doesn't or a mom doesn't have 
a high school education, which is the basic foundation of what 
a person has got to have in this country, they are referred to 
the GED Program.
    Mr. Levin. GED, so right on the site there.
    Mr. Jones. Onsite. Correct.
    Mr. Levin. And then there are job training facilities or--
--
    Mr. Jones. Right. We have a grant from HUD to do lead 
abatement. Prior to now actually, we gave contracts to home 
improvement contractors who then were required to hire the 
fathers from the program to do the work. This was subsidized 
job training for up to 1 year.
    Mr. Levin. The funds come from?
    Mr. Jones. HUD, the U.S. Department of Housing and Urban 
Development.
    Mr. Levin. And are there health and psychological services 
available?
    Mr. Jones. Those kind of services are referred. We don't do 
any clinical services onsite.
    Mr. Levin. But you refer them to entities within the 
community?
    Mr. Jones. Yes.
    Mr. Levin. And who pays for those?
    Mr. Jones. Most of the people in the program are on 
welfare. However, for the men, who most of them do not have 
healthcare, so we use community resources. There is a community 
clinic that will take men into the clinic at no cost and will 
do as much as they can. If they are acute issues, then they 
will refer them to the appropriate healthcare facility that has 
to take indigent patients.
    Mr. Levin. And psychological services, are they available?
    Mr. Jones. Psychological services, while they may be 
available, is a very difficult issue to deal with in the inner-
city communities that we live and work in. Mental health has a 
very negative stigma. When you start talking about 
psychological and psychiatric issues, it takes very intensive, 
very individual and private work to get somebody to acknowledge 
that they need to see somebody regarding psychological and 
psychiatric services. We do do it, but it is on a very intimate 
basis.
    Mr. Levin. Thank you.
    Chairman Shaw. Mr. Camp.
    Mr. Camp. I want to thank you, Mr. Jones. I apologize for 
coming in a little late. I have read your statement. I want to 
thank you for coming here. I want to thank all of you for the 
honesty and courage really and for speaking from the heart. 
What I have heard has been very very meaningful.
    I did want to ask just a couple of questions. I realize 
this is a federally funded program. Are there any restrictions 
that you are seeing that is making it difficult for you to 
operate the Healthy Start Program?
    Mr. Jones. Yes. The biggest restriction is that there are 
no dedicated dollars for my program. We just decided in 
Baltimore to use some of the dollars that were earmarked for 
the infant mortality program, primarily for the services to 
pregnant women, to develop this pilot program called men's 
services. My program in the entirety is currently on the 
cuttingblock. Our budget last year was $5 million. Healthy 
Start has put a cap on our program this year, where we will 
only receive up to $2.5 million. In essence, it will decimate 
the Men's Services Program.
    Mr. Camp. Nationwide, how many Healthy Start Programs of 
this kind are there? Do you know?
    Mr. Jones. In 1992 the Department of Health and Human 
Services funded 15 Healthy Start Programs around the country. 
The next year they added seven projects that were called 
Special Projects. In the last several years, they have expanded 
to approximately 50-something communities around the country. 
They may even do further expansion. However, the further 
expansion is with reduced dollars that again, will decimate the 
Men's Services Program.
    Mr. Camp. Thank you. Again, I just want to thank all of you 
for coming. It is not an easy thing to do. I think it is very 
helpful what you have done. I admire what you have done. Thank 
you.
    Thank you, Mr. Chairman.
    Chairman Shaw. Mr. McCrery.
    Mr. McCrery. Thank you, Mr. Chairman. Thank all of you for 
coming and joining us today and offering your testimony.
    Mr. Jones, how many men are in your program?
    Mr. Jones. There are 200, 100 in west Baltimore and 100 in 
east Baltimore.
    Mr. McCrery. And are there other programs similar to yours 
in the Baltimore area?
    Mr. Jones. There's a couple of small programs that aren't 
well resourced. The other program, brother or sister program, 
if you will, is the Young Fathers Responsible Fathers Program 
which is a State-funded initiative by the Glendening 
administration that has really been strongly supported by Alvin 
Collins, who is the secretary of the Department of Human 
Resources at the State level. They have a program that is in 
Baltimore City. It is the program that Anthony Edwards 
graduated from. They also have I think five programs in other 
jurisdictions around the State.
    Mr. McCrery. How many men are in the State-supported 
program?
    Mr. Jones. I'm not real sure of their numbers.
    Mr. McCrery. Do you work with the State program? Is there 
any relationship?
    Mr. Jones. Yes. We are currently involved in the project 
called Partners for Fragile Families. That is an initiative 
funded by the Ford Foundation. What it will do, it will allow 
the Young Fathers Responsible Fathers Program and the Healthy 
Start Men's Services Program to work in conjunction. This is a 
situation I would not have been in about 1\1/2\ to 2 years ago, 
to partner with the State Child Support Administration. The 
grant actually goes to the child support.
    The two basic points about this initiative, it requires 
that community-based fatherhood programs help Child Support 
establish paternity among men who happen to be fathers who have 
never established paternity, but who don't have arrearages, 
because the guys who have arrearages, it's kind of hard to 
manage that situation at this point in time. But this new entry 
for community-based programs and State Child Support, is to 
help Child Support meet its Federal mandate to increase 
incrementally paternity over several years until 1991. But also 
for Child Support to create a funding stream so that community-
based programs can provide services to fathers, including 
education and training.
    Mr. McCrery. Do you happen to know how the Glendening 
administration finances its State program?
    Mr. Jones. I think they use discretionary dollars.
    Mr. McCrery. Do you know if any of those dollars come from 
their block grant for TANF?
    Mr. Jones. No. I am not sure of the mechanism of their 
funding stream.
    Mr. McCrery. Mr. Hope, why did you join this program? What 
compelled you? What made you want this program? I know now you 
are sold on it and you like it and it's a swell place to be.
    Mr. Hope. I guess when I got stabbed in 1991 in a street 
fight, and like a light clicked, I can't go on living like 
this, you know. Then I found out my kid's mother was pregnant. 
I really can't go on like this. What really got me hooked is 
when I came to the group and I was carrying a firearm. Joe 
Jones, I don't know if he saw it or I don't know how, he asked 
me about it. I told him, yes, I have one. He took it from me. 
He was like, you'll get it back at the end of the group. I am 
sitting in the group and I am listening to everybody. When are 
the police going to come through the door. He never came. At 
the end of the group, he gave it back. He said he was going to 
get me to the point where I can come to group or walk the 
streets without having a firearm on me.
    Now, I don't carry a firearm. As a matter of fact, I don't 
have a firearm no more. I don't worry about problems as much as 
I used to. There is no problem that I can't talk out, talk my 
way out of it. I don't have to ball my fingers up and make a 
fist no more.
    Mr. McCrery. How did you hear about this program?
    Mr. Hope. One day me and my kid's mother was walking down 
the street. A lady named Ms. Bush, she used to work there, and 
she asked was she pregnant. She said yes. At the time, it was 
called the Baltimore Project. She enrolled. Then after she 
enrolled, I met up with Joe Jones. I asked him whether you all 
got a fatherhood group. At the time it wasn't there yet. During 
the course of the time of her going, of my kid's mother going 
to her group, I would go and sit in and I would listen. 
Sometimes I would participate in the group.
    Then Joe came to me and told me that they got the group 
started up now, the fatherhood group. I stayed with that. I 
went there. I just had a problem out in the street and I went 
there and I listened and I talked. It was all good from there, 
all up hill.
    Mr. McCrery. Thank you. Mr. Jones, does your program have a 
marriage education component? Do you talk about marriage? Do 
you promote marriage in your group?
    Mr. Jones. We do not necessarily promote marriage. In my 
prepared testimony, I talked about where we are today. We are 
about to add an addendum to our curriculum. We have a document 
called Father's Journal, that I can leave with you, Mr. Chair. 
We are going to add an addendum to that that will outline the 
principles of marriage.
    We have had a few men in the program who have actually gone 
through our jobs program, one of which I tried to have here 
today, his employer wouldn't let him off, but who has gotten 
married as a result of going from point A to point Z. But the 
principles of marriage were missing from the community. There 
are just not enough models out there for men to look at, these 
guys to look at and say that's what a husband should do. We 
need to start incorporating those in there as opposed to 
encouraging marriage at a point right now where they have got 
so many other things to deal with. Most of them don't even have 
a fixed address, and you want to talk about encouraging 
marriage. I think it is somewhere along the continuum of the 
curriculum. We will place the principles of marriage in that 
document and hold discussion groups around it.
    Mr. McCrery. Thank you. If you get married, you will find 
that your fixed address will be a lot more fixed. [Laughter.]
    Mr. Jones. I am married, and my address is more fixed than 
I ever thought it would be.
    Mr. McCrery. There you go.
    Chairman Shaw. Mr. Coyne.
    Mr. Coyne. Thank you, Mr. Chairman. Mr. Jones, were you 
with the Healthy Start Program when it was only a program that 
helped provide a healthy start for newborns?
    Mr. Jones. Yes. Paul Hope mentioned the Baltimore Project, 
which was the predecessor to Healthy Start. It was a locally 
funded program by the Abel Foundation. It was still a small 
infant mortality reduction program. I worked with pregnant 
women who were substance abusers at that time and did a lot of 
home visits. Working with women, I often encountered the men 
who were the significant others or the fathers of the babies. 
They always said, ``Can you help me?'' Over time, I went back 
to my superiors and convinced them that once we got the Healthy 
Start dollars, could we please include fathers in our 
strategies to help us reduce infant mortality.
    I was selected to develop that program and have been there 
since its inception.
    Mr. Coyne. So, it's not that money was taken from the 
Healthy Start for newborns and deferred to this program. You 
are doing both.
    Mr. Jones. Correct.
    Mr. Coyne. The Fathers Count Initiative that we are talking 
about here today, the legislation, requires that 75 percent of 
that money would go to nongovernmental entities. Do you have 
any concerns about that?
    Mr. Jones. No. We are actually a nonprofit 501(c)(3) 
corporation set up under the administration of the Baltimore 
City Health Department with the blessings of Mayor Kurt L. 
Schmoke.
    Mr. Coyne. What percentage of your current budget is 
governmentally sponsored?
    Mr. Jones. One hundred percent.
    Mr. Coyne. One hundred percent.
    Mr. Jones. Except for some special initiatives that we have 
been funded for by the Ford Foundation. I mentioned the 
Partners for Fragile Families. The other example of where we 
could go with this whole idea of marriage is this concept 
called TEAM parenting. What TEAM parenting will be designed to 
do is to work with young couples who may be in real fragile 
relationships who don't know how to mediate and negotiate their 
relationships, and try to stabilize those relationships so that 
even if they choose not to be together, the children will 
always have access to both parents.
    Some of the literature suggests that when you work with 
families that way, an outcome in the end is the selection of 
marriage as an institution.
    Mr. Coyne. Thank you.
    Chairman Shaw. Mr. Collins.
    Mr. Collins. Mr. Jones, what did you say your overall 
budget figure is? How much money does your budget consist of in 
1 year?
    Mr. Jones. Are you talking about Healthy Start overall or 
the Men's Services Program?
    Mr. Collins. You have two different programs?
    Mr. Jones. Well the Men's Services Program is a component 
of Baltimore City Healthy Start.
    Mr. Collins. What is your overall budget?
    Mr. Jones. Last year, our last fiscal year, $5 million.
    Mr. Collins. And you said that is being reduced to $2.5 
million?
    Mr. Jones. Right. We can get up to $2.5 million this year.
    Mr. Collins. That is for both programs?
    Mr. Jones. That is for all. Everything that we did last 
year with $5 million, we will only be getting up to $2.5 to do 
that same thing. I don't have to tell you what that means in 
terms of a reduction in the services.
    Mr. Collins. Yes. How much of that $5 million now, the 
$2.5, is for the fatherhood program?
    Mr. Jones. It's approximately $450,000, comes out a little, 
I think a little less than $2,000 per man for 1 year. If you 
look at what it takes to incarcerate somebody annually, it is a 
drop in the bucket when you talk about being able to work with 
them outside of the prison system and prevent them from ever 
getting there.
    Some of our early cost benefit analysis suggests that we 
can reduce incarceration costs. We can also increase child 
support payments. We can also help the Census Bureau get an 
accurate census count. When you get men out into the mainstream 
and into employment now with new hire requirements, with Social 
Security numbers and names must be sent to the State to cross 
reference, you then can get a more true assessment of who is 
actually in-households as opposed to the rough guesstimate we 
usually get with most inner-city communities, particularly when 
women are on welfare and have their boyfriend, maybe their 
brother and their cousins are in the house and will not tell 
anyone that they exist.
    Mr. Collins. Will you reduce the fatherhood program in 
proportion to the reduction in your funding?
    Mr. Jones. We had a budget meeting last week. My program is 
one of the programs on the cuttingblock.
    Mr. Collins. It will not?
    Mr. Jones. It was on the cuttingblock.
    Mr. Collins. OK. Do you have any religious activities in 
your program?
    Mr. Jones. You know when you talk about religion, I am 
going to ask the guys when we close this panel, to join me in a 
brief ritual that we do that takes about 10 seconds. We 
recently began to take guys to church on Sundays. I was really 
caught in between this Federal church and state stuff. I just 
decided to heck with it, whatever happens, happens. The church 
that we attended is co-pastored. The mom is actually the 
pastor. Her son has now taken over the realm. Here is a guy who 
has a master's in theology who grew up on the streets of 
Baltimore, is a recovering addict, and uses every tool and 
technique of the street to reach and meet guys like these guys 
where they are. That has been our entry into religion, if you 
will.
    But I would like to twist it a little bit more and talk 
about spirituality because that is a void that is just clearly 
missing from a lot of the lives of the men we provide services 
to. They want to do better, man. When you see a guy 18 years 
old and you see his eyes have no sparkle, and he is a father 
and he is responsible for transferring whatever he has to that 
child, and he has nothing to transfer, and he has no hope, and 
he is exposed to guns and drugs, poor housing, poor education, 
I think it is practical, the behavior we see displayed on 
television as it relates to inner-city America because that is 
how they have been trained. They haven't been trained in Coppin 
State, Morehouse State, Harvard. They have been trained on the 
streets. That is how they should respond if that is the only 
training they have been exposed to.
    Mr. Collins. That type of training very seldom has anything 
to do with a Supreme Being or God.
    Mr. Jones. That's right.
    Mr. Collins. You mentioned child support, does your program 
actually suspend child support obligations while a father is 
engaged in your program?
    Mr. Jones. No. Prior to about 1 year ago, I know Dr. 
Johnson is here. This guy over here, his shop is here in 
Washington. You should visit NPCL, believe me. This guy took me 
home one night and convinced me. It took about 3 hours. I 
wanted him to leave. He had taken me home and we were sitting 
in front of my house and he is talking about the potential of 
the benefit to children if community-based fatherhood programs 
entered into a relationship with child support, not as an 
adversarial and not as a collections-based activity, but in a 
supportive way. Yes, we need to look at acknowledging paternity 
and men being responsible financially and emotionally for their 
children. But also the potential for child support to create a 
funding stream so the fatherhood programs can operate so that 
we would get away from deadbeat dads. Nigel Van I believe is 
here. Nigel will tell you they are not deadbeats, they are dead 
broke.
    Mr. Collins. Yes. That's often the reason they don't pay 
their child support.
    You mentioned the fact that you said to heck with the 
church and state relationship that is often looked upon by the 
Federal agencies, the Federal Government. Have you presented 
this program to the churches throughout your community for 
possible funding so that you would never have that question of 
separation of State by having Federal dollars involved in your 
program?
    Mr. Jones. I think they would embrace it, but I do believe 
they need a lot of technical assistance to get there. To run 
fatherhood programs where there are standards that can be 
evaluated, the field is not there. I mean you have got to be 
real clear about putting dollars out there and the standards 
that programs, whether they are faith based or community based, 
what standards they adhere to.
    I am proud to be a part of the National Practitioners 
Network for Fathers and Families that is funded by the Ford 
Foundation, the Annie E. Casey Foundation, the Charles Mott 
Foundation, and one other foundation that escapes me right now. 
But I am on two committees. One of the committees is the 
standards committee, along with another guy named Jerry 
Hamilton from Racine, Wisconsin. The two of us right now are 
working on developing standards for the field that will be the 
standards that programs will have to adhere to to be a part of 
the National Practitioners Network. I am sure a lot of public 
and private funders will look at that as a gauge on whether or 
not a program should be funded and whether or not it is 
effective.
    Mr. Collins. But if your program includes Federal dollars, 
there is always that question of separation of State.
    Mr. Jones. There is always that question. But let me tell 
you something. When it gets down to doing the work, you ain't 
got time to worry about a lot of regulations, man, because you 
are talking about guys who are coming whose kids are at risk. 
Yes, you have to be mindful of it.
    Mr. Collins. That's true, but we have an unfortunate 
situation where oftentimes some of the people who run the 
agencies step in and say they have a difference of opinion and 
your dollars are cutoff.
    Mr. Jones. Correct.
    Mr. Collins. I hope you will maintain that train of thought 
that you need to have some type of religious activities, 
attending church. I would hope that you would confront the 
churches in your community about support, either support 
monetarily or support in changing the attitude and opinions of 
a lot of those who are involved in Federal agencies who do not 
have and share the same opinion that you have.
    Thank you, sir.
    Mr. Jones. Thank you.
    Chairman Shaw. Mr. English.
    Mr. English. Mr. Chairman, I have no questions. I just want 
to congratulate these men for having the courage to come in and 
bring us up to speed on why this fatherhood program is an 
enormous opportunity for Congress.
    Thank you, Mr. Chairman.
    Chairman Shaw. Thank you. I will be very brief in my 
question because the House goes in at 1 o'clock. I don't want 
to get stuck with a bunch of votes here and keep people waiting 
beyond the time, and we have a very good panel following this 
one.
    But I want to ask Mr. Edwards, Mr. Hope, and Mr. Downing, 
were all of you from single-parent homes? Did you have a father 
living at home? Mr. Edwards, did you have a father living at 
home?
    Mr. Edwards. I was raised in a single-parent home. 
Considering my biological parents, yes, my mother raised me. I 
had very little to no contact with my biological father. 
However, I had a stepfather involved. He showed me particular 
things that I needed to do. He didn't live with me, however, he 
was my mother's mate. He tried to show me particular things, 
particular behaviors and the attitude that I needed to be 
successful in modern society.
    However, because of not having that in-house, in-home 
training day to day, not having that particular discipline 
which he was not able to do because he was not my biological 
father, I still made negative choices which gave me negative 
consequences.
    Chairman Shaw. I love that expression, negative choices and 
negative consequences. You are what, in psychology?
    Mr. Edwards. Yes.
    Chairman Shaw. I figured that. [Laughter.]
    I like that.
    Mr. Hope.
    Mr. Hope. No. My father wasn't actually in the household, 
but I had access to him.
    Chairman Shaw. Did he spend any time with you?
    Mr. Hope. Yes and no. It was like first of all, I love my 
father dearly despite all his decisions or whatever he's done. 
He is still my father. I have got the utmost respect for him. 
Things that I learned from him weren't actually the same things 
I learned in the group. I learned what I could learn from him 
and I used it to the best of my ability to use it. Even though 
sometimes it may not have been right by some people, it got me 
by for the short period of time when I was living that way. Now 
I have got the right tools I need to go on further so----
    Chairman Shaw. He wasn't exactly the best role model.
    Mr. Hope. Right. But on the same note, maybe I just took 
what I did learn from him and the negative stuff that I 
learned, and I used it in a positive. He wasn't the best role 
model but he was my father and I respect him dearly.
    Chairman Shaw. Mr. Downing, you have already told us that 
you were what, one of nine kids or six kids and your mother 
raised you all. You didn't have a father at home. Did you have 
any contact with your dad?
    Mr. Downing, Sr. Yes. As a matter of fact, he lives right 
around the corner from my mom. We don't really talk, but we see 
each other. I have brought him to one of the meetings when we 
were having a meeting. They were telling me that I should go 
and approach him and ask him why we don't talk as much as we 
should. I just haven't had the courage to do it.
    Chairman Shaw. That's interesting. You have got to be very 
concerned about the role model that you are for your son here 
that's next to you at this point.
    Mr. Downing, Sr. Yes.
    Chairman Shaw. I was very taken by the slogan. Mr. Edwards, 
I think you said it and I think it is probably something that 
all of you, if it is going to be, it's up to me. I can't think 
of anything--everybody has got an excuse it seems, and it seems 
that facing reality if it's going to be, it's got to be me I 
think is a wonderful thing.
    I would like to underscore one thing that Mr. Jones said 
that I think that this panel and this hearing should certainly 
take notice of because it's something I learned just a few 
months ago. I think my staff heard it from you. That is a 
question of these guys come in, they don't have a Social 
Security card, they don't have a birth certificate, they have 
no ID, government ID at all unless they just bought something 
off the street. That is amazing when you really think about it, 
that the first thing you have got to do is get them a Social 
Security card and put them on that track. It is amazing that 
the people out there and that so many of the people you deal 
with--what percentage of the people you deal with come in with 
no identification?
    Mr. Jones. Man, it's anywhere from 60 to 80 percent. I 
haven't looked at the numbers.
    Chairman Shaw. Most of them.
    Mr. Jones. But most of them.
    Chairman Shaw. It probably means they have never worked. 
Never had a real job, a legal job.
    Mr. Jones. It's not just that they haven't had a real job. 
In some cases they have. But you know, when you get 
incarcerated, you have papers with you. They take the papers 
from you. By the time you get released, you can't get the 
papers back. You live someplace 1 week and you put your stuff 
there. The family may move. Your papers are thrown someplace 
else. It is just chaotic. It is not just the fact that they 
never had it. Often times they have had it, they just are not 
in possession of it now. They have to go back and get it again. 
But there is that population that has never had it as well.
    Chairman Shaw. Well, we have got a big job ahead of us.
    Mr. Jones. Yes, sir. With your help, we will continue.
    Chairman Shaw. That all of you on this panel are on the 
right track of getting things done.
    You said you had something you wanted to end with.
    Mr. Jones. Yes. Serenity prayer, guys?
    Grant me serenity to accept the things I cannot change, 
prepare to change the things I can, and the wisdom to know the 
difference.
    Thank you, Mr. Chairman.
    Chairman Shaw. Very good. Thank you. Thank all of you. We 
appreciate your being here.
    Our next panel, many are very familiar faces and people we 
have worked with on the past on this and other matters. Wade 
Horn. Dr. Wade Horn is president of the National Fatherhood 
Initiative in Gaithersburg, Maryland. Charles Ballard, founder 
and chief executive officer of the National Institute for 
Responsible Fatherhood and Family Revitalization here in 
Washington, DC. Dr. Ronald Mincy is a senior program officer of 
the Ford Foundation. Dr. Wendell Primus, who we have known for 
many years as a staffperson on this Subcommittee, now with the 
Center on Budget and Policy Priorities in Washington, DC. And 
Gordon Berlin, who is a senior vice president of Manpower 
Demonstration Research Corporation of New York, New York.
    Again, we have your full statement which will be made a 
part of the record. We would invite you to proceed as you see 
fit and summarize if you would. We are going to try to conclude 
this hearing before 1, as we do expect votes approximately at 
that time.
    Dr. Horn.

   STATEMENT OF WADE F. HORN, PRESIDENT, NATIONAL FATHERHOOD 
                           INITIATIVE

    Mr. Horn. Thank you, Mr. Chairman. It is a pleasure to be 
here today. I am here representing the National Fatherhood 
Initiative and to testify in strong support of the Fathers 
Count Act of 1998 for four reasons. First, by supporting skill-
building programs for fathers, the bill sends a clear message 
that fathers do matter, and not just financially. Second, by 
including as one of its purposes the promotion of marriage, it 
contains a strong message that marriage is the most effective 
pathway to responsible fatherhood. Third, by including $2 
billion in block grant funding, it will help to nurture and 
support the growth of community-based fatherhood programs all 
across America. Fourth, by helping low-income men become and 
stay employed, it enhances not only their own life prospects, 
but also their viability as responsible fathers and as marital 
partners.
    There are of course some who have objections to this bill. 
Chief among them is the fact that the bill explicitly promotes 
marriage. government, in the view of these critics, has no 
business promoting personal values. Instead, they insist that 
government policy should be neutral when it comes to things 
like marriage. This argument might be persuasive if not for the 
fact that for the past 30 or 40 years, government policy rather 
than being neutral to marriage has actually punished marriage. 
For example, when two-earner couples head for the altar instead 
of cohabiting, their taxes actually go up, in some cases, 
costing families with modest incomes $5,000 or more annually. 
Things are even worse for low-income couples.
    This would not be so bad if marriage didn't matter, but it 
does, and not just a little. Marriage matters a lot. Children 
fare better if they are raised in married intact two-parent 
households. Men and women when they are married are happier, 
healthier, and wealthier than their unmarried counterparts. The 
best indicator of violent crime in a community is not race, 
it's not ethnicity, it's not income, it is the prevalence of 
marriage. Given that marriage is good for children, good for 
adults, and good for communities, why on Earth should public 
policy shy away from encouraging more of it?
    By emphasizing the need to increase the number of children 
living with married fathers, I don't mean to imply that 
divorced or unwed fathers should be tossed overboard. Children 
need their fathers. The fact that their fathers don't live in 
the same household does not lessen that need. But in working 
with divorced and never-married fathers, we should not shy away 
from the ideal of married fatherhood. To do otherwise sends an 
ambiguous message to the next generation of fathers. For their 
future children's sake, we need to be clear that men should 
wait until they are married before fathering children. Once 
married, they should do everything they can to ensure their 
marriage stays strong and vital.
    A related objection comes from libertarians. They say that 
government ought not to be in the business of social 
engineering. But the truth is that in many low-income 
communities today, fatherhood and marriage have disappeared, 
and not just recently, but for many generations. How on Earth 
does a young man who is growing up in a fourth generation 
fatherless household in a community where there are no married 
fathers to look to, how on Earth do we expect dismantling 
government alone is going to teach that man how to be a good, 
responsible man, a responsible father, and a loving husband? 
The answer is it ain't going to happen.
    What about the fatherless children? Do we just shrug our 
shoulders and say gee, you should have picked a better father 
when you were born? The fatherless children need and deserve 
our support as well. Dismantling government alone is not going 
to fix that.
    Given the clear connection between fatherlessness and such 
social ills as poverty, crime, educational failure and 
substance abuse, we simply cannot afford social indifference on 
this issue. Government cannot solve all of our Nation's ills. 
But what it can do it must do. I am not suggesting that any 
piece of legislation, and certainly not this one, is going to 
magically transform America from a fatherless Nation into one 
full of real fathers and good husbands. Nor do I believe that 
this legislation is perfect. In particular, I think there are 
ways to strengthen the requirement that marriage be set as an 
ideal, not just for some programs supported by this block 
grant, but for all programs supported by it.
    The Fathers Count Act of 1998 is the start. And start we 
must, because if we do not, we will continue to see our Nation 
slide into fatherlessness, and we will be a nation forever in 
decline. The good news is we are starting to see for the first 
time in over 30 years a leveling off of the number of children 
growing up in fatherless households. I believe that with 
concerted effort, we can actually reverse the trend of 
fatherlessness, not just stem the tide, but reverse it in the 
next 5 years. But doing so will require that we take a firm 
stand, not only on supporting the importance of responsible 
fatherhood, but marriage as the most likely pathway to a 
lifetime father for a child.
    Effective public policy means encouraging more skilled 
fathering, more work, and more marriages. The Fathers Count Act 
of 1998 does all three, which is why it has my wholehearted 
endorsement. Thank you.
    [The prepared statement follows:]

Statement of Wade F. Horn, President, National Fatherhood Initiative

    My name is Wade F. Horn, Ph.D. I am a child psychologist 
and President of the National Fatherhood Initiative, an 
organization whose mission is to improve the well-being of 
children by increasing the number of children growing up with 
an involved, responsible and loving father. Formerly, I served 
as Commissioner for Children, Youth and Families within the 
U.S. Department of Health and Human Services, and was a 
presidential appointee to the National Commission on Children. 
I also served as a member of the National Commission on 
Childhood Disability and on the U.S. Advisory Board on Welfare 
Indicators. I appreciate this invitation to testify on 
promising approaches to promoting fatherhood, including the 
Fathers Count Act of 1998 (H.R. 3314) recently introduced by 
members of this Subcommittee.

                   The Consequences of Fatherlessness

    The family is the primary institution through which we 
protect and nurture our children, and upon which free societies 
depend for establishing social order and promoting individual 
liberty and fulfillment. However, over the past several decades 
the United States has been experiencing a dramatic decline in 
the institution of marriage and reliance on two-parent families 
to raise children. Even more precisely, what we have been 
experiencing has been a decline of fatherhood. When marriages 
fail, or when children are born out of wedlock, it is almost 
always fathers who are absent. The absence of fathers has, in 
turn, severely increased the life risks faced by their 
children.
    Almost 75 percent of American children living in single-
parent families will experience poverty before they turn 
eleven-years-old, compared to only 20 percent of children in 
two-parent families.\1\ Children who grow up absent their 
fathers are also more likely to fail at school or to drop 
out,\2\ experience behavioral or emotional problems requiring 
psychiatric treatment,\3\ engage in early sexual activity,\4\ 
and develop drug and alcohol problems.\5\
---------------------------------------------------------------------------
    \1\ National Commission on Children, ``Just the Facts: A Summary of 
Recent Information on America's Children and Their Families,'' 
(Washington, D.C.: U.S. Government Printing Office, 1993).
    \2\ Debra Dawson, ``Family Structure and Children's Well-Being: 
Data from the 1988 National Health Survey,'' Journal of Marriage and 
Family 53 (1991); U.S. Department of Health and Human Services, 
National Center for Health Statistics, ``Survey of Child Health,'' 
(Washington, D.C.: U.S. Government Printing Office, 1993).
    \3\ U.S. Department of Health and Human Services, National Center 
for Health Statistics, ``National Health Interview Survey,'' 
(Hyattsville, MD: U.S. Government Printing Office, 1988).
    \4\ Irwin Garfinkel and Sara McLanahan, Single Mothers and Their 
Children (Washington, D.C.: Urban Institute Press, 1986); Susan 
Newcomer and J. Richard Udry, ``Parental Marital Status Effects on 
Adolescent Sexual Behavior,'' Journal of Marriage and the Family (May 
1987): 235-240.
    \5\ U.S. Department of Health and Human Services, National Center 
for Health Statistics, ``Survey on Child Health,'' (Washington, D.C.: 
U.S. Government Printing Office, 1993).
---------------------------------------------------------------------------
    Children growing up with absent fathers are especially 
likely to experience violence. They are three times more likely 
to commit suicide as adolescents \6\ and to be victims of child 
abuse or neglect.\7\ Violent criminals are also overwhelmingly 
males who grew up without fathers, including up to 60 percent 
of rapists,\8\ 75 percent of adolescents charged with 
murder,\9\ and 70 percent of juveniles in state reform 
institutions.\10\
---------------------------------------------------------------------------
    \6\ Patricia L. McCall and Kenneth C. Land, ``Trends in White Male 
Adolescent Young-Adults and Elderly Suicide: Are There Common 
Underlying Structural Factors?'' Social Science Research 23 (1994): 57-
81; U.S. Department of Health and Human Services, National Center for 
Health Statistics, ``Survey on Child Health,'' (Washington, D.C.: U.S. 
Government Printing Office, 1993).
    \7\ Catherine M. Malkin and Michael E. Lamb, ``Child Maltreatment: 
A Test of Sociobiological Theory,'' Journal of Comparative Family 
Studies 25 (1994): 121-130.
    \8\ Nicholas Davidson, ``Life Without Father,'' Policy Review 
(1990).
    \9\ Dewey Cornell, et al., ``Characteristics of Adolescents Charged 
with Homicide,'' Behavioral Sciences and the Law 5 (1987): 11-23.
    \10\ M. Eileen Matlock, et al., ``Family Correlates of Social 
Skills Deficits in Incarcerated and Nonincarcerated Adolescents,'' 
Adolescence 29 (1994): 119-130.
---------------------------------------------------------------------------
    In light of these data, noted developmental psychologist 
Urie Bronfenbrenner has concluded:

          ``Controlling for factors such as low income, children 
        growing up in [father absent] households are at a greater risk 
        for experiencing a variety of behavioral and educational 
        problems, including extremes of hyperactivity and withdrawal; 
        lack of attentiveness in the classroom; difficulty in deferring 
        gratification; impaired academic achievement; school 
        misbehavior; absenteeism; dropping out; involvement in socially 
        alienated peer groups, and the so-called `teenage syndrome' of 
        behaviors that tend to hang together--smoking, drinking, early 
        and frequent sexual experience, and in the more extreme cases, 
        drugs, suicide, vandalism, violence, and criminal acts.''\11\
---------------------------------------------------------------------------
    \11\ Urie Bronfenbrenner, ``What do Families do?'' Family Affairs 
(Winter/Spring 1991): 1-6.
---------------------------------------------------------------------------

            The Historic Role of the Father in Public Policy

    Since the 1950's, the fathers' role in public policy has 
been mostly about paternity establishment and child support 
enforcement. This is not, of course, without merit. Any man who 
fathers a child ought to be held financially responsible for 
that child. But as important as paternity establishment and 
child support enforcement may be, they are by themselves 
unlikely to substantially improve the well-being of children 
for several reasons.
    First, paternity establishment does not equal child 
support. In fact, only one in four single women with children 
living below the poverty line receive any child support from 
the non-custodial father.\12\ Some unwed fathers, especially in 
low-income communities, may lack the financial resources to 
provide economically for their children. For these men, 
establishing paternity may not translate into economic support 
for the child.
---------------------------------------------------------------------------
    \12\ Ways and Means Committee, U.S. House of Representatives, 1996 
Green Book. Washington, D.C., 1996, p. 580.
---------------------------------------------------------------------------
    But a lack of earnings does not seem to be the only 
explanation for the low rate of child support. Although studies 
show a substantial range of income, the average child on AFDC 
has a father who earns an annual income of approximately 
$15,000, indicating some ability to pay child support.\13\ 
Thus, even when unwed fathers can afford to pay, many don't--
this despite spending over $3 billion dollars annually on child 
support enforcement efforts. Although precise data are not 
available, reasons frequently cited for lack of payment by non-
resident fathers who could afford to pay child support include 
parental conflict, paternal substance abuse, re-marriage, and 
simple disinterest in the welfare of the child or mother.
---------------------------------------------------------------------------
    \13\ E. Clay Shaw, Nancy L. Johnson, and Fred Grandy, Moving Ahead: 
How Americans Can Reduce Poverty Through Work. U.S. House of 
Representatives, Committee on Ways and Means, June, 1992, Table 7 (p. 
26).
---------------------------------------------------------------------------
    Second, even if paternity establishment led to a child 
support award, the average level of child support (about $3000 
per year \14\) is unlikely to move large numbers of children 
out of poverty. Some may move out of poverty marginally. But 
moving from poverty to near poverty is not associated with 
significant improvements in child outcomes,\15\ absent changes 
in family structure or workforce attachment.
---------------------------------------------------------------------------
    \14\ Ways and Means Committee, U.S. House of Representatives, 1996 
Green Book. Washington, D.C., 1996, p. 578.
    \15\ See, for example, Kristen A. Moore, Donna Ruane Morrison, 
Martha Zaslow and Dana A. Glei, Ebbing and Flowing, Learning and 
Growing: Family Economic Resources and Children's Development. Paper 
presented at the Workshop on Welfare and Child Development sponsored by 
the Board of Children and Families of the National Institute of Child 
Health and Human Development's Family and Child Well-Being Network.
---------------------------------------------------------------------------
    Third, an exclusive emphasis on child support enforcement 
may only drive these men farther away from their children. As 
word circulates within low-income communities that cooperating 
with paternity establishment but failing to comply with child 
support orders may result in imprisonment or revocation of 
one's driver's license, many may simply choose to become less 
involved with their children. Thus, the unintended consequence 
of such policies is to decrease, not increase, the number of 
children growing up with fathers, proving once again that no 
good policy goes unpunished.
    Finally, a narrow focus on child support enforcement 
ignores the many non-economic contributions that fathers make 
to the well-being of their children. While the provision of 
economic support is certainly important, it is neither the only 
nor the most important role that fathers play. Emphasizing 
fatherhood in largely economic terms has helped to contribute 
to its demise. After all, if a father is little more than a 
paycheck to his children, he can easily be replaced by a 
welfare payment. If we want fathers to be more than just money 
machines, we will need a public policy that supports their work 
as nurturers, disciplinarians, mentors, moral instructors and 
skill coaches, and not just as economic providers.
    If paternity establishment and child support enforcement by 
themselves are not the answer, then what is?

             Recommendations for a Pro-Father Public Policy

    First, our culture needs to send a more compelling message 
to men as to the critical role they play in the lives of their 
children. Currently, fathers are generally seen as ``nice to 
have around'' and as a source of economic support, but are not 
understood as contributing much that is particularly unique or 
irreplaceable to the well-being of their children. To counter 
this rather limited view of the importance of fathers, public 
policy must communicate the critical role fathers play--as 
nurturers, as disciplinarians, as teachers, and as role 
models--in the healthy development of their children. One way 
to do this is through the funding of public education 
campaigns.
    Over the past several years, the National Fatherhood 
Initiative has developed and implemented a series of public 
education campaigns designed to highlight the importance of 
fathers to the well-being of children, families and 
communities. Working in conjunction with the Ad Council, we 
developed and distributed a national public service 
announcement (PSA) campaign to raise awareness that fathers 
make unique and irreplaceable contributions to the lives of 
their children, and that collectively we need to do more to 
encourage and support men to be good and responsible fathers. 
To date, this PSA campaign has garnered in excess of $100 
million in donated broadcasting time.
    We have also developed, in partnership with Radio America, 
a series of radio PSAs. These fatherhood PSAs feature a mix of 
celebrities and experts to remind fathers how important it is 
for them to spend time with their children. Among those who 
appear in this series are General Colin Powell (Ret.), Vice 
President Al Gore, former HUD Secretary Jack Kemp, U.S. 
Senators Dan Coats and Bill Bradley, U.S. Representatives J.C. 
Watts and Steve Largent, and Penn State football coach Joe 
Paterno. We have also developed a state-wide public education 
campaign promoting responsible fatherhood in partnership with 
the Virginia Department of Health.
    For those who may believe that PSA campaigns do not have 
much of an effect, an independent evaluation of the public 
education campaign we developed for the state of Virginia 
suggests otherwise. This evaluation, conducted by researchers 
at the University of Virginia, found (1) nearly 1 of every 3 
adult Virginians could recall having seen the PSAs; (2) 40,000 
fathers reported they were spending more time with their 
children as a result of seeing the ads; (3) and 100,000 non-
fathers reported reaching out to support or encourage a father 
in their community.
    Second, a pro-father public policy must also be a pro-
marriage policy. All available evidence suggests that the most 
effective pathway to involved, committed and responsible 
fatherhood is marriage. Research consistently documents that 
unmarried fathers, whether through divorce or out-of-wedlock 
fathering, tend over time to become disconnected, both 
financially and psychologically, from their children. Forty 
percent of children in father absent homes have not seen their 
father in at least a year. Of the remaining 60 percent, only 
one in five sleeps even one night per month in the father's 
home. Overall, only one in six sees their father an average of 
once or more per week.\16\ More than half of all children who 
don't live with their fathers have never even been in their 
father's home.\17\
---------------------------------------------------------------------------
    \16\ Frank F. Furstenberg, Jr., and Christine Winquist Nord, 
``Parenting Apart: Patterns of Child Rearing After Marital 
Disruption,'' Journal of Marriage and the Family, (November 1985): 896.
    \17\ Frank Furstenberg and Andrew Cherlin, Divided Families: What 
Happens to Children When Parents Part (Cambridge, MA: Harvard 
University Press, 1991).
---------------------------------------------------------------------------
    Unwed fathers are particularly unlikely to stay connected 
to their children over time. Whereas 57 percent of unwed 
fathers are visiting their child at least once per week during 
the first two years of their child's life, by the time their 
child reaches 7\1/2\ years of age, that percentage drops to 
less than 25 percent.\18\ Indeed, approximately 75 percent of 
men who are not living with their children at the time of their 
birth never subsequently live with them.\19\
---------------------------------------------------------------------------
    \18\ Robert Lerman and Theodora Ooms, Young Unwed Fathers: Changing 
Roles and Emerging Policies (Philadelphia, PA: Temple, 1993): 45.
    \19\ Ibid.
---------------------------------------------------------------------------
    Even when unwed fathers are cohabitating with the mother at 
the time of their child's birth, they are very unlikely to stay 
involved in their children's lives over the long term. Although 
a quarter of non-marital births occur to cohabitating couples, 
only four out of ten cohabitating unwed fathers ever go on to 
marry the mother of their children, and those that do are more 
likely to eventually divorce than men who father children 
within marriage.\20\ Remarriage, or, in cases of an unwed 
father, marriage to someone other than the child's mother, 
makes it especially unlikely that a non-custodial father will 
remain in contact with his children.\21\
---------------------------------------------------------------------------
    \20\ Moore, Kristin A., ``Nonmarital Childbearing in the United 
States.'' In: U.S. Department of Health and Human Services, ``Report to 
Congress on Out-of-Wedlock Childbearing,'' DHHS Pub. no. (PHS) 95-1257, 
(Washington, D.C.: U.S. Government Printing Office, 1995): vii.
    \21\ Linda S. Stephens, ``Will Johnny See Daddy This Week?'' 
Journal of Family Issues 17 (1996): 466-494.
---------------------------------------------------------------------------
    The inescapable conclusion is this: if we want to increase 
the proportion of children growing up with involved and 
committed fathers, we will have to increase the number of 
children living with their married fathers. Unmarried men, and 
especially unwed fathers, are simply unlikely to stay in 
contact with their children over the long term.
    By emphasizing the need to increase the number of children 
living with married dads, I do not mean to imply that divorced 
or unwed fathers should be tossed overboard. Children need 
their fathers. The fact that their father does not reside in 
the same household does not lessen that need. But in working 
with divorced and never-married fathers, we should not shy away 
from the ideal of married fatherhood. To do otherwise sends an 
ambiguous message to the next generation of fathers. For their 
future children's sakes, we need to be clearer that men should 
wait until they are married before fathering children, and once 
married, they should do everything they can to ensure their 
marriage stays strong and vital.
    One way to strengthen marriage, especially within low-
income communities, is to expand participation in welfare-to-
work employment programs to include the broader population of 
low-income males--not only as a means to increase their own 
life prospects, but also as a means to increase their 
marriageability. Research has found that the availability of a 
suitable potential husband, primarily defined as being employed 
and not in jail or prison, had a greater effect on marriage and 
nonmarital fertility than did AFDC benefit levels.\22\ This 
literature indicates clearly that if men are employed, they are 
better potential marital partners.
---------------------------------------------------------------------------
    \22\ William J. Darity, Jr., and Samuel L. Myers, ``Family 
Structure and the Marginalization of Black Men: Policy Implications.'' 
In M. Belinda Tucker and Claudia Mitchell-Kernan, eds. The Decline in 
Marriage Among African-Americans. New York: Russell Sage Foundation, 
1995, pp. 263-321; see also Randall Stokes and Albert Chevan, ``Female-
Headed Families: Social and Economic Context of Racial Differences,'' 
Journal of Urban Affairs, 18, 1996, pp. 245-268.
---------------------------------------------------------------------------
    In expanding employment services to low-income males, 
government should be careful not to condition receipt of 
services upon having fathered a child out-of-wedlock. To do so 
may only serve to introduce perverse incentives for men to 
father children out-of-wedlock, in much the same way that AFDC 
provided perverse incentives for women to bear children out-of-
wedlock. The cultural and public policy message must be this: 
we stand ready to assist low-income males who play by the rules 
and wait to have children until after they are married.
    Third, public policy needs to do more to support the 
growing number of community-based organizations interested in 
implementing local fatherhood programs. At the founding of the 
National Fatherhood Initiative just three years ago, we could 
barely find a hundred community-based fatherhood programs. 
Today, that number has swelled to well over two thousand. 
Nearly everywhere one turns in every part of the country, there 
seems to be a new interest in implementing fatherhood outreach, 
support, and skill building programs.
    That's the good news. The bad news is that the fatherhood 
field is still quite fragile. Again and again, we hear from 
practitioners of the need to build greater capacity within the 
emerging fatherhood movement. Building capacity requires 
additional resources. Additional resources means money.
    While many private foundations today talk a good talk about 
the need to reach out to and support fathers, far too few 
actually provide any resources to do so. Public funding for 
fatherhood promotion, support and skill building programs is 
practically non-existent. Consequently, most fatherhood 
programs today exist on shoestring budgets. Some on no budgets 
at all. Without additional resources, the nascent fatherhood 
movement is likely to fail.
    In addition, we need more and better evaluations of 
existing fatherhood programs. The truth is we don't know what 
works best and for whom. While there are many promising 
approaches, no approach has yet been proven, using generally 
accepted scientific evaluation methods, to yield its intended 
effects, especially in the long-term. Whatever government 
decides to do in terms of fatherhood promotion, it must also 
commit to providing adequate resources to determine the 
effectiveness of those efforts.
    Fourth, while supporting fathers, we can not forget the 
importance of supporting children growing up in father absent 
households. The fact is that nearly 4 out of every 10 children 
in America today--nearly 24 million overall--are growing up in 
a home in which their father does not live. In working with 
fathers, we can not forget the importance of reaching out to 
the fatherless. Although providing a fatherless child with an 
adult male mentor is not the same thing as providing a real 
live, in-the-home, love-the-mother, father, it can be very 
helpful in teaching fatherless boys what it means to be a 
responsible man, and in teaching fatherless daughters what to 
demand from men in their lives.

                     The Fathers Count Act of 1998

    Given these recommendations for a pro-father public policy, 
the Fathers Count Act of 1998 is the right legislation at the 
right time for the following three reasons: First, by 
supporting skill building programs for fathers, it sends a 
clear message that fathers do matter, and not just financially. 
Second, by including as one of its purposes the promotion of 
marriage, it contains a strong message that marriage is the 
most effective pathway to responsible fatherhood. Third, by 
including $2 billion dollars in block grant funding, it will 
help nurture and support the growth of the fatherhood field.
    There are, of course, objections to the bill. First, there 
are some who dislike the fact that the legislation explicitly 
promotes marriage. Government, these critics maintain, has no 
business promoting personal ``values.'' Instead, they insist, 
government policy ought to be neutral when it comes to 
marriage.
    This argument might be persuasive if not for the fact that 
for the past thirty years government policy, rather than being 
neutral, has actually punished marriage. For example, when two-
earner couples head for the altar instead of cohabiting, their 
taxes actually go up, in some cases costing families with 
modest incomes $5000 or more.
    Things are even worse for low-income couples. In fact, 
should a single mother on welfare choose to marry a low-wage 
earner and, in doing so, give her children a real live in-the-
home dad instead of a child support check, her benefits are 
frequently reduced, if not eliminated. According to 
calculations by Eugene Steuerle of the Urban Institute, when a 
man working full-time at a minimum wage job marries a mother on 
welfare with two children, the new family's combined earnings 
plus benefits would be $3,862 less than if the couple did not 
marry and the woman stayed on welfare.\23\ Hardly an incentive 
to get married.
---------------------------------------------------------------------------
    \23\ Gene Steuerle, ``Removing Marriage Penalties: Is This a 
Preventative Strategy?'' Presentation at The American Enterprise 
Institute conference on ``America's Disconnected Youth: Toward a 
Preventative Strategy.'' Washington, D.C., May 16, 1996.
---------------------------------------------------------------------------
    This wouldn't be so bad if marriage didn't matter. But it 
does. And not just a little. It matters a lot. Children fare 
much better when raised in a married, intact, two-parent 
household. In addition, research indicates that both married 
men and married women are happier, healthier, and wealthier 
than their unmarried counterparts. Furthermore, the best 
indicator of the violent crime rate in a community is not race, 
ethnicity or even income, but the prevalence of marriage. Given 
that marriage is good for children, adults and society, public 
policy should not shy away from encouraging more of it.
    A second objection comes from those who say we can not 
afford any new spending. I agree. But this isn't new spending. 
Funding for the fatherhood block grant would come from cutting 
other federal spending. Some options could conceivably cut more 
money than new spending promoting responsible fatherhood. If 
so, passage of the Fathers Count block grant would actually 
save money, especially in the long run when teenage pregnancy, 
crime, violence, drug and alcohol abuse, and child poverty are 
reduced as a result of the return of the fathers.
    A final objection is that government ought not to be in the 
business of social engineering. But the truth is that in many 
low-income communities, fatherhood and marriage have virtually 
disappeared. And not just recently; but for many generations.
    How in the world does a young male growing up in a fourth 
generation fatherless household and in a community largely 
without dads of the married variety, come to understand what 
responsible fatherhood and marriage are all about? How does 
simply dismantling government teach these young men the skills 
to be good, involved and committed dads? And what of the 
children of these fathers? Do we just sit back and say, ``Gee, 
you should have chosen your pop better.''
    Given the clear connection between fatherlessness and such 
social ills as poverty, crime, educational failure, and 
substance abuse, we can not afford social indifference on this 
issue. Government can not solve all of our nation's ills, but 
what it can do it must. This legislation would make a 
significant step toward reducing the three decade long slide 
into fatherlessness and social decay.
    I want to be clear. I'm not suggesting that merely passing 
a piece of legislation is going to magically transform our 
increasingly fatherless nation into a nation of real fathers 
and good husbands. Nor do I believe the Fathers Count Act of 
1998 is perfect legislation. I would, for example, prefer to 
see marriage as the over-riding goal of all fatherhood programs 
working with fathers supported through the block grant, 
including those working with low-income fathers.
    But the Fathers Count Act of 1998 is a start. And start we 
must, for until we solve this crisis of fatherlessness we will 
be a nation in decline.

                               Conclusion

    There exists today no greater single threat to the long-
term well-being of children, our communities or our nation, 
than the increasing number of children being raised without a 
committed, responsible and loving father. Our nation is known 
for its optimism and fondness for reforms of many sorts that 
promise to make society safer, stronger, and richer. Yet, all 
social reforms we have attempted in the past, or may attempt in 
the future, will likely pale in comparison to the good that 
would come if we could turn back the tide of fatherlessness. 
This tide will not be turned easily, and certainly not by 
changes in public policy alone. But public policy can have a 
significant effect upon how potential parents view marriage and 
parental responsibilities.
    As government at all levels proceeds with reforms in this 
area, it should keep in mind both the importance of fathers to 
the well-being of children and the fact that marriage is the 
most effective route to increasing the number of children 
growing up with an involved, committed, and loving father. As 
in the past, states will be tempted to conclude that promoting 
responsible fatherhood is mostly about child support 
enforcement. But child support enforcement alone is 
insufficient to ensure that every child grows up with a 
legally, morally, and socially responsible father.
    The good news is that we are starting to see, for the first 
time in over thirty years, a leveling off of the number of 
children growing up in father absent homes. I believe that with 
concerted effort we can actually reverse the trend toward 
fatherlessness within the next five years. Not simply stop the 
rise in fatherlessness, but reverse it. Doing so will require 
that we stand firm on the issue of marriage, for marriage is 
the most likely--not perfect, but certainly the most likely--
pathway to a lifetime father.
    Simply put: children need their fathers, and men need 
marriage to be good fathers. Effective public policy means 
encouraging more skilled fathering, more work, and more 
marriages. The Fathers Count Act of 1998 does all three.
    I thank you for the opportunity to provide you with this 
testimony in support of this important legislation, and would 
be pleased to answer any questions you might have concerning my 
testimony.
      

                                <F-dash>

    Chairman Shaw. Thank you, Dr. Horn.
    Mr. Ballard.

 STATEMENT OF CHARLES A. BALLARD, FOUNDER AND CHIEF EXECUTIVE 
   OFFICER, INSTITUTE FOR RESPONSIBLE FATHERHOOD AND FAMILY 
                         REVITALIZATION

    Mr. Ballard. Good afternoon, Mr. Chairman and Members of 
the Subcommittee, ladies and gentlemen. It is a great privilege 
to be here today. I want to encourage you, Mr. Chairman, to 
stick to this bill. I remember 22 years ago when I started my 
work with fathers, there were many nay sayers who said it 
wouldn't work. I look around the country and this Subcommittee 
today, which is an example I think of what can happen when you 
stick to it.
    On what Dr. Horn has said, I agree with it, all of that, 
and had some of that in my speech. Of course the panel before 
us was a demonstration of that. I would like to kind of cut to 
the chase and go right to the heart of the matter. Most of the 
emphasis that we're looking at for fatherhood is placed upon 
the urban central community in which people are leaving the 
community in large numbers, leaving behind disconnected, 
uneducated, poor families.
    Just a note, my program alone cannot effectively address 
the issues. This year in this country 250,000 African-Americans 
are going to die prematurely. That is a city the size of 
Birmingham, Alabama. Mostly fathers, mostly mothers. We learned 
about 1 month ago that for the age group 25 to 45, AIDS is the 
number one killer. I heard you indicate homicide among young 
men. All these are lifestyle diseases, lifestyle deaths of 
which government cannot effectively address those because they 
are moral issues, they are spiritual issues that only the 
community and individuals can address effectively.
    I was amazed to discover that out of the prison 
institutions, 51.5 percent of those men are of African descent. 
We represent only 10 percent or less of the population. We are 
overpopulating that area. We must be concerned not only about 
the fathers being involved, but we are discovering men coming 
out of prison with AIDS. They are passing it onto their 
girlfriends and to their wives. That institution that is one 
for corrections is really breeding more diseases than ever 
before.
    I think about the issues of marriage in which I believe 
without this institution, no matter what we put forth, is not 
going to work. I remember reading that in 1890 in this 
community we are talking about, we had the highest rate of 
marriage of all groups, which means that during slavery they 
had three things. A sense of God-consciousness, a sense of 
family, and a sense of community. Those were lost I believe 
with integration, when people began to move out of the 
community to seek for better land and leaving behind young 
women, uneducated and unskilled.
    How do we address this? Well the Institute for Responsible 
Fatherhood, which I direct and have done for the last 16 years 
as founder, believe that, and we have expanded from Cleveland, 
Ohio, into now into six different States, California, 
Tennessee, Wisconsin. In fact, in Tennessee, Governor Sundquist 
funds the program almost entirely. We just received a $4.5 
million grant from Labor, to help fathers find jobs. We are 
seeing great success in that area. In fact, Chuck Hobbs, who is 
with the American Institute for Full Employment, and we are in 
partnership with that program. We just finished our training in 
Alabama, are training 12 new couples to go out and do our work. 
That is what we do.
    We take married couples who have small children in many 
cases, who love each other, who believe in God and family and 
community, and who really hold the community as a very high 
value. They move into those communities. They actually live 
there, buy homes, lease houses, for the major purpose of 
portraying marriage and family as the preferred relationship 
for children. I believe this bill is right on target. We also 
believe that men who have good jobs become better fathers and 
better supporters.
    I just want to categorically say to you you are right on 
target with this bill. There are programs like mine, like the 
one Joe Jones directs, that need your support. If we get that 
kind of support through this bill, we will not only reach 
fathers, but turn their hearts to their children and increase 
marriages in our community.
    Thank you very much.
    [The prepared statement follows:]

STATEMENT OF CHARLES A. BALLARD, FOUNDER AND CHIEF EXECUTIVE OFFICER, 
INSTITUTE FOR RESPONSIBLE FATHERHOOD AND FAMILY REVITALIZATION

    MR. CHAIRMAN, MEMBERS OF THE SUBCOMMITTEE, MEMBERS OF THE 
HOUSE, LADIES AND GENTLEMEN, I AM BOTH PLEASED AND HONORED TO 
HAVE THE OPPORTUNITY TO ADDRESS YOU THIS MORNING ON AN ISSUE TO 
WHICH I HAVE DEVOTED ALL OF MY ADULT LIFE--THE RE-INTRODUCTION 
OF FATHERS INTO THE HEARTS AND LIVES OF THEIR CHILDREN, THEIR 
FAMILIES, AND THEIR COMMUNITIES. MY NAME IS CHARLES A. BALLARD 
AND I AM CONSIDERED BY MANY TO BE THE FOUNDER OF WHAT IS BEING 
CALLED THE ``MODERN-DAY FATHERHOOD MOVEMENT IN AMERICA.'' I AM 
ALSO THE FOUNDER AND CHIEF EXECUTIVE OFFICER OF THE INSTITUTE 
FOR RESPONSIBLE FATHERHOOD AND FAMILY REVITALIZATION, A 
NATIONAL, PRIVATE NOT-FOR-PROFIT ORGANIZATION THAT HAS FOR 
SIXTEEN YEARS SPEARHEADED THE EFFORT TO BRING TO THE FOREFRONT 
THE CRITICAL IMPORTANCE AND ROLE OF FATHERHOOD IN THE 
RESTORATION AND PRESERVATION OF THE FAMILY, AND IN THE 
REVITALIZATION OF OUR COMMUNITIES.
    THE MISSION OF THE INSTITUTE IS SIMPLE--CHANGING FATHERS, 
CHANGING FAMILIES, WHICH CHANGES COMMUNITIES. MEN WHO BECOME 
RESPONSIBLE, NURTURING FATHERS AND HUSBANDS TRANSFORM THEIR 
LIVES, THE LIVES OF THEIR CHILDREN, THE LIVES OF THEIR 
FAMILIES, AND THE HEALTH OF THEIR COMMUNITIES. ENDURING CHANGE 
STARTS IN A PERSON?S HEART SO THE INSTITUTE SEEKS TO TURN THE 
HEARTS OF FATHERS TO THEIR CHILDREN, AND THE HEARTS OF CHILDREN 
TO THEIR FATHERS. RATHER THAN FOCUSING ON THE EXTERNAL 
ENVIRONMENT, WE AT THE INSTITUTE DEAL WITH THE INTERNAL 
INDIVIDUAL, HELPING HIM TO IDENTIFY ROOT CAUSES ? AND TO EXPAND 
THE SCOPE OF HIS POSSIBILITIES. WE LIVE IN THE COMMUNITY; WE 
REACH OUT  TO THE COMMUNITY; AND WE BREAK THROUGH THE BARRIERS 
THAT HAVE CRIPPLED THE COMMUNITY. IN SHORT, WE ARE THE 
ARCHITECTS OF PERSONAL TRANSFORMATION THAT BRINGS ABOUT 
COMMUNITY RESTORATION.
    RECENTLY, THE INSTITUTE WAS ONE OF 49 ORGANIZATIONS 
SELECTED BY THE U.S. DEPARTMENT OF LABOR TO RUN A NATIONAL 
WELFARE-TO-WORK DEMONSTRATION PROGRAM IN SIX CITIES ACROSS THE 
COUNTRY. THIS PROGRAM WILL PLACE OVER 500 NON-CUSTODIAL FATHERS 
AND MOTHERS INTO OUR NATIONAL WORKFORCE. THESE WORKING CITIZENS 
WILL NOW BE CONTRIBUTORS TO THE PUBLIC REVENUE BASE THAT 
FORMERLY SUBSIDIZED AND SUPPORTED THEM. MORE IMPORTANTLY, IT IS 
OVER 500 FAMILIES THAT WILL BE CHANGING THE FACE OF THEIR HOMES 
AND THEIR COMMUNITIES.
    THE CURRENT DEMAND FOR THE INSTITUTE'S SERVICES FAR EXCEEDS 
ITS CAPACITY. OVER 60 CITIES, STATES AND COMMUNITY 
ORGANIZATIONS HAVE ASKED FOR THE INSTITUTE'S ASSISTANCE IN 
DESIGNING RESPONSIBLE FATHERHOOD PROGRAMS. OTHER WELFARE-TO-
WORK GRANTEES HAVE ALREADY REQUESTED TECHNICAL ASSISTANCE FROM 
THE INSTITUTE OUT OF RECOGNITION OF THE SUCCESS OF ITS APPROACH 
WHICH STATES ``THE MOST POWERFUL JOB CREATION PROGRAM EVER IS 
TO REINSTILL IN THE FATHER THE LOVE FOR HIS CHILD.''
    THE INSTITUTE'S APPROACH HAS BEEN STUDIED OVER THE YEARS TO 
ASSESS ITS EFFECTIVENESS AND OUTCOMES. IN FACT, TWO INDEPENDENT 
THIRD-PARTY RESEARCH EVALUATIONS HAVE BEEN CONDUCTED THAT 
ILLUSTRATE THE IMPACT OF THE INSTITUTE'S RESPONSIBLE FATHERHOOD 
APPROACH. IN 1992, RESEARCHERS AT CASE WESTERN RESERVE 
UNIVERSITY IN CLEVELAND, OHIO EVALUATED THE INSTITUTE'S PROGRAM 
AND FOUND THE FOLLOWING:
    <bullet> 97% OF INTERVIEWED FATHERS SPENT MORE TIME WITH 
THEIR CHILDREN AND ARE PROVIDING FINANCIAL SUPPORT;
    <bullet> 96% EXPERIENCED AN IMPROVED RELATIONSHIP WITH THE 
CHILDREN'S MOTHER;
    <bullet> 70% OF FATHERS COMPLETED THEIR HIGH SCHOOL 
EDUCATION; AND
    <bullet> 62% ARE EMPLOYED FULL-TIME, AND 11% ARE EMPLOYED 
PART-TIME.
    THIS YEAR, THE UNIVERSITY OF TENNESSEE COLLEGE OF SOCIAL 
WORK RELEASED AN EVALUATION OF THE INSTITUTE'S WORK WITH NON-
CUSTODIAL FATHERS IN GOVERNOR SUNDQUIST'S FAMILIES FIRST 
PROGRAM. THE REPORT DOCUMENTED THAT THREE-FOURTHS OF THE MEN 
PARTICIPATING IN THE INSTITUTE'S NASHVILLE PROGRAM--ACTUALLY 
77.3%--ARE FINANCIALLY SUPPORTING THEIR CHILDREN, EITHER 
VOLUNTARILY OR DUE TO COURT ORDER. THE REPORT WENT ON TO NOTE, 
AND I QUOTE, ``MANY CHANGES IN FAMILIES WHO HAVE WORKED WITH 
THE INSTITUTE WERE REPORTED BY FOCUS-GROUP AND INTERVIEW 
PARTICIPANTS. SOME NEGATIVE BEHAVIORS THAT STOPPED INCLUDED 
DRUG AND ALCOHOL USE AND ACTS OF DOMESTIC VIOLENCE AND CHILD 
ABUSE...FATHERS REPORTED BECOMING INVOLVED WITH THEIR CHILDREN 
AND SPEAKING AND SPENDING MORE TIME WITH THEIR FAMILIES, WHEN 
BEFORE THEY HAD NOT.''
    WHEN I BEGAN THIS WORK MORE THAN 20 YEARS AGO IN CLEVELAND, 
THE PROBLEMS FACING AMERICA'S COMMUNITIES HAD A SIMILAR FACE TO 
THAT OF TODAY--DRUG USE AND ABUSE; HIGH RATES OF HOMICIDE AND 
CRIMINAL ACTIVITY; JUVENILE DELINQUENCY; LACK OF ADEQUATE CHILD 
CARE; INADEQUATE EDUCATIONAL INSTITUTIONS AND RESOURCES; OUT-
OF-WEDLOCK BIRTHS AND TEENAGE PREGNANCIES. BUT THE FACE OF OUR 
URBAN COMMUNITIES TODAY HAVE MORE DEEPLY ETCHED LINES OF 
ANGUISH AND PAIN THAN EVER BEFORE. IN THE HEIGHT OF OUR 
NATION'S ECONOMIC RESURGENCE, OUR INNER CITIES ARE PLAGUED 
WITH:
    <bullet> INCREASING RATES OF ADULT MALE INCARCERATION--
51.5% OF AMERICA'S ADULT MALE PRISON POPULATION IS AFRICAN 
AMERICAN--AND MANY ARE FATHERS--YET, AFRICAN-AMERICAN MALES 
MAKE UP LESS THAN 8% OF OUR COUNTRY'S TOTAL POPULATION;
    <bullet> ACCELERATED RATES OF JUVENILE MALE INVOLVEMENT IN 
THE CRIMINAL JUSTIC SYSTEM--65% OF YOUNG, AFRICAN-AMERICAN 
MALES, MANY OF THEM TEENAGE FATHERS, ARE INVOLVED IN AMERICA'S 
JUVENILE JUSTICE SYSTEM;
    <bullet> RECORD NUMBERS OF CHILDREN IN THE FOSTER CARE 
SYSTEM--68% OF AFRICAN-AMERICAN CHILDREN FROM BIRTH TO AGE 18 
ARE INVOLVED IN AMERICA'S FOSTER CARE SYSTEM.
    MORE SOBERING IS THE RELENTLESS ASSAULT ON THE LIVES OF OUR 
INNER-CITY RESIDENTS WHO ARE DYING IN RECORD NUMBERS:
    <bullet> AIDS IS THE NUMBER ONE CAUSE OF DEATH FOR AFRICAN-
AMERICANS IN THE 25 TO 44 AGE GROUP, WHICH ARE THE PRIME AGES 
FOR PARENTING;
    <bullet> HOMICIDE IS THE NUMBER ONE CAUSE OF DEATH FOR 
AFRICAN AMERICAN MALES IN THE 15 TO 25 AGE GROUP;
    <bullet> SUICIDE IS THE NUMBER ONE CAUSE OF DEATH FOR 
AFRICAN-AMERICAN CHILDREN IN THE 9 TO 15 AGE GROUP--A 114% 
INCREASE NATIONWIDE SINCE 1980!!; AND
    <bullet> DEATHS OF AFRICAN-AMERICAN MALES DUE TO CANCER, 
CARDIOVASCULAR DISEASE, TUBERCULOSIS, AND HYPERTENSION ARE 
INCREASING FOR ALL AGE GROUPS IN AMERICA.
    CLEARLY, WE HAVE A MORAL IMPERATIVE TO ACT DECISIVELY TO 
SAVE FAMILIES AND THE SOUL OF THIS GREAT NATION. AS RESIDENTS 
OF THE INNER-CITY SUFFER THIS UNRELENTING ASSAULT ON THEIR 
SAFETY, THEIR HEALTH, THEIR HOMES, AND MOST IMPORTANTLY, THEIR 
FAMILIES, THEY FIND LITTLE SOLACE IN WHAT HAS HISTORICALLY 
UNDERGIRDED IMPOVERISHED AND SEGREGATED COMMUNITIES--THE 
PRESENCE OF STRONG, UNIFIED AND NURTURING FAMILIES AND 
NEIGHBORHOODS. THESE CORNERSTONES OF AMERICA'S CENTRAL-CITY 
COMMUNITIES ARE FLEEING TO THE SUBURBS, LEAVING IN THEIR WAKE 
THOSE WHO ARE LEAST ABLE TO HOLD OFF THE DECAY AND ENCROACHING 
DESTRUCTION OF THE COMMUNITY.
    THERE IS AN UNPRECEDENTED FLIGHT FROM THE INNER CITY BY 
MIDDLE-CLASS AFRICAN AMERICANS--AND BY IMMIGRANTS--WHO, 
HERETOFORE, NOT ONLY HAVE BEEN THE FOUNDATION OF AMERICA'S 
INNER-CITY COMMUNITIES, BUT ALSO ITS NUCLEUS. WITHOUT THE 
NUCLEUS, AN ORGANISM, OR THIS CASE, A COMMUNITY, DIES. THIS IS 
PRECISELY WHY THE INSTITUTE HAS ESTABLISHED ITSELF IN THE HEART 
OF THE COMMUNITY. OUR TECHNOLOGY REBUILDS THE FOUNDATIONS OF 
COMMUNITIES. WE BRING STRONG, UNIFIED AND NURTURING FAMILIES 
INTO THE COMMUNITY TO LIVE AND WORK AND MODEL LOVING AND 
SUPPORTIVE RELATIONSHIPS. WE BRING HUSBANDS AND WIVES WHO HAVE 
SUCCESSFULLY TRANSCENDED LIVES CHARACTERIZED BY HOPELESSNESS 
AND HIGH-RISK BEHAVIORS--SMOKING, DRINKING, DRUG USE, VIOLENCE, 
ABUSE--BACK INTO THE CENTRAL CITY TO SERVE AS BEACONS TO LIGHT 
THE PATHWAY TO PERSONAL TRANSFORMATION AND COMMUNITY 
RESTORATION. DAY-IN AND DAY-OUT, WE WORK TO RESTORE THE HEART 
OF THE COMMUNITY--ITS FAMILIES.
    THIS COMMITTEE HAS PLAYED A PIVOTAL ROLE IN SHAPING THE 
RECENT REFORMS THAT ALLOWED THE STATES TO DEMONSTRATE THE 
EFFICACY OF A WORK FIRST APPROACH TO WELFARE. FOR THE MILLIONS 
OF AMERICAN CHILDREN WHO REMAIN IN FATHERLESS HOMES, OR WHO ARE 
THE VICTIMS OF NEGLECT, FAMILY VIOLENCE AND ABUSE, I SUBMIT TO 
THIS COMMITTEE THAT WORK FIRST MUST BE COUPLED WITH WHAT 
TENNESSEE GOVERNOR SUNDQUIST HAS APTLY CALLED ``FAMILIES 
FIRST.''
    MR. CHAIRMAN, THE FATHERS COUNT BLOCK GRANT WOULD PROVIDE A 
MUCH NEEDED BOOST TO RESPONSIBLE FATHERHOOD ACTIVITIES ACROSS 
THIS NATION, BY ALLOWING THE STATES TO DEMONSTRATE THE CRITICAL 
IMPORTANCE OF FAMILY DEVELOPMENT AS A LOGICAL NEXT STEP IN THE 
WELFARE REFORM PROCESS. AS YOU KNOW, FOR DECADES FEDERAL 
WELFARE POLICIES, AS WELL AS PUBLIC HOUSING, CREATED INCENTIVES 
FOR FAMILY BREAK-UP AND DISINTEGRATION, WHICH CONTRIBUTED TO 
THE SPIRAL OF WELFARE DEPENDENCY AND URBAN VIOLENCE. JUST AS 
THE FAMILY IS THE NUCLEUS OF A COMMUNITY, A FATHER IS THE 
NUCLEUS OF A FAMILY. IT SEEMS ONLY FITTING, THEN, THAT THE 
FATHERS COUNT BLOCK GRANT WOULD USHER IN THE NEW ERA OF FEDERAL 
POLICIES THAT FOSTER FAMILY RESTORATION AND PRESERVATION.
    THERE ARE THOSE ON THE EXTREME RIGHT AND LEFT WHO ARE 
NAYSAYERS ON THIS ISSUE. I HOPE THIS COMMITTEE WILL HAVE THE 
COURAGE TO RISE TO THE OCCASION AS DID SENATOR MOYNIHAN THREE 
DECADES AGO WHEN HE DELIVERED HIS PROPHETIC STATEMENTS ON THE 
DECLINE OF THE AMERICAN FAMILY, AND THE AFRICAN-AMERICAN FAMILY 
IN PARTICULAR.
    ON THE FAR RIGHT, WE HAVE HEARD IT SAID THAT THIS BILL 
COULD POSITION THE GOVERNMENT TO PLAY A DIRECT ROLE IN FAMILY 
DEVELOPMENT--NOTHING COULD BE FURTHER FROM THE TRUTH. THIS BILL 
DEVOLVES DIRECT ASSISTANCE NOT THROUGH GOVERNMENT, BUT THROUGH 
THE GRASSROOTS, FAITH-BASED AND COMMUNITY-BASED FAMILY 
REUNIFICATION EFFORTS THAT ARE SWEEPING AMERICA. THIS BILL HAS 
THE POTENTIAL TO REVERSE DECADES OF GOVERNMENT POLICIES THAT 
SEPARATED LOW-INCOME MEN AND WOMEN--AND MEN AND THEIR 
CHILDREN--THROUGH POWERFUL DISINCENTIVES.
    I HOPE THIS COMMITTEE WILL RESIST ANY EFFORTS TO REGULATE, 
AND PROSCRIBE, FATHERHOOD ORGANIZATION RULES BY FEDERAL 
AGENCIES THAT WOULD VIOLATE THE SPIRIT AND THE INTENT OF THIS 
LEGISLATION. SUCH RULES, UNLESS CAREFULLY CRAFTED TO EMBRACE 
THE SPIRIT AND INTENT OF THIS BILL, MAY HAVE AN UNINTENDED 
BACKLASH THAT COULD HAMPER THE ABILITY OF SUCCESSFUL FATHERHOOD 
PROGRAMS TO CONTINUE TO INVOKE THE STRATEGIES AND TECHNOLOGY 
THAT HAVE ACHIEVED SO MUCH SUCCESS FOR SO MANY FATHERS, 
FAMILIES AND COMMUNITIES. OF COURSE, FEDERAL OVERSIGHT AND 
PERFORMANCE EVALUATION AS A BASIS OF FUTURE SUPPORT WOULD BE A 
PART OF THE PROGRAM, BUT THE DEVELOPMENT OF THE EVALUATIVE 
TOOLS AND POLICY REGULATIONS SHOULD BE A COOPERATIVE AND 
COLLABORATIVE EFFORT BETWEEN GOVERNMENT AND PRIVATE FATHERHOOD 
ORGANIZATIONS, BUSINESSES, AND RELIGIOUS INSTITUTIONS.
    ON THE FAR LEFT, WE FIND OTHERS WHO FEEL THE ROLE OF NON-
CUSTODIAL FATHERS SHOULD BE RELEGATED TO THAT OF AN ATM 
MACHINE; THAT THE FATHER'S EXCLUSIVE ROLE IS AN ECONOMIC AND 
FINANCIAL ONE. WE CATEGORICALLY REJECT THAT VIEW, FOR AS MY 
WIFE FRANCES HAS OFTEN STATED, ``IF YOU ASK A CHILD WHAT HE 
WANTS, THE FIRST CONSIDERATION THAT COMES TO MIND WOULD NOT BE 
A FINANCIAL ONE. HE WOULD SAY, `I WANT A DAD WHO CARES ABOUT 
ME--WHO IS TENDER, LOVING AND KIND, WHO SHOWS UP WHEN I NEED 
HIM. A DAD WHO LOVES AND RESPECTS MY MOM, AND WHO LOVES ME. A 
DAD WHOM I COUNT ON.' ''
    THE INSTITUTE FOR RESPONSIBLE FATHERHOOD AND FAMILY 
REVITALIZATION BELIEVES THAT TO RESTORE THE FABRIC AND FIBER OF 
AMERICAN COMMUNITIES, WE MUST REVIVE THE NUCLEUS OF THE 
FAMILY--THE FATHER. WE MUST SUPPORT HIS PERSONAL TRANSFORMATION 
AND ENCOURAGE THE PRINCIPLES OF PERSONAL RESPONSIBILITY, FAMILY 
RESPONSIBILITY, AND COMMUNITY RESPONSIBILITY. WE MUST ENSURE 
THAT FATHERS HAVE MAXIMUM OPPORTUNITIES TO BE THE BEST FATHERS 
THEY CAN BE, AND TO PROVIDE THE BEST QUALITY OF LIFE THEY ARE 
ABLE FOR THEIR FAMILIES. ONLY THEN WILL AMERICA EXPERIENCE THE 
RESURGENCE OF SAFE, STRONG, VIABLE AND CONTRIBUTING COMMUNITIES 
WITHOUT REGARD TO GEOGRAPHICS, ECONOMICS OR ETHNICITIES.
    THANK YOU, MR. CHAIRMAN AND MEMBERS OF THIS COMMITTEE, FOR 
AFFIRMING YOUR COMMITMENT TO THIS PRINCIPLE IN THE FATHERS 
COUNT LEGISLATION.
      

                                <F-dash>

    Chairman Shaw. Thank you, Mr. Ballard.
    Dr. Mincy.

  STATEMENT OF RONALD B. MINCY, SENIOR PROGRAM OFFICER, HUMAN 
     DEVELOPMENT AND REPRODUCTIVE HEALTH,  FORD  FOUNDATION

    Mr. Mincy. Good afternoon, Mr. Chairman, and Members of the 
Subcommittee. I thank you for this opportunity to comment on 
the work that you are doing and on the Fatherhood Counts bill.
    My first comment is to genuinely thank you for addressing 
an issue that is long neglected in U.S. social welfare policy. 
Like the effort that you began in the 1996 welfare reform bill, 
this bill could bolster efforts of hundreds of practitioners 
all over the United States who, to my knowledge, are the only 
ones who are paying attention to your goal of encouraging the 
formation and maintenance of two-parent families, at least in 
low-income communities.
    A common theme among these practitioners is the notion of 
restoring the hearts of fathers to their children. This is a 
phrase taken from Malachi, which also speaks to the need to 
heal and bring wholeness to communities. In a very fundamental 
way, that is what the work of Joe Jones and his colleagues from 
around the United States is doing.
    I want to make four brief comments. First of all, the panel 
that you heard from this morning is a representation of a very 
large cohort of young men throughout the United States who are 
not able to support their own children, let alone to 
successfully float a marriage proposal. If you could turn 
quickly to the tables at the end of my testimony, I want to 
emphasize that this cohort is very large. It consists of about 
3 million men, 2 million of whom are not paying--have incomes 
so low that they are not paying their child support.
    Second, these men look very much like women who are having 
difficulty escaping from welfare. About one-quarter of the men 
who should be paying child support are not able to do so. If 
you just turn quickly through the tables, you will also see 
that most women who are poor and who do not receive child 
support are women----
    Chairman Shaw. Help us out on what chart you are looking 
at. We're just kind of flipping through it trying to figure out 
where you are.
    Mr. Mincy. I'm sorry. I am turning to this huge circle.
    Chairman Shaw. Thank you.
    Mr. Mincy. Beginning there and moving quickly. Again, about 
a quarter of men who are not paying child support have incomes 
that would qualify them for food stamps. To the next table, I 
am trying to draw some relationships between those men and 
women who are poor and do not receive child support. About 86 
percent of them do not receive child support because they don't 
have an order which is indicative that they are not married.
    Skipping to the next table and onto the next, these men and 
women are basically about half of them are young, under 30 
years old. Quickly to the next table, about half of them, men 
who do not pay and women who do not receive, have less than a 
high school diploma which puts them out of the mainstream of 
the U.S. economy. Onto the next page, if you sum up the number 
of Latinos and African-Americans, 60 percent of them are 
minorities. Minorities are a very small portion of the U.S. 
population as a whole.
    What we see here is essentially a marriage market in which 
young men and young women who are poorly prepared for the 
mainstream are having children out of wedlock. As you were 
focusing earlier this week on the discovery that minorities are 
having a harder time moving off the welfare rolls, I think it 
is going to be the case that in order to change welfare as we 
know it and be successful at that, we are going to have to help 
both the young men and young women in these communities who are 
having children and are not capable of supporting them, let 
alone qualifying for a marriage partner.
    I just want to close my comments by saying a few other 
things. First of all, a major barrier to family formation among 
low-income couples with children is child support in the way in 
which it is traditionally enforced. First of all, there is no 
provision any more in the Federal statute for the pass through. 
When the father makes the child support payment to the State, 
he is unable to say to his partner that I am making a 
contribution to my children.
    Second, the process of child support as it's traditionally 
enforced encourages very high arrearages at the beginning of 
the person's child support career. The child support can be 
established retroactively to the birth of the child. The 
Bradley amendment prohibits the forgiveness of arrearages even 
if disability, incarceration, or long-term unemployment are the 
reasons that the man is unable to pay his child support. States 
can order fathers to pay child support based upon their 
hypothetical ability to earn with no reference to their present 
employment and their present capacity.
    Finally, there is no provision in child support to help a 
man bond and attach to his child, much like the young men that 
you saw. In fact, in order to do visitation in this arena, a 
person has to have the capacity to have an attorney. That is 
something that is beyond his financial capability.
    Quickly, I think the Fatherhood Counts bill will make it 
very difficult for the programs and this field to rise to the 
challenge of helping fathers support their children. The goal 
of marriage is clearly beyond their reach. Something toward 
which the field is moving, but for you to attach this as a lead 
criterion associated with funding under this program, would 
really damage the ability of many of the programs that are 
making real progress to create an infrastructure to support 
fatherhood in low-income communities.
    Finally, it is important to move things closer to the State 
and local level. However, we have a field that is very young, 
that has no place in our infrastructure for supporting low-
income children and families. I think there needs to be some 
more provision in the bill to enable the field to build the 
capacity that it needs to understand what is doing better, to 
disseminate best practices, and to network it around the 
country so that they establish standards and become better at 
what they are doing.
    I thank you for your indulgence and absolutely for the work 
that you are doing.
    [The prepared statement follows:]

Statement of Ronald B. Mincy, Senior Program Officer, Human Development 
and Reproductive Health, Ford Foundation

    Chairman Shaw and members of the Human Resources 
Subcommittee of the House Committee on Ways and Means, thank 
you for this opportunity to comment on the your efforts to 
promote fatherhood and in particular on the Fatherhood Counts 
bill. My first comment is to express my sincere gratitude for 
the courage and wisdom you have displayed in addressing a long-
neglected area in U.S. social and family policy. If you are 
successful in passing a bill that will provide support for 
programs that promote fatherhood, it will be helpful to the 
fatherhood field in general. However, the same bill can be 
critical to the success of the effort you began with the 1996 
welfare reform law. This effort has energized hundreds of 
practitioners all over the United States, who have been working 
with low-income fathers over the last two decades, with little 
support or attention from the federal government.
    My testimony is based on what I have learned while: 1) 
growing up in a poor community without a father, among many 
similarly situated young people; 2) becoming a supportive and 
loving husband to my wife of over 20 years and father to my 
two, now-adult, sons; 3) working as a researcher and policy 
analyst to understand how father absence and other family and 
community problems limit the potential of young people growing 
up in poor communities, including several years at the Urban 
Institute; 4) leading the Non-custodial Parents' Issue Group in 
the Clinton Administration's Welfare Reform Task Force; and 5) 
working as a member of a dynamic team of researchers, policy 
analysts, program administrators, and policy makers involved in 
the Strengthening Fragile Families Initiative, which I have 
managed for the almost 5 years at the Ford Foundation. However, 
I speak for myself, and none of my positions or conclusions 
necessarily reflects positions or policies of the Ford 
Foundation or its trustees.
    In the next five minutes I will cover the following four 
brief points.
    1. The three men you met earlier represent part of a large 
cohort of young, low-income, non-custodial fathers who are 
working hard to become full contributors to the financial, 
emotional, spiritual, and developmental well-being of their 
children, against substantial obstacles.
    2. One of their most important obstacles is the traditional 
child support enforcement system, which thwarts the efforts of 
these fathers to provide for their children and to repair 
relationships with their child(ren)'s mothers. If this system 
does not change it will defeat efforts to achieve the goal, 
which the Congress set out in the 1996 welfare reform law, to 
encourage the formation and maintenance of two parent families, 
at least in poor, minority communities.
    3. The Fatherhood Counts bill, as currently framed, may 
also pose obstacles to these fathers and the programs that 
serve them because it may discourage and diminish the important 
intermediate steps between doing nothing for these young 
fathers and encouraging them to marry.
    4. To promote fatherhood in the communities where these 
fathers and their families live, the Fatherhood Counts bill 
must do more than support individual fatherhood programs. The 
bill must also help to institutionalize the public-private 
relationships between these programs and public agencies that 
are part of the general framework we use to support low-income 
children and families.

       Responsible Fatherhood Goals: Restoration and Reclamation

    In low-income communities, the primary goals of community-
based responsible fatherhood programs are to restore, reclaim, 
and make whole the fathers and families on which society has 
given up.\1\ For example, practitioners in this field often 
quote a phrase about ``restoring the hearts of fathers to their 
children.'' Many of you know that this phrase comes from the 
Bible, ``And he shall restore the hearts of the fathers to 
their children, and the hearts of the children to their 
fathers, lest I come and smite the land with a curse'' (Malachi 
4:6, New American Standard Version). These are the last words 
of the Old Testament, but the chapter is alive with language 
and images of reclamation and restoration, as in an earlier 
verse that speaks of a ``Sun of Righteousness'' arising with 
healing in its wings. The work of Joe Jones and his colleagues 
throughout the country is fundamentally about healing, 
redeeming, and restoring fathers to their communities and to 
society, by first restoring these fathers to their children and 
their children's mothers.
---------------------------------------------------------------------------
    \1\ Anne Gavanas, ``Making Fathers into Role Models: The 
``Fatherhood Responsibility Movement'' and African American 
Masculinities,'' paper in progress, Stockholm University, Department of 
Social Anthropology, Stockholm, Sweden, 1998
---------------------------------------------------------------------------

                Underground Fathers and Fragile Families

    The young fathers you met this morning are part of a large 
cohort of low-income, non-custodial fathers who would be unable 
to provide for their children or to attract a marriage partner, 
without the assistance of community-based responsible 
fatherhood programs.\2\ My colleague, Elaine Sorenson at the 
Urban Institute reports that there are three million non-
custodial fathers with incomes low enough to qualify for food 
stamps.\3\ One million of these fathers pay child support, a 
burden so great that it can drive their family incomes 130 
percent below the poverty line. The other two million do not 
pay child support for their four million children.\4\ Together, 
the low-income, non-custodial fathers who do not pay child 
support represent about \1/4\ of all non-custodial fathers (See 
Figure 1.) \5\ These fathers look very much like the women on 
welfare who do not receive child support (see Figure 2.). They 
are young, unmarried, poorly educated, and disproportionately 
minorities, who had their first children before completing high 
school or acquiring much work experience (see also Figures 3-
6). These are also the characteristics of long-term welfare 
recipients whose exit from welfare is limited because these 
characteristics make them poor prospects for work or marriage.
---------------------------------------------------------------------------
    \2\ Ronald B. Mincy and Elaine Sorenson, ``Deadbeats and Turnips in 
Child Support Reform,'' Journal of Policy Analysis and Management 17 
(Winter 1998).
    \3\ Elaine Sorenson, Where Should Public Policy Go From Here, (The 
National Center for Strategic Nonprofit Planning and Community 
Leadership, 1998)
    \4\ Sorenson, Ibid.
    \5\ Mincy and Sorenson.
    [GRAPHIC] [TIFF OMITTED] T8554.001
    
    [GRAPHIC] [TIFF OMITTED] T8554.002
    

    [GRAPHIC] [TIFF OMITTED] T8554.003
    
    [GRAPHIC] [TIFF OMITTED] T8554.004
    

    [GRAPHIC] [TIFF OMITTED] T8554.005
    
    [GRAPHIC] [TIFF OMITTED] T8554.006
    

    These data are evidence of what sociologists call 
assortative mating, which it is key to the success of your 
efforts to promote self-sufficiency and key to the success of 
your efforts to promote fatherhood. This week, the New York 
Times reported that members of Congress were surprised to learn 
that minorities are leaving the welfare rolls at a slower pace 
than non-minorities. Custodial mothers who began receiving 
welfare with the same characteristics as the young, non-
custodial fathers represented in these figures are having more 
difficulty leaving the welfare roles. Even in tight labor 
markets, employers are reluctant to hire men and women with 
this profile. Like it or not, I believe that the Congress is 
going to have to adapt the national welfare reform effort to 
help these women acquire the skills they need to find jobs.
    In a similar way, promoting responsible fatherhood will 
require multiple strategies, tailored to the barriers that 
impede family formation and maintenance in different groups. I 
believe that the current draft of the Fatherhood Counts bill 
does not proceed from an understanding of the barriers to the 
formation and maintenance of two-parent families in low-income, 
minority communities. Unless the bill adopts a more flexible 
approach, so that communities can overcome different barriers, 
it will not achieve the kind of success that this 
subcommittee's efforts so richly deserve.
    In most communities, father absence is the result of a 
divorce or separation of a mature couple. Their relationship 
began, was formalized in marriage, matured, and then expired, 
after at least one of the spouses decided that they had had 
enough. The role of public policy in such cases is to ensure 
that the non-custodial parent, usually the father, provides 
adequately for the child(ren). This will ensure that the mother 
and child(ren) avoid poverty, which often results when the 
father withdraws his, usually, higher income, after the divorce 
or separation. Then, to ensure that conflict between the 
parents does not cause undue emotional stress for the child, 
public policy may also require that the parents participate in 
some sort of mediation process. Often, with this kind of help, 
the mother can get back on her feet, find her way back into the 
labor market and into the community. In many cases she 
remarries and returns to a middle class lifestyle. After a 
period of hurt, insecurity, and confusion, the child(ren) 
adjust to their parents' separation and to their new family 
form. In short, the process of family formation has run its 
full course. The role of public policy is to help families to 
bring their union to an amicable end and then to recover.
    This is not the situation we find among the low-skilled, 
unmarried, long-term welfare recipients and the equally 
disadvantaged fathers of their children. Many of these young 
women and men have their first children before they are mature 
enough to manage a committed relationship and before they 
understand the full implications of unmarried, unprotected sex 
and child bearing. Because rates of morbidity, mortality, 
unemployment, underemployment, and incarceration of young men 
are extremely high in their communities, there is little 
evidence of successful marriage for young people to emulate. 
Finally, in part because of the sixty-year old legacy of 
welfare, there is no cultural imperative to marry after a child 
is conceived out-of-wedlock. Instead, a system of cash, 
housing, medical, job search, and child care benefits replaces 
men as guardians and breadwinners for children and families.
    Despite these significant obstacles, the fathers you met 
today desperately want to be involved in the lives of their 
children and to reconcile their relationships with their 
partners. All around the country, practitioners like Joe Jones 
have rallied around these fathers. They help them and their 
partners to recast the end of innocence as the beginning of a 
process of family formation. While most observers see the unwed 
birth as a problem, these parents, like most parents, want to 
see their child(ren) as new beginnings.
    Armed with this hope, the practitioners help low-income, 
unwed parents learn that both the mother and father are 
critical to their child(ren)'s well-being and that their 
personal feelings toward one another must be subordinated to 
the needs of their child(ren). Thus, building a cooperative 
relationship between the parents, which we call team parenting, 
is key to child well-being. As they focus on their child(ren)'s 
needs, fathers learn how to subordinate their own needs to the 
needs of others who depend on them. This helps them learn how 
to find and keep a job, based on their current skills. It also 
helps them manage their earnings, so that they can contribute 
to their child(ren)'s financial needs. Finally, it helps them 
to manage their time, so that they can seek and pursue 
opportunities to improve their skills and increase their 
earnings. In the process of developing team parenting skills, 
young fathers and mothers acquire hope, maturity, and ability 
to forgive their partners' failures and shortcomings. These are 
the keys they need to sustain a marriage and a family. They may 
even heal, build, or rekindle their personal relationships and 
decide to marry one another. But first they must focus their 
joint attention on the needs of their children.\6\
---------------------------------------------------------------------------
    \6\ Ronald B. Mincy and Hillard Pouncy, ``There Must Be Fifty Ways 
to Start a Family: Social Policy and the Fragile Families of Low-
Income, Noncustodial Fathers,'' paper prepared for the conference 
Fatherhood Movement: A Call to Action, Minneapolis, October 1996.
---------------------------------------------------------------------------
    There is good news and bad news in recognizing that it will 
require different strategies to promote fatherhood in different 
communities. The good news is that the possibility of continued 
family formation still exists in communities where marriage is 
rare, unwed births are common, and young men and women are 
poorly prepared to enter the mainstream. The bad news is that 
the longer we delay the interventions needed to help them, the 
longer are the odds that both the father and the mother will be 
able to nurture and provide for their children.\7\ The parents 
and children are vulnerable, their relationships are immature, 
and the process of family formation through which they are 
going is precarious. For these reasons, I call such parents and 
their children, fragile families.
---------------------------------------------------------------------------
    \7\ Mary Achatz and Crystal A. MacAllum, ``Young Unwed Fathers: 
Report from the Field,'' Public/Private Ventures, Philadelphia 1994.
---------------------------------------------------------------------------
    Unfortunately, this potential for family formation is 
invisible to most Americans. As a result, we structure income 
and family supports for these fragile families as if they have 
the same needs and barriers as middle-aged, middle income, 
divorced men and women. It is not surprising that these 
supports create obstacles for these families.

   Why Traditional Child Support Enforcement Impedes Fragile Family 
                               Formation

    Some of the most important obstacles arise in the 
traditional child support enforcement system. This system is 
designed to deal with non-custodial parents for whom the family 
formation process is complete, because their marriages have 
ended in divorce or separation.\8\ It works well because 
questions of paternity establishment are moot for these fathers 
and they have the resources to pay child support, though not 
willingness to do so. However, traditional child support 
enforcement is often an impediment to the process of family 
formation in fragile families, because, in several ways, it 
discourages the involvement of low-income, non-custodial 
fathers in the lives of their children (Sorenson and Turner, 
passim): \9\
---------------------------------------------------------------------------
    \8\ Ronald B. Mincy and Hillard Pouncy, ``Paternalism, Child 
Support Enforcement, and Fragile Families,'' in The New Paternalism, 
ed. Lawrence M. Mead (Washington, DC: Brookings Institution Press, 
1997).
    \9\ Elaine Sorenson and Mark Turner. ``Barriers in Child Support 
Policy That Discourage Noncustodial Fathers' Involvement in the Lives 
of Their Children: A Literature Review,'' paper prepared for the System 
Barriers Roundtable, sponsored by the National Center on Fathers and 
Families, Philadelphia, PA, May 29, 1996.
---------------------------------------------------------------------------
    1. Until the 1996 welfare law, the system allowed the state 
to keep all but $50 of the father's child support payment to 
offset welfare costs. Under the new law, most states keep the 
entire child support payment, passing none of it along to 
custodial mothers and their children.
    2. Most states allow child support orders to be established 
retroactively to the birth of a child, even when no action to 
establish paternity is taken until long after the unwed birth.
    3. The Bradley Amendment prohibits the courts from 
forgiving or reducing child support arrears, even when 
disability, incarceration, or long periods of unemployment 
prevented fathers from keeping their child support payments 
current.
    4. States can order non-custodial fathers to pay child 
support based on their potential earning ability even when they 
do not have a job at the time the order is established.
    5. Child support guidelines tend to be regressive, 
requiring low-income, non-custodial fathers to pay a larger 
share of their income toward child support than higher-income 
fathers.
    6. Except for the financial obligation, the child support 
system has little to say about non-custodial fathers' 
involvement in their children's lives.
    7. The child support enforcement system does not provide a 
way for low-income, non-custodial fathers to establish or 
enforce their rights to visitation their children.
    In 1996, forty percent of Hispanic children and nearly 
seventy 70 of black children were born out of wedlock. Hispanic 
and black men are over-represented among the low-skilled men 
whose wages and employment prospect have declined the most, 
despite a booming economy. Given the barriers to family 
formation, which child support poses for low-skilled men and 
their families, I have long wondered how Congress expected to 
achieve the fourth goal of the welfare reform law. I have 
waited for an opportunity to ask members of Congress: How would 
you encourage young disadvantaged men and women in these 
communities to form and maintain two-parent families? In the 
interim, I have worked, along with grantees of the Ford 
Foundation's Strengthening Fragile Families Initiative, to 
build capacity in the field of community-based responsible 
fatherhood programs. These programs show low-income, unwed 
fathers:
    1. how to manage the pain they feel because they have not 
had relationships with their own fathers and because they have 
broken their vows to be responsible for their own child(ren);
    2. how to promote their child(ren)'s development;
    3. how to manage their sexuality;
    4. how to conduct a job search and acquire job-related 
skills;
    5. how to deal with child support enforcement; and
    6. how to heal and strengthen their relationships with the 
mothers of their children.
    In the past two decades, Congress has worked to strengthen 
the provisions of welfare laws that require and enable 
recipients to become self sufficient. Enabling provisions 
include various forms of transitional assistance such as health 
care, child care, and transportation assistance for custodial 
mothers who leave the welfare roles for work. Low-income, non-
custodial fathers of children in fragile families need similar 
transitional arrangements and on-ramp services, to help them 
find jobs and adjust to the child support enforcement system. 
However, there is no place in our system of supports for low-
income children and families to develop the kinds of services 
that community-based responsible fatherhood programs provide.

  Supporting Responsible Fatherhood Programs That Strengthen Fragile 
                               Families.

    Failure to perceive the potential for family formation has 
led mainstream Americans to structure a system of income 
supports that pose obstacles to family formation among low-
income, unwed parents and their children. In a similar way, the 
Fatherhood Counts bill threatens to structure supports for 
fatherhood that will create additional obstacles. These 
obstacles will occur because the draft bill treats programs 
that promote marriage more favorably than programs that first 
focus the attention of fathers (and mothers) on their 
child(ren) and the steps parents must take to promote their 
child(ren)'s well-being. To avoid these obstacles the 
Fatherhood Counts bill should acknowledge and support fathers, 
like those who you have met today, who despite having an out-of 
wedlock birth, are working to strengthen their fragile 
families. Specifically, the bill should place on an equal 
footing programs that explicitly promote marriage and 
comprehensive programs that, without explicitly promoting 
marriage:
    a. promote an understanding of childhood development;
    b. teach parenting skills;
    c. help participants manage their sexuality;
    d. supply assistance in finding and keeping a job;
    e. offer participants advice on their obligations and 
rights in regard to the child support enforcement and 
visitation; and
    f. encourage participants to become team parents.
    Few community-based responsible programs operating in low-
income communities promote marriage as an explicit goal. 
However, these programs prepare fathers to meet the needs of 
children, who are passive recipients of anything a parent has 
to offer. They also help young fathers (and mothers) to develop 
the relationship skills they need to sustain a long-term team 
parenting relationship, and if desired, a marriage. However, a 
partner is not a passive recipient of a marriage proposal. A 
father may support his child(ren) financially. He may persuade 
his former partner that he can be trusted to care for the 
child(ren)'s physical, emotional, spiritual, and developmental 
needs.
    Despite these achievements, the local culture, economy, and 
environment surrounding low-income communities provides few 
supports for marriage. As a result, even a responsible father 
may be unable to persuade the mother of his child to accept his 
marriage proposal. Moreover, after having an opportunity to 
mature and acquire new skills, either parent may decide that 
they are not ideally matched with the person with whom they 
conceived a child, during their younger, more careless, years. 
Practitioners, who have worked with parents in low-income 
communities know this, and therefore, have made child-well-
being and fatherhood development, not marriage, the primary 
goals of their services. These programs should not be penalized 
for understanding the needs of their clients.

          Institutionalizing the Responsible Fatherhood Field

    Finally, the current version of the Fatherhood Counts bill 
requires the Secretary of the Department of Health and Human 
Services to make grants to the states for fatherhood projects 
run by private organizations. It provides just $20 million for 
the administration and evaluation of individual efforts funded 
by this block grant program. This strategy will encourage 
autonomy and innovation at the state level, but states have 
little incentive to build networks and capacity in a field that 
operates across the country. This network and capacity building 
is important so that the field may develop standards for its 
own members, disseminate best practice, and educate the public 
about the value of the services it provides. Moreover, the 
block-grant approach leaves the field of community based 
responsible fatherhood with little infrastructure at the 
federal level, where the rest of the nation's family support 
policies are developed and maintained. As a result, the field 
will be unable to integrate fatherhood development into the 
national framework for supporting low-income children and 
families. Because the national framework features strong 
institutional advocates for low-income mothers and children, it 
is imperative that fatherhood have a voice at the national 
level.
    The field of responsible fatherhood is more than twenty 
years old, but because public and private support has been 
small and episodic, no program in the country has been 
rigorously evaluated for its effects on child well-being and 
family formation. Such an evaluation would be premature, 
because the field is still learning how to define and measure 
its impact on these important outcomes. Thus, Fatherhood Counts 
should begin to provide the resources needed to help 
institutionalize the field. Practitioners, like Joe Jones 
should know who in the Department of Health and Human Services 
will continue to be responsible for fatherhood development 
services. Currently, I believe that responsibility should be 
housed somewhere in the Administration for Children and 
Families. I also believe that such an office should have a 
close working relationship with the Federal Office of Child 
Support Enforcement, which, under the leadership of 
Commissioner David Grey Ross, has been our greatest ally in 
removing the barriers that traditional child support 
enforcement poses to fragile families. It has taken sixty years 
to build the income security and family support systems that in 
many ways undermine now the role of fathers in the lives of 
low-income children and families. These systems are well 
integrated at federal, state and local levels. It will take 
more than a brief, block-grant program to restructure these 
systems, so that they can help restore fathers to their 
children and families.
    Nevertheless, these two small flaws in the current draft of 
the bill do not diminish the enormous potential of your efforts 
to promote fatherhood in this country. Along with other 
participants in the Strengthening Fragile Families Initiative, 
I look forward to working with you to achieve our mutual goals. 
I also look forward to your questions and the opportunity to 
exchange ideas during the dialogue that follows these comments. 
Thank you again for your efforts in this critical area.
      

                                <F-dash>

    Chairman Shaw. Thank you, Dr. Mincy.
    Dr. Primus, welcome back.

   STATEMENT OF WENDELL PRIMUS, DIRECTOR OF INCOME SECURITY, 
             CENTER ON BUDGET AND POLICY PRIORITIES

    Mr. Primus. Mr. Chairman and Members of the Subcommittee, 
thank you for the opportunity to testify on the subject of 
promising approaches to promote fatherhood. I would like to 
congratulate you on calling attention to the importance of 
fathers and the need to assist noncustodial parents in meeting 
their parental obligations. The center supports the thrust of 
this hearing and the goals that it seeks to attain. We support 
the intent of H.R. 3314, but we have two serious concerns with 
the bill as currently drafted.
    First, the resources in the bill need to be more narrowly 
focused on those noncustodial parents represented by the first 
panel that testified here today. Second, we believe the bill 
should also include a set of policies that would ensure that 
when noncustodial parents pay child support, their children's 
financial circumstances actually improve. Even if H.R. 3314 can 
spend no more than $2 billion, I suggest that the Subcommittee 
consider reallocating a portion of the bill's limited funds for 
this purpose.
    Just as welfare reform during the early nineties 
transformed welfare offices from disbursement offices to a 
focus on placing mothers in the work force, child support 
offices must continue to enforce the collection of child 
support, but also assist fathers to move into the work force, 
to help them be better fathers and have more interaction with 
their children. In that way, assist noncustodial fathers in 
being better parents, both financially and emotionally, and 
then I think the promotion of marriage will come automatically.
    Child support offices cannot be expected to provide all of 
these services on their own, and probably should not. But they 
must be encouraged to develop strategies and linkages to the 
services of other agencies. Much of this vision can be 
implemented at the local level without any changes in Federal 
law. The center's support for the bill is contingent upon the 
bill being paid for. Any financing for the bill must not reduce 
any other means-tested program.
    I am convinced that the most promising strategy to assist 
disadvantaged fathers in becoming better parents is one that 
combines the following. Fatherhood programs that provide 
mediation, parenting, and peer support services and a broad 
array of employment services, plus maybe actual employment in 
some cases to overcome the disadvantages of substance abuse, 
that are tailored to the particular needs and strengths of the 
individual father, these fathers are diverse, and enforced 
through the tools of the child support enforcement program, and 
reinforced by a set of strong economic incentives that assure 
that when child support is actually paid it increases child 
well-being. H.R. 3314 provides needed funding for the first two 
sets of services, but not for the last. All of these 
ingredients must be present, I believe, for the strategy to 
work.
    I would like to describe one concrete addition to the bill 
that I would urge you to consider. In this era of no unfunded 
mandates and devolution, I recognize that States cannot just be 
ordered to pass through a certain amount of child support. I 
would urge you to legislate the following offer to States. They 
do not have to turn over their child support collections to the 
Federal Government if they pass through a significant portion 
of the child support collected on behalf of noncustodial 
parents. The States would be given the simple choice, pay the 
family or pay the Federal Government. This would cost both the 
Federal and State governments, but would greatly benefit low-
income families, and also change the dynamics of the 
relationship between custodial and noncustodial parents.
    For example, as you see on the chart, in Florida where 
there is no pass through of child support under current law, 
the tax rate on extremely low-income families is 100 percent. 
In most contexts both liberals and especially conservatives 
rebel against 100 percent tax rates. As you can also see, a 
noncustodial father in Florida should be paying a very large 
proportion of his earnings in child support, leaving him with 
very little income.
    I went back and double checked these numbers this morning 
because I could not quite believe them myself. Maybe in the 
real world they don't happen. But at least on paper and reading 
all of the fine print, this father here represented in that 
sixth line, when he is earning only $7,500, the mother has 
child care expenses, he is expected to pay 44 percent of his 
earnings in child support, leaving him with an income level 
that is only 38 percent of the poverty line, while providing 
the custodial family with no additional income. Is it realistic 
to expect low-income fathers to pay these child support orders 
when their children do not even benefit from them? The chart 
also shows that the resulting increases in the custodial 
family's income if child support is completely disregarded 
increases by from 6 to 20 percentage points.
    Another way this could be accomplished is by subsidizing 
child support payments. As you know, the Tax Code contains a 
number of provisions that benefit families, such as personal 
exemptions, child tax credits, and EITC. These provisions, 
however, only benefit families with earnings. Because some 
custodial families have little or no earnings, they are unable 
to take full advantage. These unused credits could be tallied 
and used to subsidize and incentivize the child support that 
should be paid by the noncustodial parents. For example, $2,000 
of unused child tax benefits from the custodial mother could be 
providing additional payment of $1 for every $1 that the 
noncustodial parent pays.
    In conclusion, Mr. Chairman, I would note that there are 
several programs already in existence that would support the 
goals of H.R. 3314. Specifically, the welfare-to-work 
legislation you passed last year, title 20, the EITC for 
childless workers and TANF, could all be used to currently 
promote these goals. Accordingly, cuts to these programs for 
the purposes of offsetting the cost of this bill or any other 
legislation severely undermines the goals you have set forth 
for this bill.
    Finally, Mr. Chairman, I want to commend you for displaying 
leadership in resisting reductions to the TANF block grant. I 
know the efforts you have made. Moneys from that block grant 
can be used to support the goals of the block grant proposed 
here. I therefore urge you to continue fighting cuts in the 
TANF block grant and to continue calling attention to the 
importance of fathers and the need to assist noncustodial 
parents as well as custodial parents in meeting their parental 
obligations.
    [The prepared statement and attachment follow:]

Statement of Wendell Primus, Director of Income Security, Center on 
Budget and Policy Priorities

    Mr. Chairman and Members of the Subcommittee on Human 
Resources:
    Thank you for the opportunity to testify on the subject of 
``promising approaches to promote fatherhood'' and specifically 
the proposed ``Fathers Count Act of 1998'' (H.R. 3314). As the 
Director of Income Security at the Center on Budget and Policy 
Priorities--a nonpartisan, nonprofit policy organization that 
conducts research and analysis on a variety of issues affecting 
low- and moderate-income families--I would like to congratulate 
you on calling attention to the importance of fathers and the 
need to assist noncustodial parents in meeting their parental 
obligations.
    The Center supports the thrust of this hearing and the 
goals that it seeks to attain--``helping poor and low-income 
fathers establish positive relationships with their children 
and the children's mothers, promoting responsible parenting and 
increasing family income''--and the message it sends that 
government policy should acknowledge the importance of fathers 
assuming legal, financial, child-rearing and emotional 
responsibility for their children. We support H.R. 3314 to the 
extent that it supports these goals. However, I have two 
serious concerns with the bill as currently drafted that are 
critical to address if the bill is to achieve the goals laid 
out in this hearing.
    First, the income and demographic targeting requirements of 
the bill do not target the resources provided narrowly enough 
on those non-custodial parents who could most benefit--and 
whose children could most benefit--from participating in 
training and parenting programs. As currently drafted, H.R. 
3314 requires states to use 80 percent of the monies provided 
on parenting, employment, and marriage-promotion programs for 
fathers (including both custodial and non-custodial fathers) 
whose earnings are below average male earnings--roughly $30,000 
per year. Instead, limited resources should be targeted on non-
custodial parents with far lower incomes. These non-custodial 
parents (most of whom will be fathers) are among those most 
likely to benefit from employment-related services and whose 
children are most likely to benefit from increased child 
support payments.
    Second, the bill should also include a set of policies that 
would ensure that when low-income non-custodial parents meet 
their obligations and pay child support, their children's 
financial circumstances improve. In many states currently, if a 
non-custodial parent pays child support and his children 
receive TANF-funded assistance, the child is ``made no better 
off'' than if the father did not meet his obligation to pay 
support. This substantially reduces a father's incentive pay 
support--a father may not think paying child support is 
important if his children are no better off--and leaves 
children deeper in poverty than if a substantial portion of 
child support payments were passed-through directly to families 
and disregarded when determining eligibility for cash 
assistance. In addition to including provisions that would 
address these issues, tax policies that reward non-custodial 
parents who pay their child support should also be considered. 
These provisions would cost money. Even if H.R. 3314 can spend 
no more than $2 billion, I suggest that the Committee consider 
allocating a portion of the bill's limited for these purposes.
    Our current welfare system is inherently sexist--we expect 
women to assume all of the parental roles of breadwinner, 
caretaker, and nurturer, while the men in these low-income 
families have no required responsibilities except to pay child 
support if they are able. The intention of welfare reform was 
to move the custodial parent into the workforce and up the job 
ladder. But, there is little federal commitment to provide 
employment-related services to noncustodial fathers. Public 
policies should provide both economic opportunity and 
responsibility to both parents.
    Research shows that statistically, children reared in 
single-parent families are at greater risk of adverse outcomes 
than those reared in two-parent families.\1\ While some studies 
have demonstrated that fathers have a notable positive effect 
on their children's well-being, others have revealed that 
fathers are peripheral to certain measures of child and 
adolescent well-being.\2\ New research, however, focused on the 
qualitative dimensions of fathering, finds that father 
involvement does have a positive effect on some social-
psychological outcomes for adolescents.\3\ In response to the 
growing problem of children being raised in single-parent 
female-headed households, fatherhood programs have sprung up 
around the country to encourage noncustodial parents to be 
involved in the lives of their children through job development 
and training, assistance with child support enforcement 
offices, mediation, teaching parenting skills and promoting a 
stronger attachment to their children.
---------------------------------------------------------------------------
    \1\ See Sara McLanahan and Gary Sandefur. Growing Up with a Single 
Parent: What Hurts, What Helps.rvard University Press, 1994.
    \2\ See Frank Furstenberg, Jr. ``Intergenerational Transmission of 
Fathering Roles in At-Risk Families.'' Paper presented at the NICHD 
Family and Child Well-Being Network's Conference on Father Involvement, 
October 1996 and Alan J. Hawkins and David J. Eggebeen. ``Are Fathers 
Fungible?: Patterns of Coresident Adult Men in Maritally Disrupted 
Families and Young Children's Well-Being'' in Journal of Marriage and 
the Family 56: 963-972.
    \3\ See Marcy Carlson. ``How Does Family Structure Matter?: Father 
Involvement and the Behavior of Young Adolescents.'' Paper presented at 
the annual meeting of the Population Association of America, Chicago, 
April 1998; Marc A. Zimmerman, Deborah A. Salem and Kenneth I. Maton. 
``Family Structure and Psychosocial Correlates among Urban African-
American Adolescent Males'' in Child Development 66: 1590-1613 and 
Kathleen Mullen Harris, Frank F. Furstenberg and Jeremy K. Marmer. 
``Paternal Involvement with Adolescents in Intact Families: The 
Influence of Fathers Over the Life Course'' in Demography 35(2): 201-
216.
---------------------------------------------------------------------------
    In addition, many of these children will spend some of 
their childhood years in poverty. Many poor children in single-
parent families will be able to escape from poverty--or avoid 
being pushed still deeper into poverty--only if they can 
benefit from a combination of wages earned by their mother, 
earnings from their father paid in the form of child support, 
and government assistance in the form of earned income tax 
credits, child care subsidies, food stamps and health 
insurance. As mothers earn income or as fathers pay child 
support, governmental assistance must not be reduced dollar for 
dollar.
    Child support is also a critical part of welfare reform--as 
welfare reform encourages families to rely on earnings and 
eventually moves them off of public assistance, income from the 
child support system will become an increasingly more important 
mechanism for providing income to children in single-parent, 
low-income families. In order for this to happen, however, the 
culture of the child support office must change. Just as 
welfare reform during the early 1990s aimed to transform the 
culture of welfare offices from disbursement offices to 
agencies which focus on placing mothers in the workforce, child 
support offices must continue to vigorously enforce collection 
of obligations while working with other agencies that help 
noncustodial fathers be better parents--both financially and 
emotionally.
    I have spent a great deal of time traveling around the 
country working with child support agencies, welfare offices, 
fatherhood groups, employers and employment and training 
service providers to attempt to get these organizations to work 
together to provide fathers with a comprehensive group of 
services which will help them be better parents by enabling 
them to assume legal, financial, child-rearing and emotional 
responsibility for their children. Child support offices cannot 
be expected to provide all of these services on their own and 
probably should not, but must be encouraged to develop 
strategies and linkages to the services/jobs of these other 
agencies/organizations to encourage these fathers to be better 
parents, rather than just collect their check and end the 
relationship there. I have spoken at numerous conferences and 
written several papers that develop in much more detail the 
vision I summarize below. Much of this vision can be 
implemented at the local level without changes in Federal law. 
H.R. 3314 should help accomplish this vision by providing 
funding for the services and programs these men need to help 
them become better fathers, thereby improving their children's 
well-being and increasing paid child support.
    This proposed bill will spend $1.9 billion over 5 years and 
the financing offsets for the bill have not yet been 
identified. The Center's support for the bill is contingent 
upon the bill being paid for--in other words, we stand firmly 
behind the pay-as-you-go rules--and any financing mechanism for 
the bill must not reduce any other means-tested program.

           Increasing Child Well-Being and Paid Child Support

    Our efforts should be focused in three areas in order to 
realize these goals:
    <bullet> Provision of services to noncustodial fathers that 
will make them more employable or capable of earning higher 
wages, such as job readiness activities, job retention 
services, on-the-job training, trial employment and by creating 
jobs for those who are the hardest to serve, thereby increasing 
their earnings and child support paid;
    <bullet> Provision of services to noncustodial fathers that 
will enable them to build stronger relationships with their 
children, such as programs to help instill better parenting 
skills, mediation, and peer support services, thereby 
encouraging them to assume not only financial responsibility 
for their children, but also legal, child-rearing and emotional 
responsibility; and
    <bullet> Increasing the effectiveness of paid child support 
by passing-through and disregarding substantial amounts of paid 
child support and subsidizing those child support payments, 
thereby allowing paid child support to actually improve the 
well-being of their children and encouraging them to want to 
support their children financially.
    I am convinced that the most promising strategy to assist 
disadvantaged fathers in becoming better parents and to improve 
the well-being of their children is one which combines the 
following: a broad array of employment services (plus actual 
employment in some cases) and fatherhood programs that are 
tailored to the particular needs and strengths of the 
individual father; strong enforcement of child support 
obligations through the enforcement aspects of the child 
support enforcement program; and strong economic incentives for 
noncustodial fathers to pay child support through policies that 
ensure that child support paid increases children's economic 
well-being. H.R. 3314 could provide the needed funding for the 
first two sets of services, but not for the last, although the 
last is equally as important. Local communities should be 
encouraged to test a variety of ways of implementing this broad 
approach.

Increasing Earnings of Noncustodial Fathers and Child Support 
Paid

    First, we should provide services to noncustodial fathers 
that help increase their earnings in order to make them able to 
support their children financially. H.R. 3314 should be used to 
fund such programs, including workforce development programs, 
programs that help fathers overcome the barriers they face to 
becoming employed, such as on-the-job training and trial 
employment, job readiness activities, publicly funded jobs, and 
job retention services.
    The new welfare law makes important strides in the child 
support enforcement arena, strengthening the tools for 
collecting child support from noncustodial fathers who have 
income. However, it does little to help jobless noncustodial 
fathers enter the labor force, and consequently, little to 
increase child support collections from noncustodial fathers 
who lack earnings from which to make these payments. This is 
problematic given that the economic circumstances of young men, 
particularly those with limited skills and education 
credentials, have been decaying at an alarming rate over the 
past two decades. The inflation-adjusted average annual 
earnings of 25- to 29-year-old men without a high school 
diploma fell by 35 percent between 1973 and 1991.
    This suggests that the payoff from tighter enforcement may 
be constrained by the inability of some noncustodial fathers to 
pay.
    The problem is that low-income, noncustodial fathers face 
significant barriers to employment, many of which are the same 
as the employment barriers faced by poor, custodial mothers. 
These barriers include a range of problems that make them 
unattractive to employers or make it difficult to find 
available jobs, such as: low levels of educational attainment; 
criminal records and other legal problems; a lack of 
transportation; substance abuse problems; the disappearance of 
low wage, blue-collar, industrial jobs; an erosion in real 
wages in the low-wage sector; changing skill requirements; the 
declining value of a high school diploma; the relocation of 
manufacturing jobs from the central cities to the suburbs and 
discrimination. All of these barriers prevent fathers from 
obtaining jobs and being able to pay child support.
    Fathers are also discouraged from paying child support by 
the child support system itself, as many noncustodial parents 
deem the system to be fundamentally unfair.\4\ This is 
particularly true for low-income noncustodial parents who 
frequently are presented with support obligations that far 
exceed their ability to pay or are not adjusted appropriately 
when their earnings decrease. As a result, many of these 
noncustodial parents do not make the required child support 
payments and accumulate a debt in the amount of owed child 
support; are charged with paying retroactive support and 
Medicaid childbirth costs (plus interest and court costs) 
dating back to the time the child first received AFDC or TANF 
and in some states dating back to the child's birth or default 
on their orders and as a result incur fines, have their wages 
withheld, or have liens placed on their property.
---------------------------------------------------------------------------
    \4\ See Matching Opportunities to Obligations: Lessons for Child 
Support Reform from the Parents' Fair Share Pilot Phase, Manpower 
Demonstration Research Corporation, April 1994, pp.74-5 and Working 
with Low-Income Cases: Lessons for the Child Support Enforcement System 
from Parents' Fair Share, Manpower Demonstration Research Corporation, 
May 1998, pp. 12-3.
---------------------------------------------------------------------------
    The existence of this child support debt--which can be 
substantial--can be daunting to noncustodial parents in low-
wage jobs. Because the noncustodial parents may feel they never 
will be able to pay off their child support fully even if they 
are working, these arrearages may actually deter them from 
seeking stable employment or making child support payments, 
encourage them to move into the underground economy, or cause 
them to completely sever ties with the family. All of these are 
adverse outcomes from a societal viewpoint.
    Funds from H.R. 3314 should be used to help fathers 
overcome these obstacles to paying child support--those created 
by poor labor market opportunities and those created by the 
child support system itself--by providing them with services 
that will make them more employable or capable of earning 
higher wages or by creating jobs for those who are the hardest 
to serve.

Building Stronger Relationships Between Noncustodial Fathers 
and Their Children

    Second, while welfare reform will cause poor children to 
become financially more dependent on the earnings of both 
parents to keep them out of poverty, children in most 
families--regardless of welfare reform--also benefit from 
emotional support from both of their parents. However, many 
noncustodial fathers face considerable barriers to becoming 
involved in the lives of their children. In many instances, 
they themselves lacked a role model for good parenting skills. 
Also, without a pay check, some males feel that they do not 
deserve to see their children. The concept of ``father'' is 
tied closely to being a breadwinner and the lack of employment 
often becomes a significant barrier. Child support rules also 
affect father involvement. From the male's perspective the 
child support system is only interested in his role as 
breadwinner, not his role as parent. There are many strong 
tools enforcing the payment of monies through child support but 
little or no effort is expended in enforcing access and 
visitation rights.
    Services should therefore be provided to fathers which will 
help them to build stronger relationships with their children 
and overcome these barriers to their parental involvement. 
Again, monies from H.R. 3314 should be used to fund such 
programs, including programs to help instill better parenting 
skills, mediation, and peer support services. It should be 
noted, however, that in some families domestic violence makes 
positive interaction between the noncustodial parent and 
children impossible and not in the best interest of the 
children and the mother. As policies are put in place to 
increase noncustodial fathers' involvement with their children, 
care must be taken to ensure the safety of children and their 
mothers.

Increasing the Effectiveness of Paid Child Support

    While H.R. 3314 does not provide funding for such purposes, 
it is also important to enact policies that increase the 
effectiveness of paid child support. Substantial pass-throughs/
disregards \5\ of child support and subsidization of those 
payments to help eliminate the high tax rates on child 
support--or rather, increase the small or nonexistent amount of 
paid child support that actually benefits low-income children--
would help attain the goals of the legislation and would 
perfectly complement the programs that will be funded by the 
bill.
---------------------------------------------------------------------------
    \5\ Throughout this testimony, a child support pass-through and 
disregard are intended to mean the same thing. In other words, I am 
advocating that a substantial portion of the child support paid should 
be passed through to the mother, but without affecting the level of 
TANF benefits--it is disregarded from income when calculating the 
benefit level.
---------------------------------------------------------------------------
    Noncustodial parents are often reluctant to pay--and 
sometimes go to great lengths not to pay--their child support 
orders because they do not feel that the payments are actually 
benefitting their children. Disregarding substantial amounts of 
child support paid and subsidizing those child support payments 
would help ensure that the child support that is paid actually 
helps improve the children's well-being and thereby encourages 
noncustodial fathers to want to pay child support.
    I would like to describe one concrete addition to the bill 
that I would urge you to consider--passing through a 
substantial portion of paid child support. Prior to the mid-
1980s, all child support collected on behalf of welfare-
receiving families was retained by the government as 
reimbursement for Aid to Families with Dependent Children 
(AFDC) payments to the family.\6\ This was a contributing 
factor to the reluctance of noncustodial parents to pay child 
support. To help address this problem, the Deficit Reduction 
Act of 1984 changed the provisions governing distribution of 
child support to families receiving AFDC by ``passing-through'' 
up to $50 of child support collected by the Child Support 
Enforcement Office to the AFDC family.
---------------------------------------------------------------------------
    \6\ With one minor exception: in approximately 11 states with 
``fill the gap'' policies, not all of the child support collected was 
retained.
---------------------------------------------------------------------------
    However, the 1996 welfare law repealed this pass-through 
requirement. Under the Temporary Assistance to Needy Families 
(TANF) block grant rules, states are free to continue the pass-
through, completely eliminate it, or expand it. Regardless of 
what pass-through policy they adopt, states must send to the 
federal government a fixed share of the total amount of support 
collected on behalf of children receiving assistance from TANF-
funded programs. Sixteen states have chosen to continue the 
pass-through, 33 states have completely eliminated it, and 2 
states have expanded the pass-through.\7\ In two states--
Wisconsin and Connecticut--the entire amount of child support 
paid is passed through.
---------------------------------------------------------------------------
    \7\ Paula Roberts. State Action Re $50 Pass-through and Disregard. 
Center for Law and Social Policy, January 1998.
---------------------------------------------------------------------------
    Increasing pass-throughs/disregards would not only improve 
children's financial well-being, but would also provide an 
incentive to the noncustodial father to pay child support. I 
would therefore urge you to consider a substantial disregard of 
child support (of 50 percent, 75 percent or even more), as it 
would greatly complement the legislation. In this era of no 
unfunded mandates and devolution, I recognize that states 
cannot just be ordered to pass through a certain amount of 
child support. I would urge that you legislate the following 
offer to states: they do not have to turn over their child 
support collections to the Federal government if they pass 
through a significant portion of the child support collected to 
the custodial families. I would also apply the disregard to 
monies collected through the child support enforcement system, 
including changes in the IRS refund distribution rules that 
would make the distribution ``family friendly.'' \8\ The states 
would be given the simple choice: pay the family or pay the 
Feds. This would cost both the federal and state governments, 
but would greatly benefit low-income families and also change 
the dynamic between custodial and noncustodial parents because 
custodial parents would have a more vested interest in whether 
or not the noncustodial parent pays child support.
---------------------------------------------------------------------------
    \8\ The Personal Responsibility and Work Opportunity Reconciliation 
Act of 1996 (PRWORA) established ``family friendly'' payment 
distribution rules, whereby child support paid by the noncustodial 
parent would first go to pay child support debt to the custodial family 
and the remainder would go towards repaying debt to the state last. 
However, these rules do not apply to child support debt collected 
through the IRS. I am proposing that these family friendly rules be 
extended to include child support payments collected through the IRS.
---------------------------------------------------------------------------
    The money passed through to the custodial families would 
significantly improve the well-being of the children. For 
example, in Florida, where there is no pass-through of child 
support under current law, the tax rate on child support for 
extremely low-income families is 100 percent. In most 
contexts--both liberals and especially conservatives--rebel 
against 100 percent tax rates. Even custodial families that are 
receiving little or no TANF assistance benefit very little from 
the child support that is paid. The attached chart shows that 
the effective tax rates on the child support paid to these 
families (the scenarios on the bottom half of the chart) are 
well over 50 percent.
    Meanwhile, the noncustodial father in Florida is paying a 
very large portion of his earnings in child support, leaving 
him with very little income. For example, when he is earning 
only $7,500 he is expected to pay 44.4 percent of his earnings 
in child support, leaving him with an income level that is only 
37.5 percent of the poverty line, while providing the custodial 
family with no additional income. Is it realistic to expect 
low-income fathers to pay these child support orders when their 
children do not even benefit from them?
    However, with a complete pass-through of child support the 
custodial family would receive 70 percent of the child support 
that is paid by the noncustodial father, \9\ reducing the tax 
rate on child support from 100 percent in many cases, to only 
30 percent.\10\ This increase in the portion of the child 
support that actually reaches the children improves their well-
being by increasing their income. The attached table shows the 
resulting increases in the custodial family's income if child 
support is completely disregarded. As a percentage of poverty, 
the custodial family's income increases between 6 and 20 
percentage points if all child support is passed through to 
them. Passing through child support would especially help 
custodial mothers with very little or no earnings.
---------------------------------------------------------------------------
    \9\ With one exception--in the last case, the effective tax rate 
increases to 44.7 percent because at this specific level of earnings, 
the custodial family becomes ineligible for food stamps.
    \10\ The 30 percent tax rate is due entirely to the treatment of 
paid child support in the calculation of food stamp benefits.
---------------------------------------------------------------------------
    Another way to accomplish this is by subsidizing child 
support payments. The tax code contains a number of provisions 
that benefit children in low-income families, such as personal 
exemptions, child tax credits and the EITC. These provisions, 
however, generally only benefit low-income families that have 
at least some earnings. Because many custodial parents have 
little or no income, they are unable to take full advantage of 
these tax provisions. Meanwhile, it is possible that 
noncustodial parents have income that is low enough to qualify 
for these provisions yet high enough that they are able to gain 
some benefit from the credits and exemptions. However, they are 
not eligible to receive these credits and exemptions, because 
their children do not live with them. Children whose parents do 
not live together are therefore deprived of the benefits of the 
tax code provisions that were specifically established to 
assist them because they cannot take advantage of both parents' 
incomes. These ``unused'' credits could be tallied and used to 
subsidize and incentivize the child support that is paid by the 
noncustodial parent. For example, $2,000 of ``unused'' child 
tax benefits from the custodial mother from the past year could 
provide an additional payment of one dollar to the custodial 
family for each dollar the noncustodial father paid in child 
support (assuming his order was also $2,000) in the current 
year.

                  Suggestions for Improving H.R. 3314

    There are several concerns I have about some aspects of the 
bill and several areas where I believe the bill can be 
improved. My major concern is that the bill is not targeted to 
the low-income noncustodial fathers who are most in need of 
these services. I know that you do not want to require a 
complicated means-test, but the needs of very low-income 
noncustodial fathers are so great that the bill should include 
much clearer targeting requirements. The only income targeting 
in the bill requires at least 80 percent of the funds to go to 
services and programs for noncustodial fathers with annual 
incomes below the state average income of male earners. This 
income level could fall between $25,000 and $35,000.\11\ This 
means that a majority of the funds could go to serve middle-
class, rather than the low-income fathers or fathers with 
children on welfare who really need the services. The Chairman 
has stated that the proposed legislation and today's hearing 
seek to help low-income fathers and fathers of children on 
welfare. I would therefore urge you to target the bulk of this 
block grant to disadvantaged and low-income noncustodial 
fathers below 200 percent of poverty.
---------------------------------------------------------------------------
    \11\ Economic Report of the President, February 1998, Table B-33.
---------------------------------------------------------------------------
    Second, I would argue that block granted programs are 
better administered when local or state governments are 
required by a matching rate to invest their own money in the 
programs, just as was done in the Welfare-to-Work block grant 
to the states. The block grant in the Fathers Count Act does 
not involve any matching rate, but rather gives the states a 
lump sum of money for them to spend. I would recommend changing 
the structure of the block grant to require states also to 
invest their own money in the fatherhood programs funded by the 
bill.
    Third, I am concerned about the bill's silence on domestic 
violence. There are certainly cases where it may not be in the 
child's best interest to have interaction with his/her father 
or where such interaction needs to be supervised or monitored. 
While the bill provides funds that could be used for domestic 
violence and abuse counseling for fathers, the bill is 
completely silent on this issue in the preparation of state 
plans. I would urge that states be required in the submission 
of state plans to take domestic violence into account in the 
delivery of these program services.
    Fourth, I agree that marriage is an important institution. 
However, government law and regulation cannot make happy, 
loving, stable families. As much as I would like that result 
100 percent of the time, in the real world, it is not a 
reality. In those cases where the marriage has failed or where 
the children were born out-of-wedlock, the children still need 
both economic and emotional support from both of their parents, 
whether married or not.
    Finally, I would recommend a slower phase-in of the funds 
and an increase in the funds in the later years of the block 
grant. Often when states are presented with such a large amount 
of money in the first year, it goes unspent because states are 
not given enough planning time. Instead, I would suggest 
redistributing the funding levels in the following way: 
$50,000,000 for FY 2000; $200,000,000 for FY 2001; $450,000,000 
for FY 2002; $600,000,000 for FY 2003; and $600,000,000 for FY 
2004.

          Other ``Promising Approaches to Promote Fatherhood''

    In conclusion, Mr. Chairman, I would note that there are 
several programs already in existence which support the goals 
of ``helping poor and low-income fathers establish positive 
relationships with their children and the children's mothers, 
promoting responsible parenting and increasing family income.'' 
Specifically, Welfare-to-Work, Title XX, the EITC for childless 
workers and TANF currently promote these goals of the Fathers 
Count Act. Accordingly, cuts to these programs for the purposes 
of offsetting the cost of this bill or any other legislation 
severely undermine the goals you have set forth.
    Fourteen states currently have competitive Welfare-to-Work 
grants that target noncustodial parents and 15 states currently 
have formula grants that target noncustodial parents. Michigan 
is spending almost all of its Welfare-to-Work dollars on this 
population. These grants are seed money for the vision that I 
have laid out today and for the goals that you, Mr. Chairman, 
have set for low-income fathers.
    Since the time when you originally introduced the Fathers 
Count Act, the Congress has taken a big step backwards in 
achieving the goals you have laid out in the bill. Almost all 
of the goals of the Fathers Count Act could have been served 
under Title XX, but since the introduction of H.R. 3314, Title 
XX was cut in the highway bill by some $2.7 billion over the 
time frame of H.R. 3314. As much as I support H.R. 3314, we 
must recognize that cuts like those to Title XX are moving us 
away from the goals of the Fathers Count Act and further cuts 
will significantly undermine the ability of states to achieve 
these goals.
    Meanwhile, the EITC for childless workers helps to provide 
some tax relief for a portion of the noncustodial fathers that 
the Fathers Count Act is trying to help. These workers receive 
little aid from other government assistance programs and pay an 
unusually high percentage of their small incomes in federal 
taxes.\12\ Eliminating the EITC for childless workers would 
substantially increase the federal tax burdens for these 
fathers, making it even more difficult for them to pay a 
portion of their small earnings in child support.
---------------------------------------------------------------------------
    \12\ Robert Greenstein and Isaac Shapiro. The Consequences of 
Eliminating the EITC for Childless Workers. Center on Budget and Policy 
Priorities, July 9, 1998.
---------------------------------------------------------------------------
    Finally, Mr. Chairman, I commend you for displaying 
leadership in resisting reductions to the TANF block grant. 
Again, monies from that block grant are being used and can be 
used to support the goals of the Fathers Count block grant 
proposed here. I therefore urge you to continue fighting cuts 
in the TANF block grant and to continue calling attention to 
the importance of fathers and the need to assist noncustodial 
parents--as well as custodial parents--in meeting their 
parental obligations.

   Disregarding Child Support Significantly Increases the Income of Custodial Families in the State of Florida
----------------------------------------------------------------------------------------------------------------
          Earnings                             Effective Tax Rate  on      Income as a  Percentage of Poverty
-----------------------------  Child Support        Child Support      -----------------------------------------
                                 Order as    --------------------------     Custodial Family       Noncustodial
                                Percent of                             --------------------------     Parent
  Custodial    Noncustodial    Noncustodial                                                      ---------------
   Family         Parent         Parent's     Current Law    Proposal   Current Law    Proposal     Current Law
                                 Earnings                                                          and Proposal
----------------------------------------------------------------------------------------------------------------
          0         10,000            17.8        100.0*         30.0         56.0         65.5
      2,500          7,500            26.7        100.0*         30.0         71.7         82.5           53.4
      5,000          5,000            33.2        100.0*         30.0         87.5         96.3           32.4
          0         15,000            30.7          85.2         30.0         61.2         80.7           87.1
      3,750         11,250            37.1          91.0         30.0         82.5        101.9           59.9
      7,500          7,500            44.4        100.0*         30.0        101.6        119.4           37.5
          0         20,000            29.5          73.2         30.0         68.1         87.6          115.0
      5,000         15,000            35.5          77.9         30.0         96.5        115.9           78.7
     10,000         10,000            39.8          69.3         30.0        122.1        134.1           51.4
          0         25,000            28.5          65.7         30.0         74.7         94.2          143.5
      5,000         20,000            33.2          68.3         30.0        103.6        123.0          106.1
     10,000         15,000            36.2          58.8         44.7        129.9        135.8           77.2
----------------------------------------------------------------------------------------------------------------
Note: Calculations use 1998 Florida child support and TANF parameters and federal tax and food stamp parameters,
  but assume the $500 child tax credit is fully phased in (even though this will not be the case until 1999) for
  a family with two children and assume that the full child support order is paid. The poverty threshold for the
  custodial family is the threshold for a family of 3, or $13,086 in 1998 and the poverty threshold for the
  noncustodial parent is the poverty threshold for one person, or $8,359 in 1998. The proposal is a complete
  pass-through of paid child support to the custodial family and a complete disregard of paid child support for
  the purpose of calculating TANF benefits.
* These famreceive TANF under current law.

      

                                <F-dash>

    Chairman Shaw. Thank you. I hope your praise doesn't get me 
in trouble.
    Dr. Berlin.

STATEMENT OF GORDON L. BERLIN, SENIOR VICE PRESIDENT, MANPOWER 
   DEMONSTRATION RESEARCH CORPORATION,  NEW  YORK,  NEW  YORK

    Mr. Berlin. Thank you for the opportunity to comment on 
promising approaches to promote fatherhood. My remarks today 
about the needs of fathers are drawn from MDRC's experience in 
developing and evaluating the Parents' Fair Share Demonstration 
Project, arguably the most comprehensive research and 
demonstration project in existence that involves unemployed 
noncustodial fathers.
    Authorized by the Family Support Act of 1988 and operating 
in seven States, Parents' Fair Share's underlying assumption is 
that when fathers are supported and playing an active role in 
their children's lives, and when fathers have gainful 
employment, they are more likely to pay child support on a 
consistent basis. Delivered by a partnership of local child 
support, fatherhood, and employment training organizations, the 
program offers employment and training to help fathers find and 
hold jobs, peer discussion classes to support and foster 
responsible parenting, and dispute resolution services to 
resolve conflicts that might arise with the custodial parent. 
In addition, child support systems agreed to suspend or lower 
orders while fathers participated in the program.
    I am going to draw upon two forthcoming reports on this 
project that will be released in the next month or so to answer 
or address three issues. Who are these fathers, what have we 
learned about what works in terms of services that might help 
them gain employment, be better fathers and pay child support, 
and what policy issues should the next generation of programs 
for low-income fathers consider?
    Who are the fathers in this program? They are a 
significantly disadvantaged group. Most of them live at or near 
the edge of poverty with little access to employment or public 
assistance programs. About half do not have a high school 
diploma or GED. In terms of employment, about half of them work 
at low-wage jobs intermittently while the other half have been 
unemployed for long periods of time.
    As you know, as a result of changes in the labor market 
over the last 20 years or so, employment prospects for poorly 
educated men have deteriorated precipitously through no fault 
of their own. Without regular work, this group of fathers 
seldom feel adequate as parents. While most saw their children 
frequently and tried to be involved in their lives, without 
income, they often had difficulty. Not surprisingly, without 
jobs, they seldom paid what they owed in child support. Many 
face staggering debts. Twenty percent of the sample owed some 
$8,000 in child support payments, in part because those arrears 
continue to build even when fathers are unemployed.
    Despite their involvement with their children, we found 
that the PFS fathers they often lacked basic understanding of 
how to be a parent. What was age-appropriate behavior, what 
forms of discipline were appropriate, what kinds of activities 
to engage in with their children.
    What have we learned about the effectiveness of the 
services this program offered? The first lesson was that 
parenting instruction and support was successfully provided 
through a group peer support model where a facilitator met 
regularly with groups of fathers to discuss parenting issues. 
It was feasible to operate this program component. The fathers 
came. They participated at significant levels. You have heard 
from the previous panel testimonials about what these kinds of 
opportunities to engage fathers can mean to them.
    The second lesson, getting fathers more and better jobs 
than they could have gotten on their own, proved very 
difficult. We have a lot more work to do in that area. We did 
get fathers jobs, but we often found we were getting them the 
same kinds of jobs they got previously. Two of the sites were 
more promising. We have a long way to go in the followup 
period. We are hoping that some trends will emerge there that 
will give us some additional lessons about effective employment 
and training strategies.
    The third lesson: despite the absence of employment and 
earnings impacts during the early followup period covered in 
our forthcoming reports, the package of PFS services did lead 
to increases in child support payments. The program had a 
payoff beyond the help it gave fathers in making them better 
parents.
    Four policy recommendations emerge from these lessons and 
this experience. First, there is a tremendous need for services 
to help low-income fathers learn about and be supported in the 
active roles they already play as fathers. It is feasible to 
deliver these services. Fathers will participate. Our 
observations of the program in action suggests that the 
services make a difference in fathers' knowledge about and 
their approach to parenting.
    Second, making these programs effective requires a lot of 
collaborative work by a range of agencies with different goals: 
child support systems, fatherhood programs, and employment and 
training agencies. It also takes resources; the funding 
proposed in H.R. 3314 is critical to the success of these 
programs. Its links to TANF and welfare-to-work programs are 
wise.
    Third, more work is needed to develop employment and 
training services that would increase low-income fathers' 
employment and earnings. Los Angeles and Memphis emphasize 
skill building activities in conjunction with work. Some 
related approaches that we might try include developing new 
ways to combine work and skill-building activities and to 
provide job retention services to help low-income men hold onto 
the jobs when they get them. But it is also true that about a 
third of the fathers who participated in this seven-State 
effort had little or no recent work history. For these fathers, 
transitional community work experience jobs are needed to help 
them build credible work histories.
    Fourth and last, in the final analysis, our society still 
defines the father's role as provider. But poor men, even when 
they work can seldom meet the 30 percent or more of gross pay 
demanded of them by the child support system. When they do meet 
those demands, they are often left poor themselves. Unlike 
middle-class fathers who often end up better off financially 
after a divorce, poor fathers often end up worse off. As a 
result, they often feel the system is stacked against them. If 
their children are on AFDC or now TANF, they don't get credit 
for having paid child support because the payments go to offset 
their welfare payments. Child support systems need to be more 
responsive to the changing ability of fathers to pay. The 
orders need to be rationalized and standardized to reduce the 
likelihood that fathers who do try to pay still end up with 
huge debts.
    In addition, to address the impoverishment that results 
when fathers do pay child support, we should give some thought 
to how we might take advantage of the EITC, possibly by 
allowing noncustodial parents who pay what they owe in child 
support to claim any unused portion of the earned income tax 
credit.
    In conclusion, fathers do count. Services really can make a 
difference. They can enhance involvement with their children, 
and it can result in increased child support payments. Thank 
you.
    [The prepared statement follows:]

Statement of Gordon L. Berlin, Senior Vice President, Manpower 
Demonstration Research Corporation, New York, New York

    Thank you for the opportunity to appear before you today at 
this hearing on promising approaches to promote responsible 
fatherhood. My name is Gordon Berlin. I am a senior vice 
president at the Manpower Demonstration Research Corporation 
(MDRC). MDRC is a non-profit, non-partisan social policy 
research organization created in the mid-1970s to examine 
programs designed to address some of the nation's most pressing 
social problems. We learned about the needs of fathers from our 
experience in developing and evaluating the Parents' Fair Share 
Program (PFS), a program for low-income noncustodial fathers of 
children growing up in single-parent households.
    Authorized by the Family Support Act of 1988, Parent's Fair 
Share, gave us an opportunity to test the value of employment 
and training services for unemployed fathers who were not 
paying child support for their children who were receiving AFDC 
benefits. PFS is supported by an unusual consortium of public 
and private funders. In exchange for father's current and 
future cooperation with the child support system, a partnership 
of local organizations offered services designed to help 
fathers: (1) find more stable and better-paying jobs; (2) 
assume an important and responsible parental role; and (3) pay 
child support on a consistent basis. PFS's underlying 
assumption is straightforward: when fathers are supported in 
playing an active role in their children's lives, and when 
fathers have gainful employment, they are more likely to pay 
child support on a consistent basis.
    Parent's Fair Share provided a mix of services: employment 
and training to help fathers find and hold jobs; peer 
discussion classes to support and foster responsible parenting; 
and dispute resolution services to resolve conflicts that might 
arise with the custodial parent. To provide an incentive for 
fathers to participate in the program, local child support 
systems agreed to temporarily lower or suspend the child 
support payment obligation. The idea was that once a man found 
a job, his child support order would be restored to an 
appropriate level. In essence, the demonstration tried to 
strike a bargain with low income fathers: if they cooperated 
with the child support system, they would get help in finding a 
job to meet their obligations. The program began in 1992 with a 
pilot phase to refine the model and test its operational 
feasibility, and then became fully operational in seven sites 
during the demonstration phase that followed in 1994. (Dayton, 
OH; Grand Rapids, MI; Jacksonville, FL; Los Angeles, CA; 
Memphis, TN; Springfield, MA; and Trenton, NJ.)
    The research on PFS will not only measure whether the 
program was effective or not, it will also capture information 
about the men and their families. There were over 5,500 men in 
the demonstration. For most of the sample, we are collecting 
quarterly administrative records data that reflects employment 
patterns and child support collections. In addition, we are 
learning about the relationships between the fathers and their 
children (500 men will be asked detailed survey questions) and 
we are learning about the mothers of the father's children 
(2,400 mothers are being interviewed to obtain an independent 
view of changes in fathers' roles). In addition, we conducted 
an in-depth ethnographic study of 50 fathers over a two-year 
period. During this time, the interviewer had several 
conversations with each father to create comprehensive life 
histories.
    Over the next few months, MDRC will be releasing two 
reports: the first--Surviving is Not Enough: Low-Income 
Noncustodial Parents' Perspective on the Ability of the Parents 
Fair Share Program to Change their Lives--relies on the life 
history interviews to tell the fathers' personal stories. The 
second report--Parents' Fair Share: Implementation and Initial 
Impacts--tells two stories: first, it tells the 
``implementation story'' by describing the program, explaining 
how it operated, and identifying these program approaches that 
worked best. Second, it tells the ``early impact'' story which 
explains if the program made a net difference in the low-income 
men's employment and child support payments (i.e., if more men 
had higher earnings and more men paid their child support 
payments than would have done so without the program). These 
impacts are considered ``early'' because they rely solely on 
administrative records; they do not include any of the survey 
data (which is still being processed); they cover only a part 
of the full PFS study group; they provide only a year and a 
half follow-up information; and they do not cover several key 
goals of the program (most importantly, helping fathers become 
more effective and responsible parents).
    My testimony today draws on these forthcoming reports to 
address three issues: 1) Who are these fathers?; 2) What have 
we learned about the role of services in helping them gain 
employment, be better fathers, and pay child support?; and 3) 
What policy issues should the next generation of programs for 
low-income fathers consider? While PFS is arguably the most 
intensive and comprehensive research effort ever undertaken 
about low-income fathers, keep in mind that the men in this 
study are not representative of all low-income men. The 
children of the fathers in this study have received welfare 
benefits, and the fathers have already established paternity 
and have fallen behind in their child support payments. This is 
a group that is seldom included in our national surveys, and 
the policy community, as a whole, knows little about them. For 
policy making purposes, information about this group of parents 
should be used in conjunction with other information about low-
income fathers who are included in national surveys.

                        Who Are The PFS Fathers?

    The fathers in PFS are diverse in terms of race, age, 
living arrangements, and employment experience. They are also a 
significantly disadvantaged group; most of them have lived at 
or near the edge of poverty with little access to public 
assistance or employment programs. Approximately 80 percent of 
the overall study group are African American or Hispanic, but 
there is great variation across the seven sites; for example, a 
fifth of eligibles in Springfield, MA and Grand Rapids, MI are 
white. Nearly two-thirds of the sample have never been married, 
and nearly 70 percent had been arrested on a charge unrelated 
to child support problems after they had turned 16 years of age 
(a non-juvenile offense). Many of the men rely on family and 
friends to make ends meet or for a place to stay. Even though 
the men's average age is 30 years, more than 60 percent live 
with a relative, usually their parents (45 percent).
    In terms of employment history, it is possible to loosely 
divide the PFS population into two distinct groups: one that 
had a recent history of employment (about 47 percent reported 
being employed at some point in the three months prior to 
entering the program), and another group that was characterized 
by repeated spells of unemployment (43 percent earned $500 or 
less in the nine months prior to entering the program; half of 
the sample had not held any job in the three months prior to 
entering the program).
    Even though the first group had a history of employment, it 
was a history of being in relatively low wage jobs. This group 
wanted help finding higher-paying jobs. In contrast, the second 
group had tenuous connections to the mainstream labor market 
and their recent employment histories consisted of lengthy 
spells of unemployment and frequent changes from one low-wage 
job to the next. This group needed help finding stable jobs.
    While the employment goals of PFS were straightforward (the 
program aimed to get fathers employed in better and more stable 
jobs than they had been able to obtain on their own), the 
program and the fathers faced several challenges in meeting 
these goals. The challenges included ``supply-side'' issues 
like high arrest rates and low education levels and ``demand-
side'' challenges like the shrinking labor market demand for 
low-skilled men, especially those living in inner-city areas.
    On the supply-side, nearly 70 percent of the men reported 
being arrested and, not surprisingly, those with criminal 
records had more difficulty with getting hired. Nearly half the 
study group did not have a high school diploma or GED, and only 
2 percent had taken any college courses. The vast majority 
(more than four in five) had no involvement with an education 
or training program in the last year. Not surprisingly, their 
overall employment rate is low too: 47 percent were employed 
during the three months prior to the program --compared to an 
87 percent employment rate for all men and a 78 percent rate 
for Black men between the ages of 20 and 54 (March, 1995.)
    On the demand-side, changes in the labor market exacerbated 
these barriers. Employment prospects for less educated men have 
deteriorated over the last 25 years. Depending on the inflation 
adjustment measure used, between 1973 and 1996, real weekly 
earnings of male high school graduates may have fallen by as 
much as one-fifth, while school dropouts earnings fell by one-
fourth or more. The decline in job prospects has been 
especially severe for young black men; earnings for black 
school dropouts age 20 to 29 are down by a third or more. The 
consequences of these declines for families and for family 
formation are profound. In 1973, the average 25 year-old, high-
school dropout with a full-time job earned enough to support a 
family of three above the poverty line. Today, that is no 
longer true.
    Broad statistical portraits fail to capture the nuances in 
individuals' lives. We were able to capture the experience of 
fifty PFS fathers and the life histories that emerged led us to 
believe that the broad statistical portrait does not exaggerate 
the barriers they face. The life history field research, 
conducted by Dr. Earl Johnson, found that the noncustodial 
parents in this group exhibited substantial job mobility, often 
moving from low-wage job to low-wage job with intermittent 
periods of unemployment. One reason for this instability was 
that many of the jobs they obtained were temporary, as one man 
explained:

          ``.... the times I was working, I never had a job over six 
        months ... I wasn't fired. It was always temporary.''

    And without regular work, fathers seldom felt adequate as 
parents. Many of the men's perceptions of themselves as good 
fathers were tied to their ability to provide for their 
children. As a result, some men voluntarily fell out of contact 
with their children when they lacked money to provide support. 
As one father related:

          ``It's hard when you are trying to be a father, right, and 
        then you turn around saying you're the best father in the world 
        to your kids, which you're trying to be, and then all of a 
        sudden you can't even buy a pack of Pampers, you know.''

    Not surprisingly, these fathers seldom paid what they owed 
in child support. Only 23 percent of the noncustodial parents 
made a child support payment through the child support system 
in the 3 months prior to entering the study. As a result, many 
fathers face staggering child support debts. Nearly one in five 
fathers owed more than $8,000 in child support payments. The 
median amount of arrears for the whole study group was $2,755. 
While a portion of the outstanding arrears amounts may consist 
of reimbursing Medicaid for the costs associated with child 
birth (in some cases, this was retroactively billed to the 
noncustodial parent), the sheer size of some outstanding 
arrears also suggests that the system may be unresponsive to 
the challenges fathers face in meeting their payments when they 
do not have a steady stream of employment; it appears that 
orders are seldom adjusted down when fathers do not have 
earnings.
    Despite not paying formal child support, most fathers had 
regular contact with their children. When questioned about how 
frequently they see their youngest child, nearly half of the 
fathers reported that they had contact with the child once a 
week. While only seven percent of the full sample said they had 
not seen the child in the last year, this varied widely across 
the sites: 28 percent of the men in Trenton and 73 percent of 
the men in Springfield had not seen their child in the last 
year. However, most of the fathers (three-quarters) lived 
within ten miles of their child's residence.
    While the overwhelming majority of fathers were involved in 
the lives of their children and described strong feelings of 
love for them, program staff who worked with the fathers 
reported that many did not fully appreciate or understand a 
father's role. For example, staff noted that many fathers 
defined their role in purely financial terms. Similarly, some 
peer support facilitators who facilitated a discussion on 
parenting found that the time fathers spent with their children 
was often not ``productive.'' Staff attributed these attitudes 
and behaviors, in part, to a lack of positive male parental 
role models--some men simply did not know how to be supportive 
parents, at least not by traditional middle class standards.

    How Did PFS Respond to the Need for Jobs and Parenting Services?

    The consortium of diverse agencies assembled to deliver PFS 
services faced a number of challenges. Employment and training 
organizations had to work with very disadvantaged men who were 
ordered to participate by the courts. Traditionally, these 
organizations are used to working with volunteers. Further 
complicating their task, the program model called on them to 
emphasize on-the-job training, a service which the system had 
sharply curtailed just as PFS was starting up. Finally, 
nonprofit organizations dedicated to helping fathers had to 
commit to the program's child support collection goals, goals 
that could conflict with their mission of helping poor fathers, 
since failure to pay child support or to actively participate 
in PFS could have led to an arrest on a contempt of court bench 
warrant.
    Parenting instruction and support was successfully provided 
through a group peer support model where a facilitator met 
regularly with groups of fathers to discuss parenting issues. 
The facilitator followed a ``Responsible Fatherhood'' 
curriculum that included 18 modules covering such topics as the 
role of fathers in their children's lives, developmentally 
appropriate behavior for children of different ages, rights and 
obligations under the child support system, managing conflict, 
racism, and relationships with significant others. Groups 
generally met two to three times a week, covering a topic each 
week.
    Peer parental support was generally well received by the 
noncustodial parents, providing them an opportunity to relate 
to a peer group in constructive ways, discuss troubling 
personal and societal problems, develop new problem-solving 
skills, and have access to an advocate who believed in their 
potential. In Dayton, the facilitator developed creative new 
ways to encourage parents to become involved with their 
children by, for example, giving participants assignments such 
as ``make dinner for your child'' or ``take your children to 
the park'' and report back to the group on the experience, and 
holding special events such as an Easter egg hunt that involved 
participants' families.
    As reported in the forthcoming ethnographic report, for 
many PFS fathers, what was truly special about peer support was 
that for the first time in a long time they were listened to 
and heard. Two PFS enrollees who participated in MDRC's 
ethnographic interviews reported:

          ``I have a lot to thank for ... because he's instilled in me 
        one thing: I have no fear of sharing anything that has hurt me. 
        There was years and years of me walking around not trusting 
        anybody to talk to about it. Now ... I don't walk around 
        feeling as though I'm going to have an angina attack or I feel 
        as if the top of my head is going to explode from blood 
        pressure because I keep holding all this crap in me. It's got 
        to come out. It helped me to be a better father, to get better 
        perspective on what I'm suppose to do as a father, and I 
        appreciated that.''

          ``I used to avoid my child because when he asked me to buy 
        him Nikes I did not have the money and I could not face the 
        disappointment. But now, I've learned that what my child is 
        most going to remember is the time we went to the park or 
        fishing and talked about things that were concerning him. That 
        has given me a whole new outlook on what it means to be a 
        father.''

    Peer support served as the focal point for the program 
around which all of the other services and activities were 
built. Participation was high--over 60 percent of those 
referred participated, even though the referral was initiated 
from a court order for failure to pay child support, not 
exactly a ``warm'' supportive referral. The sessions proved to 
be powerful and personal. For example, men with daughters had 
an opportunity to ask their peers for advice about how to be a 
father to a girl or young woman; they shared strategies for 
becoming involved with the school as a concerned parent; and 
they advised each other on how to handle issues in the home 
environment provided by the mother of their child, such as drug 
abuse or lax supervision, and they learned together about 
constructive ways to discipline their children. They talked 
openly, and with emotion, about the limited role their own 
fathers had played in their lives, and asked each other what 
their own children might say about them as fathers. In our day-
to-day lives, there are few forums for fathers to learn their 
trade or share their concerns. Our observations of the sessions 
and our discussions with the facilitators and with the men 
themselves revealed that the fathers in PFS found peer support 
to be a valuable and helpful experience. In the coming year, we 
will be analyzing the surveys we conducted with fathers and 
mothers to see if these add more supporting evidence that the 
program did improve the parenting skills of participating 
fathers.
    The additional support that PFS provided through peer 
support is not simply a need of poor fathers. James A. Levine 
and Edward W. Pitt, directors of The Fatherhood Project, note 
in their book, ``New Expectations: Community Strategies for 
Responsible Fatherhood,'' that many institutions may 
systematically, albeit usually unknowingly, fail to include 
fathers in their programmatic activities. For example, Head 
Start centers are designed to engage mothers, but not fathers. 
And school teachers tend to look to mothers when they call to 
discuss a child's school performance. Many other examples 
abound, examples we often don't see until we look for them.
    Getting fathers more and better jobs than they could have 
gotten on their own proved difficult; new models and approaches 
are needed. The design of PFS assumed that for the program to 
have a substantial impact on parents' employment and earnings, 
sites would have to offer an array of short-term skills 
training and on-the-job training to help participants obtain 
higher-wage or longer-lasting jobs, and job club/job search 
services to help those with only limited labor market 
attachment find employment. In practice, there was a tension 
between the program's interest in encouraging noncustodial 
parents to take the time to invest in skill-building 
activities, and the realization they could not afford to be out 
of the labor market for a long time. In most sites, these 
pressures led to an emphasis on getting parents into jobs 
quickly. But for the most part, fathers seemed to get jobs at 
about the same rate and of the same type as they had gotten in 
the past. Thus, for this early sample, and with about 6 months 
of follow-up for the full sample, the program does not seem to 
be increasing program eligibles' earnings, although two sites 
did appear to modestly increase employment rates for a brief 
period of time. Two sites made job development an integral part 
of their program, and as a result were able to emphasize 
getting participants better jobs than they had been able to 
find on their own, although the long run payoff was unclear.
    Participation was relatively high, although not 
particularly long or intense when measured by hours of 
participation. Seventy percent of those parents referred to PFS 
participated in at least one PFS activity, usually parenting 
instruction and/or job club. Behind this average was 
substantial site variation related to differences in intake 
methods, service offerings, and the way in which referral back 
to child support enforcement was used. Participation rates 
varied from a high of 82 percent in Los Angeles to a low of 
around 60 percent in Memphis. Rates appear to be higher when: 
(1) the intake process produced parents who were motivated to 
participate in the program; (2) labor market opportunities for 
those referred to the program were weaker (because of high 
unemployment or substantial barriers to employment); and (3) 
when PFS activities started promptly after referral and 
participation was closely monitored. The shift from an emphasis 
on skill-building activities to job club/job search resulted in 
a decline in the expected average length of program 
participation. Parents who participated in PFS were active in 
some service for an average of approximately five months.
    Despite the absence of employment and earnings impacts 
during this early follow-up period, PFS did lead to increases 
in child support payments. At this time, we do not know whether 
the increases were simply the result of more fathers paying 
child support through the official child support system, rather 
than paying it directly to the mothers of their children or if 
the increases were the result of fathers who had not previously 
paid support beginning to do so. If this represents a true net 
increase in support paid, it could be because PFS' parenting 
program helped fathers to understand the importance of paying 
child support, or it may be because the program's intake and 
enforcement processes discovered fathers with earnings and 
income that were missed by the official systems monitored by 
child support agencies.

                         Policy Recommendations

    When these two PFS reports on the lives of fathers and the 
lessons learned about program effectiveness are published at 
the end of the summer, an important body of knowledge will be 
available about delivering services for very disadvantaged 
noncustodial parents. While the story will not be complete--
additional reports will follow in about a year--it does suggest 
several lessons for future programming.
    First, there is a tremendous need for services to help low-
income fathers learn about and be supported in the active roles 
they already play as fathers. While the research literature on 
the value of the contribution noncustodial parents make in the 
lives of their children is mixed, our own personal experiences 
as fathers suggest that fathers matter to their children. Yet, 
parenting is a humbling, imperfect, trial and error experience 
for us all. Most of us in this room have more resources to draw 
upon in learning how to play that role--our own fathers, 
relatives, and well-baby care that often brings ongoing advice 
from the family doctor, to name a few. Low-income noncustodial 
parents could benefit from supports that helped to fill these 
gaps when they exist.
    Second, while the PFS experience indicates that it is 
possible to build the agency partnerships required to deliver 
services to this population, it takes considerable ongoing 
work, and even with support, PFS sites fell short of its goals. 
Moreover, fathers interviewed in the life history study 
provided many examples where they thought the program had not 
delivered on its promises of better jobs or a more responsive 
child support system. These criticisms suggest that technical 
assistance and adequate funding will be necessary for new 
programs to succeed.
    Third, more work is needed to develop employment and 
training services that would increase low-income fathers' 
employment and earnings. A lack of fit between the employment 
and training services emphasized in the sites and the needs of 
a substantial portion of the PFS parents contributed to the 
program's lack of overall impacts on employment and earnings. 
Because the PFS sample was largely men who had worked--with 
varying degrees of regularity--at low-paying jobs, the 
challenge for the program was to help them find better jobs. 
The employment and training system does not have a lot of 
experience in successfully obtaining these kinds of jobs. There 
were signs of a modest trend toward positive impacts in two 
sites, Los Angeles and Memphis; these sites emphasized skill-
building activities in conjunction with work. In retrospect, 
that combined approach may have been better suited to boost 
earnings. Suggested new approaches that might better meet the 
needs of these fathers include:
    <bullet> Developing new ways to combine work and skill-
building. Doing so, may help these men secure incremental wage 
increases which could raise their incomes over time.
    <bullet> Developing temporary community service jobs. 
While, on average, the fathers in Parent's Fair Share had some 
work experience, about a third of them had little or no work 
experience at all. In some inner-city areas, unemployment rates 
remain persistently high, suggesting that some men simply did 
not have the opportunity to gain valuable work experience.
    <bullet> Finally, as part of a longer-term strategy, 
provide job-retention services to help low-income men hold the 
jobs they get.
    Fourth, in the final analysis, our society still defines 
the fathers' role as provider. But when the men served in this 
program were working, they seldom had enough income left over 
after meeting their own basic needs to contribute to the needs 
of their children. As a result, they often feel the system is 
stacked against them. Consideration should be given to two 
possible responses:
    <bullet> Child support systems need to be more responsive 
to the noncustodial parent's economic position when it sets 
orders, and it needs to respond when earnings change. To avoid 
saddling poor fathers with debts that they will never be able 
to pay, initial orders should reflect current earnings, and 
when paternity is established near the time of birth, arrears 
should not be charged. Most states expect fathers to pay about 
30 percent of their gross income in child support, which is a 
substantially higher share of their net income than it is for 
high income parents. Rationalization of orders by income and 
greater uniformity across states could help.
    <bullet> To treat fathers who do the right thing equitably, 
we should treat them in the same manner as mothers; thus, 
noncustodial parents who work and pay child support should be 
made eligible for the Earned Income Tax Credit (EITC), now 
available primarily for custodial parents who are working. To 
avoid family-splitting incentives, the EITC could be split 
between the two noncustodial parents, if both are working, or 
one could claim the entire credit, when only one is working, or 
fathers could be limited only to any unused credit amount. This 
will be complicated to implement, but we need public policies 
that line up better with our values.
    Finally, I want to conclude with the words of one of the 
fathers who participated in the PFS program:

          ``The opportunity to change, turn my life around through 
        education and the motivation to make a real impact in my son's 
        life for the better, it's just made all the difference in my 
        life, and I believe in [my son's] life too. We have our hard 
        times, but I think we get along better. We understand each 
        other a little bit more--a lot more, and Parents' Fair Share 
        was--if it weren't--I don't know what it would have taken to 
        improve our relationship that much if there wasn't a forum and 
        a guiding hand and all of that. We've spent probably more time 
        together since Parents' Fair Share than we did all the time 
        before.''

    Being a good father is difficult for us all. Being poor and 
unemployed makes parenting even harder. Developmentally and 
financially, all children need fathers involved in their lives. 
The PFS experience demonstrates that it is possible to provide 
valuable services, particularly around parenting. We have much 
to learn, however, about effective employment and training 
services for low-income fathers. But there is a strong case for 
trying new approaches: no group has been hit harder by the two 
decades long secular decline in earnings for those with low 
skills. And an important part of the nation's children depend 
on them.
    Thank you for this opportunity to preview lessons about 
working with low-income fathers from the PFS project.
      

                                <F-dash>

    Chairman Shaw. Thank you, Dr. Berlin.
    Mr. Levin, do you want to be recognized for a unanimous 
consent request?
    Mr. Levin. Yes, Mr. Chairman. I would like to submit for 
the record a summary of some of the initiatives the Department 
of HHS has undertaken to help fathers support their children, 
including the recent effort to improve outreach to fathers in 
the early Head Start Program.
    Chairman Shaw. Without objection.
    [The information follows:]

        Department of Health and Human Services Accomplishments

          Fatherhood and Changes to the Welfare System Hearing

    <bullet> In response to the President's directive in 1995 
that all federal agencies strengthen the roles of fathers in 
families, HHS established an intra-departmental Fathers' Work 
Group. Deputy Secretary Kevin Thurm serves as Chair of this 
work group.
    <bullet> In October 1997, HHS awarded $1.5 million in 
demonstration grants to states for projects to improve child 
support enforcement (CSE), including collaboration among CSE, 
Head Start and Child Care programs and programs to provide 
special services to low income non-custodial fathers. A 
management information system is being developed for the 
fatherhood programs and evaluations to assess the 
implementation of the demonstration projects will be conducted 
during the next 12 months.
    <bullet> HHS awarded $10 million in block grant funds in 
October 1997 and will award a similar amount in FY 1998 to all 
50 states, DC and territories to promote access and visitation 
of children by their non-custodial parents. This program was 
proposed by President Clinton in his 1993 welfare reform 
proposal and authorized in PRWORA.
    <bullet> HHS has incorporated boys and young men into 
National Strategy to Prevent Teenage Pregnancy by funding 
demonstration programs through the Title X Family Planning 
Program and other efforts.
    <bullet> In 1997, HHS added a new component to the Early 
Head Start Research and Evaluation Project, the Fathers Studies 
Project, which examines the role of fathers in early childhood 
development and how program interventions can strengthen and 
improve father involvement. This project is being funded by the 
Head Start Bureau, the National Institute for Child Health and 
Human Development, the Office of the Assistant Secretary for 
Planning and Evaluation, and the Ford Foundation.
    <bullet> Since 1993, HHS has supported the evaluation of 
Parents' Fair Share, a demonstration project for low income 
fathers who owe child support but are not paying it. HHS, 
Labor, Agriculture, Pew Charitable Trusts, the Ford Foundation, 
and AT&T have invested more than $10 million in the 
demonstration.
    <bullet> HHS, under the leadership of the Federal 
Interagency Forum on Child and Family Statistics, has completed 
a multi-year collaborative project to review the state of 
research on fathers. The Forum has just issued a report that 
contains the results of this review and recommendations for how 
government research in this area can be improved. The Report 
``Nurturing Fatherhood: Improving Data and Research on Male 
Fertility, Family Formation and Fatherhood'' is available on 
the Internet at http://aspe.os.dhhs.gov/fathers/fhoodini/htm.
    <bullet> Presently, HHS is taking a more systematic and 
thorough approach to incorporating fathers' involvement in our 
programs and research. We are working to remove barriers within 
and across agencies, to promote positive partnerships, and to 
increase the visibility of fatherhood issues with the public 
and media.
      

                                <F-dash>

    Mr. Levin. I am going to leave, Mr. Chairman. I thank you 
for this hearing. I think this panel indicates how broad based 
this effort needs to be.
    I just may say to Mr. Ballard, you say in your testimony 
that you believe to restore the fabric and fiber of American 
communities, we must revive the nucleus of the family, the 
father. I assume you mean the father and the mother?
    Mr. Ballard. Well, in many communities fathers are seen as 
the lead person, the priest of the household, the one everyone 
looks to when there needs to be authority and guidelines. We 
just brought this to the forefront. It is something that women 
accept, not as so-called browbeaters or head of the household, 
so to speak, but men who are serving heads. We promote in our 
program that men must first serve their wives and their 
children, then he becomes a head.
    Mr. Levin. I would hope we could come together even if 
there are differences about that. I hope that doesn't keep us 
from attacking this problem.
    Mr. Camp. It didn't sound like a difference to me.
    Chairman Shaw. I can say that it gives us all something to 
strive for.
    Mr. Levin. I think my wife feels we are both the nucleus.
    Mr. Ballard. Well, see, in any corporation, and the family 
is the same way, there has to be a final decision made. 
Sometimes the two people may not agree. Someone has to make the 
final decision. In many cases, that is the father. I don't 
think we need to really get caught up on this issue because 
right now they are not at home in the first place. We have to 
get them back. But I wanted to show you that what we model in 
our program, we actually move back into the community and we 
model the responsible fatherhood piece.
    The women are held as equal partners in the relationship. 
But again, the final decision has to be made by someone. In 
fact, if we see mothers and fathers as unisex, then kids become 
confused. There is difference in both roles or both parents. 
When as distinctly seen by children, they grow up in a healthy 
way.
    Chairman Shaw. I would like to add to that. That is an 
interesting observation. I don't think I have the sensitivity 
to have picked up on it, but it is interesting that you did. I 
think what we are trying to accomplish is to bring the father 
back from a position of irrelevancy. You have got to have 
goals. I think that one of the first things that you learn, and 
I know, Mr. Ballard, that you worked very hard on this, as does 
Mr. Jones and other programs such as yours, you have got to 
first talk about self-esteem. These guys are worthless when 
they come in and they feel worthless. They are irrelevant to 
their family. They are not the fathers. They don't have any 
goals in life. It is just a completely drifting back and forth. 
You first have got to teach them they are somebody.
    I really like that thing, if it is going to be, it has got 
to be me. I think bringing that in, and if it's a--I don't 
think any of us are going to get bogged down as to who is going 
to be the head of the family or whether it's going to be shared 
power, but I think that we all need goals and the goal has to 
be at least to be part of that nucleus. I think that is 
something that all of us are going to have to work on.
    Mr. Camp.
    Mr. Camp. Thank you, Mr. Chairman. I haven't been here all 
that long, but as we debated welfare reform--first, I want to 
thank all of you for coming and taking the time to testify.
    But as we debated welfare reform, we had a goal. That goal 
was that able-bodied people work. There were many people who 
testified before this Subcommittee and fought that tooth and 
nail and said you will destroy the system. You will only impact 
the rolls between 1 and 3 percent. We have seen in some parts 
of the country welfare rolls declining up to 40 percent. We 
have seen very positive change. Now we have seen the studies 
come back that the people that have left welfare have actually 
gone to work, the University of Oregon and others, that I know 
all of you are aware of.
    The ideal or goal that marriage be promoted I think is 
something that is critical because it is going to set a 
standard. Clearly from the testimony we have heard, we are not 
there yet in many communities. Some are further along. But it 
isn't something that is going to happen tomorrow. But if you 
don't set that lofty goal, which may seem unattainable now, and 
may even seem counterproductive, as the work requirement we 
were told was counterproductive. But clearly that has not been 
the case. I just want to say I think that is something that we 
have got to do.
    Then just last, Dr. Primus, I just want to make a point 
that your testimony, what we have tried to do is talk about 
support after welfare as well. Clearly, under our changes 
families are getting more money after welfare reform, after 
they move off welfare in terms of the child support than they 
were getting under the old system. What we want to do is not 
look at a model that rewards the dependents, but continues to 
make sure that more of those child support dollars actually 
improve the life of that family after welfare. I think you 
would agree that is the case now under the current law.
    But I think this has been a very good discussion. I look 
forward to working with all of you as we continue to move on 
this legislation. Mr. Ballard, I would just say I think the 
idea of servant leadership is a very good one. I appreciate 
your bringing that forward. Thank you.
    Mr. Ballard. Thank you. I would like to just make a 
comment. Joe Jones from Baltimore indicated that there are few 
marriage models in the central city. We can't preach marriage. 
We have more churches today than ever before and the problems 
are worse. Religion itself is not the answer. There has to be a 
deeper sense of spirituality, a respect for self and community 
and family.
    What this agency does, it takes young couples who have been 
trained by us and we move them back into the community. They 
buy homes so they are a seed in the community, what we call 
human antibiotics, to not only turn the problems around, but to 
increase viability for those communities. I think that marriage 
must become the cornerstone of America again. Unless it does, 
all the money in the world would not get us any place. I think 
the Subcommittee is right on target. That is why I support the 
bill. I could not support it if marriage was not a linchpin of 
it because we not only support it in terms of a precept, but 
our examples of moving to the worst communities in America, 
southeast and so on, I think testifies to that.
    Mr. Camp. Thank you.
    Mr. Mincy. Seventy percent of African-American children 
today are born out of wedlock. Forty percent of Hispanic 
children are born out of wedlock. My question to the 
Subcommittee has long been how do you promote marriage in a 
context in which most children are born after the fact? The 
response I have is not one that says that marriage is not an 
ideal, but it deals with what the practitioner and what the 
families in those communities deal with on a day-to-day basis, 
and asking very pragmatic questions about what the on-ramp to 
family formation is in these communities. I don't want to be 
misunderstood.
    Also, as Joe Jones commented, we are encouraging the whole 
field, not just individual programs, to learn about the 
practice of team parenting, to teach couples how to have a 
dialog, how to manage difficulties and conflicts. Those are the 
cornerstones of what marriage is about. But the devil is going 
to be in the details of this bill. When you, if you put 
allocation mechanisms in the bill that reward programs that 
tell you that they are going to be promoting marriage, my 
experience and my sense of the field is that you will skew that 
funding, you will skew what is happening in communities in ways 
that do not build upon the work that is taking place in the 
field over the last 20 years.
    I think we can get there, but I think pragmatically we have 
to be very careful.
    Mr. Camp. I appreciate your comment that we can get there, 
because I think that is where we need to go. Clearly, Mr. Jones 
is developing that kind of program on his own. So, he knows. I 
don't know, but he seems to think that there is a way to begin 
that. Realizing that is very far down the road for some people. 
I am not saying that you are going to see instantaneous results 
there. These are very long-term efforts. But I think the ideal 
is critical. I think we have agreement on that. I appreciate 
that and thank you.
    Chairman Shaw. Wendell is chafing at the bit over there. 
[Laughter.]
    Mr. Camp. He's been here before. We better let him talk.
    Mr. Primus. Just a couple of responses to what you said, 
Congressman Camp. One is I think most of us never had a problem 
with the work. I think there was unanimous agreement that work 
was important.
    Mr. Camp. Not right away. It took a while to get there. We 
all got there, that's true. We eventually linked arms and 
jumped over that vine.
    Mr. Primus. The issue was time limits and block grants. The 
issue was never work, I would submit. I guess even having 
recognized the importance of work, I think we in this society 
have to recognize that there are going to be some parents, both 
custodial and noncustodial, that aren't going to be able to 
earn enough in our free market society. They may not have the 
God-given gifts to earn a livable wage. In those situations, we 
are going to have to look for government assistance to help 
them.
    But the key I think, and most States have now recognized 
this in terms of earnings disregards and EITC, that as 
government--when mothers earn, we don't reduce government 
assistance dollar for dollar. I guess when I look at that chart 
and see the 100-percent tax rates, why should those fathers 
pay? I think we need the regulation. They ought to pay, but 
they also--it needs to be reinforced by a set of economic 
incentives.
    Even if they are off of welfare, and I accept the goal of 
trying to reduce welfare by getting families into the work 
place, why not subsidize. I mean if the mother can't use up all 
of the tax credits that she is entitled to, why not give them 
over to the father to incentivize his child support payments 
and then add to his check as we transmit it to the mother.
    I guess I am a little--my final point, I think it's a 
little too early to call welfare reform a success yet. I mean--
--
    Chairman Shaw. You are still waiting on the recession. 
[Laughter.]
    Mr. Primus. No. I'm not waiting on the recession. I am 
waiting on to see whether or not we have really improved child 
well-being. I think you and I would both agree that's what we 
are all about. My understanding of some of the people that are 
leaving the rolls is only about 50 percent have earnings, not 
all. I think the jury is still out.
    But one of the things about welfare reform, it has enabled 
at the local level us to have this discussion. Some of the 
funding that you have provided, TANF and welfare to work, can 
actually be used today to start and seed some of the vision you 
have in the Fathers Count bill.
    Mr. Camp. I would just say, and I appreciate those 
comments, it took 40 years to get the work requirement. I am 
not sure there was agreement from the very beginning on that. 
It took a long time and it took a change in parties and 
majority to do that.
    We have been at this a few short years, so there is no one 
saying that the world is fixed. But clearly the dire 
predictions that were made about what welfare reform would do 
have not come true. In contrast, it has been the other way. The 
number of people working have exceeded even the predictions, 
the positive effects at least initially. A lot of that is 
partly a result of a strong economy. Let's hope that recession 
doesn't come very soon because clearly we'll have a lot of 
strain and problems as we always do and as we did under the old 
system. That wasn't necessarily a perfect system in a recession 
either.
    But I think the idea is true. How do we improve the lives 
of families and particularly the lives of children in those 
families. I look forward to working with you on that.
    Mr. Primus. Just one final comment. I said in testimony 
that just as we tried to transfer welfare offices, I think 
that's what has got to go on with child support. I guess I 
firmly believe, and some of my friends say well, the child 
support offices aren't even doing a good enough job collecting 
child support, how can they take on anything more. But a lot of 
the reason, as you stated, is they don't have a job. We need to 
help them get that job and earn higher wages, help them be a 
better dad. The child support office by linking I think, I mean 
you may have thought I was a detractor or critic of welfare 
reform. I am now saying that is exactly what has to happen to 
the child support office, which is a very critical part here in 
the fathers' lives.
    Chairman Shaw. Before we put this one to rest, and I think 
it is a very small part of this particular hearing, but you 
have brought us something with regard to child support that we 
should take a close look at. I assure you we will.
    Mr. Collins.
    Mr. Collins. Just briefly, Mr. Chairman. You know there is 
an old saying, a hit dog hollers.
    Chairman Shaw. Say that again.
    Mr. Collins. A hit dog hollers. [Laughter.]
    Mr. Camp, you were right. The intent of the welfare reform 
bill was to encourage work and promote people to work and get 
off of welfare rolls. I understand there were even a few people 
who quit their jobs because the welfare reform bill was signed. 
I don't know who those people were or who any one particular 
person was.
    Chairman Shaw. They are not in here.
    Mr. Collins. I think it was that dog we heard from a while 
ago.
    Mr. Ballard, it was very interesting to listen to your 
analysis of how a lot of this came about in a lot of our cities 
and communities where people just kind of moved from 
communities, and a lot of activities began to take place in 
those communities. You said that the churches alone can't do 
this. I am not convinced the churches alone can do it either. 
But I do think that all of our youngsters, and we know this, 
all of our youngsters at some time or another are exposed to 
education. We as a government prohibit even the hanging of the 
10 most sensible laws that were ever scribed. We prohibit those 
from being within any public building. I think that is where 
the Federal Government is obstructing the opportunity to 
promote just good morals, as you spoke of, in conjunction with 
our churches.
    We appreciate each of you being here. Mr. Primus, we look 
forward to your return. It is always interesting to listen to 
your comments.
    Mr. Primus. Thank you.
    Mr. Collins. We're all in high hopes that everything that 
we have done will work as it was intended to. But we all know 
that we're all human, and that's the reason that the Chairman 
continues to hold these types of hearings and promote different 
ideas of how to deal with a situation that is going to take a 
long time to change and go back to where we were 30, 40, 50 
years ago with community and families.
    It is interesting too to hear you state that this could be 
funded with existing funds, with existing programs, meaning 
that there would not be an additional cost, but just with the 
discretionary provisions that we put in for the States, that 
they could take some of those funds and use them for this type 
of purpose and to help promote fatherhood and family. 
Hopefully, the Federal Government will not step in and try to 
challenge any portion of this idea of Chairman Shaw's that 
would promote, allow religious faith-based organizations to 
participate.
    Mr. Mincy, do you want to say something?
    Mr. Mincy. Yes. Mr. Collins, not only is this a 
hypothetical, but it is occurring. You heard Mr. Jones' comment 
about the Partners for Fragile Families project in which the 
Office of Child Support Enforcement and the Ford Foundation and 
the Mott Foundation are working together in now 13 communities 
around the country where they are using existing funding and 
finding more creative ways of using child support funds to 
support fathers engagement with their children, to support team 
parenting, to support employment and training services for 
fathers, and to help you get to your goal, which was to 
increase paternity establishment rates, to increase work, and 
to encourage the formation and maintenance of two-parent 
families.
    I think one of the issues is that as we sort of observe how 
this project is working out on the ground, there is a lot of 
uncertainty at the State level as to whether or not they indeed 
can take advantage of the flexibility that the Congress has 
provided. I think over the next 3 years that this project will 
be running, it will be a very important laboratory of how, with 
existing funds, we can restructure the set of incentives and 
penalties in relationships across agencies in ways that do get 
to your goal, which is to encourage the formation and 
maintenance of two-parent families within a revised structure 
with existing funds.
    Mr. Ballard. Mr. Collins, Dr. Mincy in his opening comments 
quoted Malachi 4, verse 5 and 6 which is a cornerstone in our 
agency. We believe that a man's heart when it is changed by 
God, he will find his own job. He will go into his own 
education and become a good man.
    I was in prison 30 years ago and was very violent, hadn't 
finished high school. I was honorably discharged. My heart was 
converted to Christ in prison. I came out of prison. I have a 
son who is 5 years old. I adopted him in 1959. Jobs were hard 
to get. But I took the worst kind of jobs because my heart was 
different. It was changed by the power of God. There's a 
difference I think in God and church, one is an organization 
and one is a person. I subscribe that if a man has God in his 
heart, at the seam of his life, you don't have to tell him to 
get married. He will see fit to get married, as I have done.
    I guess what I am saying is that I am taking the model in 
my life and over 5,000 fathers, at which 20 percent of those 
fathers have gotten married because of our example. If a 
government insists on a father being out of the home, and we 
see what has happened because of that, but over the past 40 
years, we need a different thinking to reverse that. That same 
thinking that pushed them out of the homes cannot be the thing 
we use to bring them back.
    I think what Chairman Shaw is suggesting here is a whole 
different thinking about the family, which means that we must 
bring marriage to the forefront as loving, compassionate, 
secure environment for kids to be raised in. When we do that, I 
think America becomes safe for all of us.
    Mr. Horn. Mr. Chairman, if I may add one thing here. I 
would hope that this Subcommittee would not interpret Mr. 
Mincy's comments to indicate that there is unanimity of opinion 
here that one does not need this legislation because one could 
do this with existing funds. If that is Mr. Mincy's opinion, 
please, I hope this Subcommittee understands it is only his 
opinion.
    I think that this legislation is very important, regardless 
of whether or not there is flexibility with existing funds 
within the TANF block grant, because it sends a very important 
signal that a priority of this Congress is to include fathers, 
not just as an afterthought, but to include them as central to 
what we are trying to do to rebuild America. And that we need 
to promote marriage as well.
    If Mr. Mincy meant to indicate that we don't need this 
legislation, I just want to let you know I think we need it 
quite dramatically.
    Chairman Shaw. No. I didn't interpret it that way.
    Let me just conclude by a little bit of a summation about 
what I have observed today and what has happened. I think we 
have had a very, very good hearing. We all want to go the same 
direction. We think different roads are going to get us there 
and all of the roads are not going to get us there. I feel very 
strongly that just as we felt in welfare reform that belief in 
the human spirit was very important. We believe in the human 
spirit and we are being proven right. I am sure that many will 
say with the help of a strong economy. But in any event, it is 
working. Our faith has not been misplaced.
    I think the same is true as far as these fathers are 
concerned. We can look in the history and we can see a lot of 
things that have gone wrong. But we know exactly where the 
results are. The results are that we have seen a disintegration 
of the family. We also know statistically, and all of us would 
agree statistically that with the disintegration of the family 
that we have seen, that the kids are the ones who have really 
suffered.
    Having raised four kids myself, I know how strong they can 
be, particularly when they get into adolescence. I don't see 
how these moms can do it alone. I can readily see that a one-
parent family is going to have big, big problems raising their 
kids. I don't care what color they are, I don't care what 
economic stratum they are in. There is going to be a problem, 
that is statistically proven. That means we have got to do 
something, everything we can to encourage marriage and not 
discourage it, whether we are talking about the Tax Code or 
whether we are talking about legislation such as this.
    Dr. Mincy, you have mentioned that this should not 
necessarily be a goal of the legislation. However, and I don't 
think I misinterpreted you. Perhaps I am using some type of a 
license that doesn't clearly point out exactly where you are. 
But there is one thing that has come through very clearly in 
this hearing, and it's come all the way through, is that if we 
make these guys marriageable, women will want to marry them and 
they will get married. Whether we put it in the legislation or 
not, it is going to happen if we are successful in what we are 
doing.
    Mr. Ballard, I have seen some of the accomplishments that 
you have had out at the housing project here in the District of 
Columbia, where you have brought these young people in. I 
remember the testimony that they gave to us when we were 
unveiling this legislation as to how these things will 
definitely work. We need to not only have faith in the human 
spirit, but we also have to let people know that we have faith 
in them. We have to raise that bar of expectation. That bar of 
expectation that went all the way down to the ground with some 
of these people because we expect nothing from them as we see 
them on the street corners. That is wrong. We have got to help 
them get their self-esteem up and their self-worth so that they 
feel that they are worth something.
    Dr. Horn, I heard you express on a television program that 
you and I were on together, which has yet to be aired, however 
you expressed something which I hadn't thought anything about, 
I never noticed before. But since you have said it I have given 
it a great deal of thought. I have also noticed it in watching, 
particularly in these situation comedies. It is always the male 
who is the boob. He is the dummy. Particularly when you look at 
your African-American family situation comedies. This guy is 
just a guy who if it weren't for the women making him feel that 
he did the right thing or something, he would be absolutely a 
disaster.
    You even brought up ``Home Improvement.'' You see that. You 
can see the guy is constantly the dummy in the whole situation. 
I think when we talk about bringing the man back to the 
nucleus, whether he is the nucleus or shares the nucleus, it is 
very important that the male's self-worth as a member of the 
family and his self-esteem as an important part of that family 
has got to be emphasized. It's got to be emphasized.
    I am not getting into an equal rights situation. Believe 
me, I know better than to get into that thing. I don't do that 
at home either. But I think that he has to feel that he's vital 
to the family image. If he doesn't, he is going to hang out on 
the corners and he is not going to rise beyond our expectation 
of him.
    This has been a great hearing. I think we have had some 
great insight here and learned quite a bit. I would like to see 
this legislation move ahead. I will be filing it again. I think 
the calendar is very much against us now, but we will hope that 
in the next Congress this will become law.
    Yes, Mr. Collins.
    Mr. Collins. Mr. Chairman, I just wanted to comment to Mr. 
Ballard that sir, I make the final decision in our household. 
It's ``Yes, ma'am,'' or ``No, ma'am.'' [Laughter.]
    Chairman Shaw. The hearing is adjourned.
    [Whereupon, at 1:22 p.m., the hearing was adjourned, 
subject to the call of the Chair.]
    [Submissions for the record follow:]

Statement of Catholic Charities/North, Lynn, Massachusetts

    Catholic Charities/North, a community service site of 
Catholic Charities of the Archdiocese of Boston, Inc., wishes 
to include the following program description in the proceedings 
of the hearing on Fatherhood and Welfare Reform. We believe 
that we have developed an effective program to meet the 
challenges of this population. It is clear that national 
attention must be drawn to such services. A recent PBS 
documentary ``Fatherhood USA'' featured our program and others 
like it which are attempting to make a difference in the lives 
of these young men. We are grateful for such interest and are 
willing to assist in this effort in any way.

                          Project Description

    Catholic Charities/North is seeking support in sustaining 
and expanding the Young Fathers Program. Americans have come to 
recognize that fathers' involvement in the development of their 
children is extremely important. Nearly 25% of our children, or 
more than 19 million, live in families with no father. The long 
term effects of this trend are very sobering: diminished 
opportunity for learning how to be a partner in a stable two 
parent family, economic loss, fewer educational opportunities, 
and increasingly limited access to employment. family 
adequately. Research also demonstrates that girls from single 
parent families have a threefold greater risk of bearing 
children as unwed teenagers. Catholic Charities has recognized 
the vital importance of services to young fathers, many of whom 
would otherwise be caught up in a web of criminal activity, 
domestic violence, and economic disarray. We are very clear 
that, if we are serious about creating a safe place in which to 
raise a child, we have to make a father's contribution to his 
child, both in terms of finances and parental nurturing, an 
absolute priority.
    The target population of the Young Fathers Program is men 
who have become fathers, often unintentionally, who are 
undereducated, underemployed, and living in disadvantaged 
neighborhoods. Referrals have been made through other Catholic 
Charities' programs which primarily serve young mothers and 
their children. Fathers are identified, and aggressive outreach 
efforts are made to engage them in services. Specific programs 
generating referrals are: Second Chance School for pregnant 
teens, co-sponsored by the Lynn School Department; the Amity 
Transitional Housing Program for young mothers, partially 
supported by the Lynn Housing Authority and a past recipient of 
Block Grant funds; the Educational and Parenting Skills Center, 
a GED program primarily serving young mothers; and the Young 
Parents Outreach program, supported by the Department of Social 
Services. Strong relationships have been developed with many 
other agencies including the departments of Probation and 
Social Services and other individual providers.
    In the past year, 38 fathers, primarily under the age of 
25, have been assisted directly in stabilizing their lives. 
Many more have contacted our agency and have been exposed to 
the principles upon which the program in based. A majority of 
those helped directly have been able to sustain employment, 
with few cases of criminal recidivism.. We have seen tremendous 
improvement in the living conditions of these young fathers and 
in their abilities to demonstrate appropriate parenting and 
relationship skills.
    The program, currently staffed only by a half-time outreach 
social worker, contains two vital elements. First is the weekly 
Fatherhood group during which the young men are taught the 
basics of being responsible fathers in an atmosphere of 
positive encouragement. The focus is on five specific 
principles:
    1. As a father, it is my responsibility to give affection 
for my children.
    2. As a father, it is my responsibility to give gentle 
guidance to my children.
    3. As a father, it is my responsibility to give financial 
support to my children and to the mother of my children.
    4. As a father, it is my responsibility to demonstrate 
respect at all times to the mother of my children.
    5. As a father, it is my responsibility to set a proud 
example by living within the law without the taint of drug or 
alcohol abuse.
    The Fatherhood group provides weekly speakers who 
underscore specific principles and assist the men in learning 
how to incorporate these principles into their lives.
    The second element of the program is the outreach and 
support of the social worker. By going ``where they are,'' he 
provides a mentoring relationship for these men who have never 
known a positive relationship with their own fathers. The 
social worker encourages, leads, and connects young fathers to 
employment, education, and other necessary resources. He is 
there for them in crisis situations and provides a father's 
perspective regarding issues of child development, behavior 
management, and relationship concerns.
    In the past year, the Young Fathers Program has been 
recognized in many arenas as a model for reaching this 
difficult population. The graduate School of Social Work at 
Boston College has utilized this as a placement site for their 
interns and, we hope they will continue to do so in the future. 
The Program Director is currently a member of a taskforce of 
the Governor's Commission on Father Absence and Family Support. 
Program staff have been asked to speak at national conferences 
in Massachusetts, Rhode Island, Arizona, and Washington DC on 
building community partnerships to address the national problem 
of fragile families and father involvement.

                           Project Objectives

    1. To contact young men who have become, or are about to 
become, fathers to encourage them to become responsibly 
involved in the lives of their children.
    2. To teach young fathers the necessary skills for 
responsible parenting and respectful, committed relationships 
with the mothers of their children.
    3. To increase opportunities for young fathers to become 
sufficiently employed in order to provide basic necessities for 
their children.
    4. To assist young fathers to end their involvement with 
the legal system, thus making them more able to be employed and 
to support their children.
    5. To develop a network of supports that will empower young 
fathers to become active, contributing members of this 
community.

                      Anticipated Accomplishments

    Children growing up without the positive support of a 
father are more likely to live in poverty. Boys who grow up 
without a father are more likely to be involved in criminal 
activity and become incarcerated. The elimination of these 
factors is the long-term goal of the Young Fathers Program. In 
the short term, through the continued development of 
comprehensive services, young men will have the opportunity to 
increase their confidence, motivation, and productivity. Young 
mothers will be able to increase their sense of safety and 
security as they get realistic support from their children's 
fathers. Young fathers will take an active role in providing 
safe, affordable housing for their children, as well as 
encouraging them to improve their own lives. With a decrease in 
unemployment and criminal activity for this population, it is 
clear that resources can be utilized in other ways to build a 
stronger community.

                           Expansion Proposal

    Catholic Charities/North is hoping to expand services in 
this important initiative. To insure the quality of services 
and to reach a greater number of young families, we are hoping 
to increase the outreach and social work staffing. We believe a 
``team approach'' is extremely effective in outreaching to and 
supporting these young men.
    The outreach worker and social worker are the heart and 
soul of the program. These individuals will provide resource 
development, encouragement, and mentoring. They know what is 
possible and what is available to help young fathers meet their 
individual goals. The program director provides supervision and 
support, as well as assists in networking with other community 
agencies serving these families.

                            Program Benefit

    The Young Fathers Program is providing a necessary services 
to a very ``hard-to-reach'' population. Since its inception, 
the program has served nearly 100 men, including 38 in the past 
year. Many other young men have been exposed to the principles 
of being a responsible father as the graduates of our program 
outreach to their friends and relatives. It is impossible to 
determine what proportion of the young parent population may 
have been effected in some way by this contact.
    With the additional funding, our hope is to provide ongoing 
support to the young men currently involved in the program as 
well as to increase annual individual contact to 125 
individuals. Well over 90% of program participants have been 
and will continue to be from low-income and ``inner-city'' 
sections of Greater Lynn.
      

                                <F-dash>


Statement of Center for Families, School of Consumer and Family 
Sciences, Purdue University, West Lafayette, Indiana

Purdue University Center for Families and Cooperative Extension Service 
               Communities Working Together with Fathers

                         ``It's My Child Too''

              A Parent Education Program for Young Fathers

    What does it mean to be a responsible father? What are the 
roles and responsibilities associated with fatherhood? What 
role do communities play in supporting young fathers to 
increase their commitment and involvement in the lives of their 
children?
    The Center for Families at Purdue University has found 
supportive parent education programs such as It's My Child Too, 
disseminated through the Purdue University Cooperative 
Extension Service, to be a valuable resource for young fathers.
    The Center for Families and the Purdue Cooperative 
Extension Service collaborate in the implementation of this 
model program for young fathers. The Center for Families is a 
catalyst for initiating and integrating outreach, teaching, and 
research activities that support families. The Purdue 
University Cooperative Extension Service is an educational 
organization operating in each of Indiana's 92 counties to 
maximize the contributions that Purdue, a land grant 
university, makes to the well-being of Indiana residents.
    The It's My Child Too program is aimed at young fathers 14-
25 years of age in need of knowledge and skills associated with 
competent parenting. Most participants to date have been living 
in high-risk circumstances due to limited economic and 
educational resources. The short-term parent education program 
(minimum 6 90-minutes sessions) is viewed as a first step in 
heightening young men's awareness of the roles, 
responsibilities, and skills of fatherhood. The content is 
tailored to the needs of participants. Major content areas 
include: young father's roles in the lives of their children; 
responding appropriately to children's developmental needs; 
coping with stress; communicating with the mother of the child; 
and responsible decision-making (sexuality, financial support, 
and establishment of paternity).
    The unique county-team design calls for community 
collaboration to support the successful implementation of the 
It's My Child Too program. Technical assistance and evaluation 
provided by Purdue University's Center for Families further 
supports county teams through resource, referral and evaluation 
feedback.
      

                                <F-dash>


Statement of Citizens for Parental Accountability, Chantilly, Virginia

                      A Real Rx for Welfare Reform

    On Thursday, July 30, 1998, the United States House of 
Representatives Subcommittee on Human Resources will hold 
hearings regarding the role of fatherhood in the welfare reform 
effort. IT IS ABOUT TIME THAT MEMBERS OF CONGRESS ADDRESS THE 
``ABSENT PARENT'' COMPONENT OF WELFARE REFORM IN A FUNDAMENTAL 
AND MEANINGFUL WAY.
    As a single-parent of five and public assistance recipient, 
I participated in two sets of welfare reform hearings; (one in 
July of 1994 and one in February of 1995). During my testimony, 
I emphasized the importance of parental accountability for both 
parents involved as Congress pursued a ``work first'' approach 
to welfare reform. Today, I can offer a unique and different 
perspective on this issue.
    After seven years of separation and the receipt of various 
types of public assistance, my family was reunited in February 
of 1997. My husband and I have five children. In today's 
economy, the adequate provision for and care of children 
generally requires the combined effort of both mothers and 
fathers. Of course there are exceptions. However, the majority 
of typical American citizens living as single-parents have 
difficulty in meeting the needs, both financial and emotional, 
of their children. This is not an unkind remark. It is simply a 
fact. I know. I've been there.
    After a lot of hard work, discussion, and compromise, my 
husband returned to our family. It has not been easy to rebuild 
our broken home. He has participated in forums I hold to inform 
others about child support availability and enforcement. He has 
freely acknowledged the error of what he did in financially 
abandoning us and has been diligent in progressing forward at 
his current employment.
    We, together, can share the experience we have had as the 
only realistic answer to the welfare dilemma. It takes two 
parents to make a child. It takes two parents to appropriately 
support that child. This message is important and needs to be 
shared with any legislator who truly desires to make a 
difference in this frustrating area of American social policy.
     HOPEFULLY, THESE HEARINGS WILL PROVIDE THE FIRST STEP 
TOWARD AFFIRMATIVELY INCLUDING BOTH PARENTS IN THE WELFARE 
REFORM PROCESS. TRUE FAMILY SELF-SUFFICIENCY CAN ONLY BE 
ACHIEVED WHEN BOTH PARENTS CONTRIBUTE TO THE BEST OF THEIR 
INDIVIDUAL ABILITY.
      

                                <F-dash>

                     Connecticut Commission on Children    
                                Hartford, Connecticut 06106
                                                      July 30, 1998

RE: The Fathers Count Act, 1998, H.B. 3314

    Honorable E. Clay Shaw Jr.
    Chairman of the Subcommittee on Human Resources

    Good day, Congressman Shaw and honorable members of Congress. The 
Connecticut Commission on Children is pleased to have this opportunity 
to submit testimony to the House Ways and Means Committee, Sub 
Committee on Human Resources regarding House Bill 3314, ``The Father 
Counts Act of 1998.'' We submit this testimony to you in the spirit of 
our statutory charge by the Connecticut General Assembly to ``promote 
public policies that enhance the interest and well being of children 
and make recommendations for children annually to the Legislature and 
to the Governor.'' To that end, we support the efforts of this 
Committee to fund programs that promote and enhance positive father 
involvement with their children.

                               Background

    Unfortunately, in the past three decades, there has been a 
dramatic rise in the number of children living in households 
without fathers. In a 1997 report published by the Connecticut 
Association for Human Services, 149,702 families in Connecticut 
were single-parent families--that translates into 20% of all 
families in Connecticut. Research on promoting positive father 
involvement suggests that encouraging fathers to provide for 
their children economically and to be regularly and positively 
connected to them, whether or not the father lives in the home, 
helps children to do better emotionally and academically and 
lessens the incidence of behavioral problems, whether or not 
the father lives in the home. Thus, encouraging positive father 
involvement is central to an agenda for children in order to 
ensure economic security, emotional well being and opportunity 
to achieve educational success.
    In recent decades, fathers have become increasingly 
involved in their children's lives. But fathers are still much 
less involved than mothers. It has been estimated that fathers 
engage their children only two-fifths as much as mothers do and 
are only two-thirds as accessible to their children as are 
mothers. In 1994, 24% of American children lived in a single 
mother household, up from 8% in 1960. Most single-mother 
households are the result of the high divorce rate in this 
country, but a growing number are due to never-married child 
rearing. In 1993, almost 10% of children in the United States 
were living with never-married mothers, up from less than half 
of a percent in 1960.
    This rise in father absence has attracted public concern 
across the political spectrum. For example, according to a 
recent Gallup poll conducted for the National Center on 
Fathering, 79% of Americans either agree or strongly agree that 
``the most significant family or social problem facing America 
is the physical absence of the father from the home.''
    In reaction to the growing focus on the importance of 
fathers, we at the Connecticut Commission on Children have 
researched the effects of father involvement and the types of 
programs being implemented to promote positive father 
involvement.

                                Research

    In recent years, research on fathers has burgeoned. Two 
general fields of research have emerged. The first field 
investigates the benefits of father involvement in married-
parent families. University of Illinois professor of human 
development Joseph Pleck has differentiated three levels of 
father involvement: amount of fathers' engagement with their 
children, fathers' accessibility, and fathers' share of 
responsibility in taking care of their children. To be 
beneficial, this involvement must be positive. The second field 
looks at differences between children growing up in married-
parent families and single-parent families. These two fields of 
research indicate that positive father involvement benefits 
children and parents, while father absence is detrimental to 
children and parents.
    According to the research, positive father involvement 
contributes to the cognitive, social-emotional, and moral 
development of children from infancy through early adulthood. 
In young children, positive father involvement is positively 
related to cognitive performance, empathy, self-control, 
appropriate sex-role behavior, and security of parental 
attachment. In school-aged children and adolescents, positive 
father involvement is positively related to academic 
performance, social competence and self-esteem, and is 
negatively related to behavior problems.
    For example, a recent report by the U.S. Department of 
Education indicates that children fare better in school if 
their fathers, in addition to their mothers, are involved in 
their education.
    In a study of fathers and their children spanning four 
generations, Harvard psychologist John Snarey found that 
fathers' involvement was predictive of the educational, social, 
and occupational success of their children in young adulthood 
as well. Furthermore, he found that the best predictor of men's 
involvement with their children is the involvement of their 
fathers when they were growing up.
    Positive father involvement benefits parents in addition to 
children. Snarey found that father involvement not only does 
not impede occupational success, but it is modestly related to 
greater occupational success. Other studies also indicate that 
involvement with one's children serves as a buffer for work-
related stress and can increase productivity. Furthermore, 
Snarey found that marital success is predicted by men's 
involvement with their children.
    Unfortunately, fathers who are divorced or never married 
often have limited contact with their children. Furthermore, 
even when non-residential fathers remain involved in their 
children's lives, the benefits of this involvement are 
questionable, particularly if a father does not have a good 
relationship with his children's mother.
    Not surprisingly, father absence has been found to be 
detrimental to children. For example, in a study utilizing four 
national data sets, Sara McLanahan and Gary Sandefur at the 
University of Wisconsin have found that children of single-
mother families are at modestly greater risk, compared to 
children whose parents are married, for dropping out of school, 
becoming teen parents, and being detached from the workforce as 
young adults. Children of never-married mothers are slightly 
more at risk than children of divorce. Additionally, McLanahan 
and Sandefur found that the risks experienced by children of 
single-mothers are not significantly reduced by the presence of 
stepfathers.
    A good deal of the increased risk experienced by children 
of single-mothers is due to the loss of their fathers as 
economic providers. Furthermore, single-mother families move 
more frequently and have less community support resources than 
do married parents. These factors affect mothers as well as 
children. Because of their low-income level and isolation from 
community support resources, single-mothers experience greater 
amounts of stress than do married mothers.
    Fathers also suffer from being separated from their 
children. In fact, fathers may suffer more depression and 
psychological problems as a result of divorce than do their 
spouses. Evidence shows that fathers who have never been 
connected with their children also suffer adverse psychological 
consequences such as depression and low self-esteem. 
Additionally, Rutgers University sociologist David Popeno 
argues that responsible fatherhood helps to socialize men as 
responsible members of society. When men forfeit the 
responsibility of fatherhood, they run the risk of becoming 
marginalized from society.
    On a broader scale, father absence is associated with a 
number of social problems. A number of theorists and policy 
makers argue that father absence is a leading cause of a number 
of this country's social ills. Research does indicate that 
communities with high levels of father absence tend to also 
have high rates of poverty, crime, and young men in prison. 
From these findings it is tempting to conclude that father 
absence contributes to the social ills. However, one must be 
cautious in interpreting these findings because they are 
correlational and do not imply father absence causes the other 
problems with which it is associated.

                                Programs

    Our research has revealed that there are a large number of 
growing efforts throughout the country designed to promote 
positive father involvement. Efforts to promote positive father 
involvement generally have one or more of three aims.
    <bullet> First, efforts can aim to increase positive 
paternal involvement in families where the father lives with 
his children.
    <bullet> Second, efforts can aim to facilitate and support 
positive connections between non-residential fathers and their 
children.
    <bullet> Third, efforts can aim to prevent father absence.
    These aims are not mutually exclusive, and successful 
efforts should incorporate all three of them.
    In order to effectively promote positive father 
involvement, it is important to understand the factors 
underlying father involvement and the barriers that fathers 
encounter when they try to increase their involvement. 
Developmental psychologist Michael Lamb and his colleagues have 
identified a widely adopted hierarchy of four factors 
influencing paternal behavior, all of which must be met in 
order to successfully enhance men's involvement with their 
children. These factors include: motivation, skills and self-
confidence, support, and institutional practices. A father's 
motivation is influenced by his personality characteristics, 
his family history (including growing up with his own father), 
his beliefs, and the beliefs of the community to which he 
belongs. Once motivated, a father must have confidence in his 
skills and ability as an individual and as a man to 
successfully raise his children. To be successfully involved 
with his children, a father must also be supported by his 
family and community. Furthermore, it is imperative that 
institutions, such as a father's workplace and the childcare 
and educational institutions which his children attend, do not 
impede (and hopefully encourage) his involvement with his 
children. On a broader institutional scale, society must 
provide social and economic support for fathers' involvement. 
To effectively promote positive father involvement, a 
repertoire of programs and legislation should be designed to 
impact all four of the factors.
    A variety of programs exist that have at least one of the 
three aims mentioned above and are designed to impact multiple 
factors influencing father involvement. These programs can be 
further divided into four general categories.
    <bullet> The first category consists of programs designed 
to prevent males from fathering children until they are 
prepared to be good parents.
    <bullet> The second category consists of programs designed 
to connect fathers with their children either at birth or after 
a period of absence.
    <bullet> The third category consists of programs designed 
to support fathers' continued involvement with their children.
    <bullet> The fourth category consists of programs designed 
to help fathers to be better economic providers.
    Prevent. Programs designed to prevent males from fathering 
children until they are prepared to be good parents are usually 
aimed at adolescents and preadolescents. These programs are 
offered by a variety of institutions, including schools, 
community centers, and religious groups. Most prevention 
efforts, however, take the form of curriculum-based programs 
offered in schools or community centers. These prevention 
curricula have typically focused on females, and research 
indicates that teen pregnancy prevention efforts may be less 
effective for males. Recently, Planned Parenthood, in 
conjunction with the Children's Aid Society and Philliber 
Research, outlined a conceptual framework for successful male 
focused teen-pregnancy prevention programs. The authors 
conclude that successful programs should be long-term and 
intensive, provide close relationships with caring adults, 
elicit the support of peers and parents, and focus on skills 
building and activity-based lessons.
    Connect. Programs to promote fathers' positive involvement 
with their children must first address the most basic 
connection between father and child. The man's acknowledgment 
that he is the child's father. This establishment of paternity 
has clear financial benefits for children. When paternity is 
established, children are eligible for social security and 
health care benefits (if their fathers are insured), and 
fathers are also legally responsible to contribute financial 
support to their children. But paternity establishment has 
psychological benefits as well. It encourages fathers to 
develop a sense of responsibility towards their children, and 
even if fathers do not get involved in their children's 
upbringing, the children still grow up with a better sense of 
their heritage and identity.
    The best time to establish paternity is at birth. Programs 
based upon this premise have significantly increased the rates 
of paternity establishment by encouraging unwed fathers to 
establish paternity while in hospitals' maternity wards. Even 
if fathers do not establish paternity at birth, programs can 
encourage them to do so at a later date.
    Support. After a father forms a connection with his child, 
he must feel supported by his family and his community in order 
to remained involved. A number of resource centers and support 
groups have been established to help provide such support to 
residential and non-residential fathers. These services 
typically offer services such as legal aid and advocacy for 
fathers, parenting classes, counseling for couples, and job 
training.
    Job Training. Since father's absence is most prevalent in 
impoverished families; most of these programs focus on helping 
low income fathers develop employment skills and help him stay 
psychologically involved with his child. A key component of 
promoting the involvement of low-income fathers is to overcome 
economic barriers to positive father involvement by helping 
them find employment. In addition, states should evaluate 
welfare reform policies to make sure that they promote a 
positive fatherhood agenda.
    In summary, effective efforts to promote positive father 
involvement intervene on multiple levels to break down the 
personal, cultural, political and societal barriers that many 
men encounter as they try to increase their involvement in 
their children's lives. In Connecticut, and throughout the 
country, a growing number of programs are helping to prevent 
unprepared young men from becoming fathers, connect absent 
fathers with their families, support fathers' continued 
positive involvement with their children and become better 
economic providers.
    The Commission on Children strongly supports H.R. 3314 
because, by providing these programs with much needed support, 
the Fathers Count Act will help Connecticut parents who are 
struggling to balance the responsibilities of work and family, 
and it will help bolster their children's success in school and 
as future parents.
    The Commission also supports federal policies (the Personal 
Responsibility and Work Reconciliation Act of 1996 (PRA) and 
the Balanced Budget Act of 1997(BBA)) that have given states 
the opportunity to promote responsible fatherhood in several 
ways. Under the new welfare law, states can increase family 
income by: 1) providing employment and training to fathers; 2) 
increase child support collections; and 3) increase the 
distribution of child support collected on behalf of families 
receiving Temporary Assistance to Needy families (TANF). Funds 
allocated to the States from H.B. 3314 should be linked to and 
coordinated with State welfare reform initiatives to ensure 
maximization of funds and to eliminate duplicative programs.
    The Commission on Children has made available to you copies 
of our recent study on ``The Importance of Fatherhood: 
Promising Efforts to Promote Positive Father Involvement'' 
written by Christopher C. Henrich, M.S. Psychology, Yale 
University. Thank you for your consideration of this testimony.

                                   - 

</pre></body></html>
